<html>
<title> - THE SCIENCE OF SECURITY, Part I: Lessons Learned in Developing, Testing  and Operating Advanced Radiation Monitors and PART II: Technical Problems Continue to Hinder Advanced Radiation Monitors</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                        THE SCIENCE OF SECURITY,
                             PARTS I AND II

=======================================================================

                                HEARINGS

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 2009
                                  AND
                           NOVEMBER 17, 2009

                               __________

                           Serial No. 111-38
                                  and
                           Serial No. 111-63

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______








                        U.S. GOVERNMENT PRINTING OFFICE
50-324 PDF                      WASHINGTON: 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001















                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

              Subcommittee on Investigations and Oversight

                HON. BRAD MILLER, North Carolina, Chair
STEVEN R. ROTHMAN, New Jersey        PAUL C. BROUN, Georgia
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
CHARLES A. WILSON, Ohio              VACANCY
KATHY DAHLKEMPER, Pennsylvania         
ALAN GRAYSON, Florida                    
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
                    ALEX MATTHEWS Research Assistant
            TOM HAMMOND Republican Professional Staff Member
                      JANE WISE Research Assistant
                            C O N T E N T S

The Science of Security, Part I: Lessons Learned in Developing, Testing 
               and Operating Advanced Radiation Monitors

                             June 25, 2009

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......    10
    Written Statement............................................    11

                                Panel I:

Mr. Gene Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office (GAO)
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    22

Dr. Micah D. Lowenthal, Director, Nuclear Security and Nuclear 
  Facility Safety Program, Nuclear and Radiation Studies Board, 
  National Research Council, The National Academies
    Oral Statement...............................................    22
    Written Statement............................................    24
    Biography....................................................    28

Discussion
  Prioritizing Security Needs....................................    29
  Decision-making: Processes and Timelines.......................    30
  ASP in Context: The Global Nuclear Detection Architecture......    31
  Management of ASP Testing and Deployment.......................    32
  Justifying the Cost of the Advanced Spectroscopic Portal 
    Program......................................................    33

                               Panel II:

Dr. William K. Hagan, Acting Deputy Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security
    Oral Statement...............................................    35
    Written Statement............................................    37
    Biography....................................................    40

Mr. Todd C. Owen, Acting Deputy Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, 
  Department of Homeland Security
    Oral Statement...............................................    41
    Written Statement............................................    42
    Biography....................................................    46

Discussion.......................................................    47

              Appendix: Additional Material for the Record

Combating Nuclear Smuggling: DHS Improved Testing of Advanced 
  Radiation Detection Portal Monitors, but Preliminary Results 
  Show Limits of the New Technology, Report to Congressional 
  Requesters, U.S. Government Accountability Office, GAO-09-655, 
  May 2009.......................................................    54

Prepublication Copy, Evaluating Testing, Costs, and Benefits of 
  Advanced Spectroscopic Portals for Screening Cargo at Ports of 
  Entry, Interim Report (Abbreviated Version), Committee on 
  Advanced Spectroscopic Portals, Nuclear and Radiation Studies 
  Board, Division of Earth and Life Studies, National Research 
  Council of the National Academies..............................    86

The Science of Security, Part II: Technical Problems Continue to Hinder 
                      Advanced Radiation Monitors

                           November 17, 2009

Witness List.....................................................   178

Hearing Charter..................................................   179

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................   184
    Written Statement............................................   185

Statement by Representative Paul C. Broun, Ranking Minority 
  Member, Subcommittee on Investigations and Oversight, Committee 
  on Science and Technology, U.S. House of Representatives.......   186
    Written Statement............................................   187

                               Witnesses:

Mr. Gene Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office (GAO)
    Oral Statement...............................................   193
    Written Statement............................................   195
    Biography....................................................   199

Dr. Timothy M. Persons, Chief Scientist, U.S. Government 
  Accountability Office (GAO)
    Biography....................................................   200

Mr. Todd C. Owen, Acting Deputy Assistant Commissioner, Office of 
  Field Operations, U.S. Customs and Border Protection, 
  Department of Homeland Security
    Oral Statement...............................................   200
    Written Statement............................................   202
    Biography....................................................   206

Dr. William K. Hagan, Acting Deputy Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security
    Oral Statement...............................................   207
    Written Statement............................................   208
    Biography....................................................   211

Discussion
  CBP Procedures After a Primary Alarm and the Effect of False 
    Positives....................................................   212
  Steps Taken to Reduce False Positives and Negatives............   213
  Mission Critical Failure.......................................   215
  Energy Windowing to Improve PVT Performance....................   216
  The CBP Inspection System......................................   217
  The Helium-3 Shortage and Potential Alternative Materials......   218
  In What Circumstances Should ASPs Be Deployed?.................   219
  Expectations of a Cost-benefit Analysis on ASPs................   220
  Metrics and Timelines for Making Decisions About ASPs..........   222

              Appendix: Answers to Post-Hearing Questions

Dr. William K. Hagan, Acting Deputy Director, Domestic Nuclear 
  Detection Office, Department of Homeland Security; and Mr. Todd 
  C. Owen, Acting Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Department of 
  Homeland Security..............................................   230

Mr. Gene Aloise, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office (GAO); Mr. Todd C. Owen, 
  Acting Deputy Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, Department of 
  Homeland Security; and Dr. William K. Hagan, Acting Deputy 
  Director, Domestic Nuclear Detection Office, Department of 
  Homeland Security..............................................   235

 
    THE SCIENCE OF SECURITY, PART I: LESSONS LEARNED IN DEVELOPING, 
           TESTING, AND OPERATING ADVANCED RADIATION MONITORS

                              ----------                              


                        THURSDAY, JUNE 25, 2009

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                The Science of Security, Part I: Lessons

                  Learned in Developing, Testing, and

                 Operating Advanced Radiation Monitors

                        Thursday, June 25, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 Rayburn House Office Building

Purpose

    The Subcommittee on Investigations and Oversight meets on June 25, 
2009 to examine problems with the Department of Homeland Security's 
(DHS) efforts to acquire its next generation radiation monitors known 
as Advanced Spectroscopic Portals (ASPs). The ASP program has been 
under scrutiny since 2006 for failing to have clear-cut program 
requirements, an adequate test plan, sufficient timelines and 
development milestones or a transparent and comprehensive cost benefit 
analysis. Since the Domestic Nuclear Detection Office (DNDO), a DHS 
component, was created in 2005, they have been responsible for 
researching, developing, testing and managing the program.
    The hearing will examine two new independent reports--one by the 
Government Accountability Office (GAO) and the other by the National 
Academy of Sciences--that identify ongoing and systematic problems in 
the testing and development of the ASP program. With an estimated 
program cost of $2-to-$3 billion the Subcommittee will evaluate the 
rigor of the overall test program, the technical abilities of the ASPs 
compared to existing radiation portal monitors and search for lessons 
from the ASP program that can be applied to future DHS acquisitions.

Background

    Since the terrorist attacks of September 11, 2001, protecting the 
Nation from a nuclear or radiological attack has been a top national 
security priority. In 2002, to help address this potential threat, the 
U.S. Customs and Border Protection (CBP) agency began deploying 
radiation monitors at U.S. border sites and ports of entry so its 
officers could screen the more than 23 million containers of cargo that 
enter the country every year for radiological and nuclear materials.
    The equipment used to screen this cargo both then and now are 
polyvinyl toluene (PVT) or ``plastic'' portal monitors able to detect 
the presence of radioactive sources, but unable to identify the type of 
radiation present. The PVT monitors, while relatively inexpensive, 
robust and highly reliable, are unable to distinguish between 
radioactive sources that might be used to construct a nuclear bomb, 
such as Highly Enriched Uranium (HEU), and non-threatening naturally 
occurring radiological materials (NORM) contained in ceramic tiles, 
zirconium sand or kitty liter, for instance. As a result, any time a 
PVT monitor detects a radioactive source the cargo is sent to 
``secondary'' screening where CBP agents verify the detection of the 
radioactive source with a second PVT monitor and use hand-held 
Radioactive Isotope Identification Devices called RIIDs to help 
identify the source of radiation.
    This method of operation leads to many ``secondary'' inspections 
for naturally occurring radioactive material or radioactive material 
intended for benign purposes, such as radioactive medical isotopes. At 
the Los Angeles/Long Beach port of entry, for instance, PVT monitors 
routinely send up to 600 conveyances of cargo to secondary inspection 
each day. The RIIDs, used in secondary inspections however, are limited 
in their abilities to locate and identify potential threat material in 
large cargo containers. As a result, CBP officers can consult with 
scientists in CBP's Laboratories and Scientific Services (LSS) unit who 
can often help them enhance the ability to correctly identify the 
radioactive material of concern. As a last resort, CBP officers may 
physically search a cargo container by emptying its contents and 
closely scrutinizing it for potentially dangerous radioactive material.
    If terrorists were to try to smuggle nuclear or radiological 
materials in containerized cargo--and there are ample other pathways 
for such smuggling--they would likely try to shield or ``mask'' those 
materials in an attempt to make it more difficult to detect, identify 
and locate the material of concern. Shielding requires that lead or 
steal or other types of metal enclose the radioisotopes to hide its 
radioactive signature. Potential terrorists may also attempt to 
``mask'' threatening radioactive material by placing it together with 
or alongside other non-threatening material that has a natural 
radioactive signature, such as ceramic material, kitty litter or even 
bananas. Most nuclear security experts believe smuggled radioactive or 
nuclear material would be both shielded and masked in order to conceal 
it from being located and properly identified. Obviously, these efforts 
would make it harder to detect.
    In order to help both improve the flow of commerce by eliminating 
many of the false alarms that send cargo for secondary screening and to 
more accurately identify radioactive or nuclear material, the 
Department of Homeland Security (DHS) began developing Advanced 
Spectroscopic Portals (ASPs) in 2004. The ASPs were intended to both 
detect and identify radioactive material. In April 2005, the Domestic 
Nuclear Detection Office was created by National Security Presidential 
Directive-43/Homeland Security Presidential Directive-14 to, among 
other things, research, develop, test and acquire radiation detection 
equipment to be used by CBP and other federal agencies. The office was 
not formally established until October 2006 under the SAFE Port Act.
    From the very start of the ASP program, DNDO seemed to push for 
acquisition decisions well before the technology had demonstrated that 
it could live up to its promise. On July 14, 2006, Secretary of 
Homeland Security Michael Chertoff and the Director of DNDO, Vayl 
Oxford, announced contract awards to three companies worth an estimated 
$1.2 billion to develop the ASPs, including the Raytheon Company, from 
Massachusetts, the Thermo Electron Company from Santa Fe, New Mexico 
and Canberra Industries from Connecticut. Both Chertoff and Oxford held 
a press conference to announce the billion dollar contract awards just 
a few months after highly critical reviews of the ASPs' abilities by 
the GAO and the National Institute of Standards and Technology (NIST).
    In March 2006, GAO said: ``it is not clear that the benefits of the 
new portals would be worth any increased cost to the program.'' In June 
2006, NIST submitted a report to DHS on results of side-by-side testing 
the previous year at the Nevada Test Site of both ASP and PVT systems. 
The DNDO had assumed that the ASPs would correctly identify HEU 95 
percent of the time for both bare or unmasked HEU and HEU masked in a 
container with more benign radiological material. Yet, NIST found that 
the three best ASP systems tested identified HEU only 70 to 88 percent 
of the time. Their ability to identify ``masked'' HEU was much worse. 
The three ASP manufacturers did this only 53 percent of the time 
(Raytheon), 45 percent of the time (Thermo) and 17 percent of the time 
(Canberra). ``Despite these results,'' the GAO found, ``DNDO did not 
use the information from these tests in its cost-benefit analysis.'' 
DNDO claimed that they assumed they would meet the 95 percent 
performance level at some point in the future but provided no data on 
why they reached this conclusion, said GAO.
    At the Chertoff-Oxford press conference in July 2006, then 
Secretary of Homeland Security, Michael Chertoff, said one of the key 
reasons for developing the ASPs and replacing the existing radiation 
monitors was to ``have fewer false positives.'' In September 2007, Vayl 
Oxford, the Director of DNDO reiterated that point in testimony to 
Congress where he emphasized that the ASPs would reduce the number of 
false alarms from the nearly 600 experienced each day by the PVTs at 
the port of Long Beach in California, for instance, to 20 to 25 per day 
with the new ASP monitors.
    That was the hope, anyway. One of the criteria for ASP primary 
screening prior to certification of the new radiation monitors by the 
Secretary of Homeland Security, which is required by the appropriations 
committees, is that the ASPs must refer at least 80 percent fewer 
conveyances for further inspection than the PVTs. But in ``field 
validation tests'' earlier this year, by one of the two remaining 
contractors, the ASPs being tested sent more innocent radioactive 
shipments to secondary screening than the older PVT monitors. The cause 
of the high false positives was apparently due to a software glitch. 
This was a serious concern to the Customs and Border Protection 
personnel who will have to operate and maintain the ASPs if and when 
they are certified and deployed. The contractor has reportedly 
corrected the software issue and intends to return the ASPs to field 
validation testing next month.
    Last fall, ``integration'' testing of the ASPs by the second 
remaining contractor was halted because of different technical troubles 
with its own software. The contractor corrected the problem and its ASP 
machines re-entered integration testing late last year. The contractor 
hopes to finish integration testing and begin field validation testing 
in early August. Still, both contractors are now many months behind 
schedule because technical issues have forced delays.
    Virtually any high-technology research and development program 
experiences bumps in the road, technical troubles and occasional set-
backs. However, well managed programs have clear technical requirements 
and strategic goals. They ensure that the new technology being 
developed is thoroughly tested and adequately integrated into the 
operational plans and procedures of those who must operate them in the 
field. When these vital components are short changed, when the test 
plan is insufficient and the program's research, development and 
testing methods are marred by scanty scientific rigor, the technical 
tools being developed are bound to suffer as a result. Cutting critical 
corners in the development process serves no one's interests. Yet, from 
the start many of the leaders of the ASP program at DHS seemed more 
interested in fielding this technology then in vigilantly validating 
its performance and effectiveness. At the July 2006 press conference 
unveiling the contractors on the ASP program, for instance, Vayl Oxford 
said: ``the priority for the first year . . . is to get units out 
immediately.'' Three years later, none of these units have yet cleared 
field validation tests.
    The policy governing the ASP program and the disproportionate focus 
on getting the ASP units into the field quickly never matched the 
multiple independent technical assessments of the technology being 
developed and tested. Over the past three years the Government 
Accountability Office has issued six reports on the ASP program and 
testified before Congress multiple times on this matter. Last year the 
Homeland Security Institute, a Federally Funded Research and 
Development Center for DHS, issued a report on the ASPs that also 
criticized the ASP test program, saying it provided insufficient data. 
The National Academy's of Science, which will release an interim report 
on the ASPs that they have just concluded this week, will provide 
testimony at the Subcommittee hearing that echoes many of the concerns 
raised by GAO over the years.

History of Problems

    In 2006, the GAO issued a harsh critique of the DNDO's cost-
benefit-analysis (CBA) of the ASPs. The DNDO analysis omitted critical 
test data that identified major technical problems with the ASPs and 
they drastically increased the procurement costs of the PVTs. In short, 
the GAO found DNDO's cost-benefit analysis was ``incomplete,'' based on 
``unreliable'' data and used ``inflated cost estimates for PVT 
equipment.''
    In 2007, GAO concluded that tests of the ASPs conducted by DNDO 
were ``biased'' and ``were not an objective and rigorous assessment of 
the ASPs' capabilities.'' The tests, for instance, used insufficient 
amounts of materials likely to mask or shield radioactive threat 
sources that terrorists might attempt to smuggle into the country. The 
tests, said GAO, did not attempt to test the limitations of the ASPs 
and ``did not objectively test the performance'' of currently used 
hand-held radiation detectors or RIIDs.
    Last year, in their own independent cost estimate of the ASP 
program, GAO found that the ASPs could cost about $3.1 billion, $1 
billion more than the DNDO's estimate. The GAO also found that the DNDO 
had often changed its deployment strategy, eliminating plans to develop 
ASP portals for rail, airport and seaport cargo screening terminals, 
for instance. As a result, GAO estimated the newest scaled back plan 
reduced the potential costs of the program to about $2 billion from 
2008 to 2017. The only documentation that DNDO provided to GAO for this 
major change in the ASP program was a one-page spread-sheet and DNDO 
has still not released an updated cost-benefit analysis of the program.
    In addition, GAO criticized DNDO's decision not to complete 
computerized simulations or ``injection studies'' of the ASPs prior to 
certification by the Secretary of Homeland Security. The National 
Academy of Sciences has also found that computer modeling is critically 
important to the ASP program since running every potential radioactive 
smuggling scenario in live tests is unrealistic. Computer simulations 
would help provide a clearer assessment of the potential performance of 
the ASPs in actual smuggling incidents and effectiveness at identifying 
threatening radioactive material. DNDO, however, does not plan to 
complete the studies prior to the Secretary of Homeland Security's 
decision on certification, which DNDO expects to occur in October.

Problems Remain

    While DNDO's past tests have been characterized as being unsound, 
incomplete and limited in scope, the GAO's most recent work on the ASP 
program does point to some improvements in the integrity of the latest 
round of tests. However, they also pinpointed significant technical 
limitations which have not yet been resolved.
    The ASP portals did prove more effective than the PVTs in detecting 
HEU materials concealed by ``light shielding.'' However, differences 
between the ASPs and PVTs became less notable when shielding was 
slightly increased or decreased. In past tests there was virtually no 
difference in the performance of the two machines with regard to 
detecting other kinds of radioactive isotopes, such as those used for 
medical or industrial purposes, according to the GAO, except in one 
case where the ASPs performed worse than the PVTs. Whether these other 
forms of radioactive sources are sensed by a PVT or ASP machine they 
all require secondary inspection to determine why a payload contains 
radioactive material. In detecting HEU, the ASPs performed better only 
in one narrowly defined scenario, which many experts see as an 
unrealistic portrayal of a true attempted nuclear smuggling incident. 
None of the tests run by DNDO, for instance, included scenarios that 
utilized both ``shielding'' and ``masking'' as a means of attempting to 
smuggle radioactive or nuclear material.
    In addition, GAO and others have faulted DNDO for not focusing 
enough on attempting to improve the current radiation portal monitor 
program. Instead, DNDO has been nearly single-mindedly focused on 
developing Advanced Spectroscopic Portals at the expense of other far 
simpler alternatives. Surprisingly, for instance, DNDO has not 
completed efforts to improve the performance of PVTs by a method called 
Energy Windowing that could provide them with some limited, but 
enhanced, performance. Energy Windowing efforts are controversial and 
are believed to only provide modest enhancements to the performance of 
PVTs. But both GAO and CBP has been pushing DNDO to do more on this 
front for years. In addition, DNDO has not made efforts to upgrade the 
software in the hand-held radiation detection units known as RIIDs that 
could also provide a far less expensive alternative to enhancing the 
operational effectiveness of radiation monitors.
    Because both remaining ASP contractors suffered from serious 
technical problems in their last round of testing, Customs and Border 
Protection (CBP) agency personnel fear that if the ASPs are certified, 
procured and deployed that they will encounter many problems in the 
field that will negatively impact their day-to-day operations and 
perhaps the technical effectiveness of the current radiation monitoring 
program to actually detect illicit nuclear or radiological material 
coming into the country. The GAO, National Academy of Sciences and 
others have also criticized DNDO for not seeking input from CBP 
officials on the ASP program from the start. The relationship has 
improved and DNDO does attempt to include CBP in critical decisions 
regarding the ASP program today. But many critics say perhaps one of 
DNDO's biggest failures was the fact that they did not do this from the 
beginning, seeking input from the operational users of the technology 
that DNDO was tasked to research, test and develop.
    As a result of all of these issues, the ASPs continue to suffer 
from key questions about their ability to provide significant improved 
performance over existing radiation detection equipment currently 
fielded at U.S. ports. The Department of Homeland Security has already 
spent more than $235 million on the ASP program. But if the Secretary 
of Homeland Security certifies that the ASP monitors are worth 
investing in this fall--just three to four months from now--then $2 
billion more may be invested to procure ASP radiation monitors. Yet, 
given the continued criticism of the narrowly focused and inadequate 
ASP test program, the limited technical improvements they may offer 
over current radiation monitors and significant increased costs to 
maintain and operate the ASPs compared to the PVTs, the success of the 
program remains in doubt.

Key Issues

        [bullet]  Go Slow. Uncovering and resolving technical problems 
        once newly developed radiation monitors are fielded may hinder 
        the ability to detect and identify radioactive or nuclear 
        material that poses a potential threat. It could disrupt 
        operations at U.S. borders and ports of entry curtailing the 
        flow of commerce and it will cost more to rectify these 
        problems in the field, rather than in the laboratory or at the 
        test range. Yet, rather than carefully testing and validating 
        the performance and effectiveness of the ASP monitors before a 
        major procurement decision is made DHS has continually sought 
        to get the ASPs into the field in spite of critical technical 
        flaws identified during testing.

        [bullet]  Cost Benefit Analysis. Even if the technical 
        abilities of the ASPs are proven, their relative technical 
        capabilities and increased costs must be carefully weighed in 
        comparison to the existing radiation monitoring system in place 
        today. Replacing a proven, less-costly system that has the 
        confidence of its operators, must be given careful 
        consideration. The DNDO has not yet provided an updated cost-
        benefit-analysis that would validate a decision to procure the 
        multi-billion dollar ASP equipment.

        [bullet]  Judging Performance. As the House Committee on 
        Appropriations has said in the past, procurement of the 
        Advanced Spectroscopic Portal monitors should not proceed until 
        they are deemed to add a ``significant increase in operational 
        effectiveness'' over the current PVT system already in place. 
        Last July, CBP, DNDO and the DHS management directorate jointly 
        issued criteria for determining this increase in effectiveness 
        in both ``primary'' and ``secondary'' screening. In primary 
        screening the criteria requires ASPs to detect potential 
        threats as well as or better than PVTs, show improved detection 
        of Highly Enriched Uranium and reduce innocent alarms. In 
        secondary screening the criteria requires ASPs to reduce the 
        probability of misidentifying special nuclear material (HEU or 
        plutonium) and reduce the average time to conduct secondary 
        screenings. The Secretary of Homeland Security must certify to 
        Congress that the ASPs have met these criteria before funding 
        for full-scale procurement of the ASPs goes forward. However, 
        the criteria to measure this improvement are weak and rather 
        vague.

        <bullet>  Lessons Learned. The Department of Homeland Security 
        must make greater efforts to avoid rushing to acquisition 
        decisions when the R&D is incomplete. With ASPs, the research 
        and development program itself has been hindered by a lack of 
        rigorous scientific evaluations, and undemanding testing 
        protocols. Moving to acquire systems plagued by such problems 
        may endanger security and significantly increase the costs of 
        the program. A review of DHS's major programs by GAO last 
        November found that 45 of 48 major programs did not adhere to 
        the agency's own investment review process that helps provide 
        appropriate oversight to address cost, schedule and performance 
        problems. In FY 2008, the review found, DHS spent $147.5 
        million on the ASP program despite the fact it did not have a 
        mission needs statement. The program also lacked operational 
        requirements documents and an acquisition program baseline.

Witnesses

Panel I:

Mr. Gene Aloise, Director, Natural Resources and Environment, 
Government Accountability Office

Dr. Micah Lowenthal, Division on Earth and Life Studies, Nuclear and 
Radiation Studies Board, National Research Council, The National 
Academy of Sciences

Panel II:

Dr. William Hagan, Acting Deputy Director, Domestic Nuclear Detection 
Office (DNDO), Department of Homeland Security (DHS)

Mr. Todd C. Owen, Acting Deputy Assistant Commissioner, Office of Field 
Operations, U.S. Customs & Border Protection (CBP), Department of 
Homeland Security (DHS).
    Chairman Miller. The hearing will now come to order. Good 
morning. Welcome to today's hearing, The Science of Security: 
Lessons Learned in Developing, Testing, and Operating Advanced 
Radiation Monitors.
    In the wake of the terrorist attacks on September 11, 2001, 
preventing the detonation of a nuclear or radiologic device--a 
`dirty bomb'--in the United States has become a top national 
security objective. We have invested billions of dollars since 
9/11 to develop the means to prevent, detect and respond to any 
attack by weapons of mass destruction. We developed radiation 
monitors at our port and border crossings to screen millions of 
cargo containers entering the United States every year, hunting 
for radiological material that could be used for terrorist 
purposes. Since 2004, the Department of Homeland Security has 
spent more than $230 million on a program to develop a new 
radiation detection system called an Advanced Spectroscopic 
Portal, or ASP, that can both detect and identify nuclear 
material.
    Congress expects that the funding federal agencies receive 
will be well spent. When it comes to scientifically challenging 
or technically demanding programs, it pays to have well-
prepared program requirements, demanding testing protocols and 
an independent and comprehensive cost-benefit analysis. Those 
vital steps, those vital program components help managers make 
informed decisions about whether to move forward with a 
technology development program or to replace a proven 
technology with a new technology. Unfortunately, despite recent 
progress, the ASP program has suffered because it lacked all 
the preparatory steps of a well-managed program. We will hear 
about some of those problems today from the Government 
Accountability Office and the National Academies of Science.
    Over the years, the GAO has released six reports on the ASP 
program. The GAO found that some of the Domestic Nuclear 
Detection Office's tests were biased and did not provide a 
rigorous assessment of ASP's capabilities. The Agency relied on 
incomplete and unreliable data in their cost-benefit analysis, 
omitting critical test data, inflating the cost of current 
radiation detectors and underestimating the cost of ASP 
monitors. The Department failed to produce a requirements 
document or adequate documentation regarding major changes to 
the planned ASP deployment strategy. DNDO never considered the 
option of investigating improvements of the existing radiation 
portal monitoring program, both the PVT monitors and the hand-
held detectors that Customs and Border Protection agents rely 
upon.
    The National Academy of Science's interim report on the ASP 
program, released yesterday, reflects many of the same 
concerns. The Academy calls for significant restructuring of 
DHS testing procedures for the ASP program. They question the 
criteria being used to judge the ASPs' performance and they 
recommend that DHS not proceed with further ASP procurement 
until they address all the findings and recommendations in 
their report.
    GAO's reports have provided a regular accounting of how the 
ASP program was going wrong. The Academy report provides a 
roadmap to how the program can be put back on track, assuming 
that the Department determines that it is worth the cost and 
effort.
    Radioactive materials have become a normal part of 
commerce. They are used for medical procedures and industrial 
applications. Bananas have radiation. Technology can help us 
detect and identify radioactive sources in cargo containers but 
no technology can sort out good radioactive material intended 
for legitimate purposes from the bad radioactive materials 
intended to do us harm. As a result, human operators will still 
need to make important decisions often informed by intelligence 
efforts to keep the Nation secure. Well-trained, well-equipped 
people, law enforcement officers and Customs and Border 
Protection inspectors will always be critical to the equation.
    This hearing addresses our responsibility to the 
technological part of that equation. Before we move forward 
with a $2 billion or $3 billion program, we must ensure that we 
get our money's worth from the new technology. Put another way, 
if we have $2 billion or $3 billion to spend to enhance our 
security, is this technology really how we should spend it?
    I look forward to hearing from all of our witnesses today.
    And now I recognize Dr. Broun, the Ranking Member from 
Georgia, for an opening statement.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    In the wake of the terrorist attacks of September 11, 2001, 
preventing the detonation of a nuclear or radiological device in the 
U.S. has become a top national security objective.
    We have invested billions of dollars since 9/11 to develop the 
means to prevent, detect and respond to any attack by weapons of mass 
destruction. We have deployed radiation monitors at our ports and 
border crossings to screen millions of cargo containers entering the 
U.S. every year, hunting for radiological material that could be used 
for terrorist purposes. Since 2004, the Department of Homeland Security 
(DHS) has spent more than $230 million on a program to develop a new 
radiation detection system called an Advanced Spectroscopic Portal or 
ASP that can both detect and identify nuclear material.
    Congress expects that the funding federal agencies receive will be 
well spent. When it comes to scientifically challenging or technically 
demanding programs, studies have shown that it pays to have well-
prepared program requirements, demanding testing protocols and an 
independent and comprehensive cost benefit analysis. These vital 
program components help managers make informed decisions about whether 
to move forward with a technology development program, or to replace a 
proven technology with a new technology. Unfortunately, despite some 
recent progress, the ASP program has suffered because it lacked all the 
preparatory steps of a well managed program. We will hear about some of 
those problems today from both Government Accountability Office (GAO) 
and the National Academies of Science.
    Over the past three years the GAO has released six reports on the 
ASP program. The GAO found that some of the Domestic Nuclear Detection 
Office's (DNDO) tests were ``biased'' and did not provide a rigorous 
assessment of the ASP's capabilities. The agency relied on 
``incomplete'' and ``unreliable'' data in their cost-benefit analysis--
omitting critical test data, inflating the costs of the current 
radiation detectors, and underestimating the costs of ASP monitors. The 
Department failed to produce a requirements document or adequate 
documentation regarding major changes to their planned ASP deployment 
strategy. DNDO never considered the option of investing in improvements 
to the existing radiation portal monitoring program--both the current 
polyvinyl toluene (PVT) monitors and the hand-held detectors Customs 
and Border Protection agents rely upon.
    The National Academy of Sciences' interim report on the ASP 
program, released yesterday, reflects many of the same concerns. The 
Academy calls for a significant restructuring of DHS testing procedures 
for the ASP program, they question the criteria being used to judge the 
ASP's performance and they recommend that DHS not proceed with further 
ASP procurement until they address all of the findings and 
recommendations in their report.
    GAO's reports have provided a regular accounting of how the ASP 
program was going wrong; the Academy's report provides a roadmap to how 
the program could be put back on track--assuming that the Department 
determines that is worth the cost and effort.
    Radioactive materials have become a normal part of commerce. They 
are used for medical procedures and industrial applications. Technology 
can help us detect and identify radioactive sources in cargo 
containers, but no technology can sort out ``good'' radioactive 
material intended for legitimate purposes from the ``bad'' radioactive 
material intended to do us harm. As a result, human operators will need 
to make important decisions, often informed by intelligence efforts, to 
keep the Nation secure. Well trained, well equipped people--law 
enforcement officers and customs and border protection inspectors--will 
always be critical to the equation.
    This hearing addresses our responsibility to the technological part 
of that equation. Before we move forward with a two to three billion 
dollar program we must ensure that we get our money's worth from the 
new technology. Put another way, if we have two or three billion 
dollars to spend to enhance our security, is this technology really how 
we should spend it?
    I look forward to hearing from all of our witnesses today.

    Mr. Broun. Thank you, Mr. Chairman. I want to welcome our 
witnesses here today and to thank you for participating in this 
important hearing on the Department of Homeland Security's 
Advanced Spectroscopic Portal program. I know it is hard to 
say, particularly for the non-scientist, but I am a scientist--
I am a physician.
    Yesterday the House took up consideration of the DHS 
appropriations bill, and later today the Science Committee's 
Technology and Innovation Subcommittee, which I am also a 
Member of, will hold a hearing on cyber security. I also sit on 
the Homeland Security Committee's Subcommittee on Emerging 
Threats, Cyber Security, Science and Technology as well. 
Needless to say, DHS has kept me busy this week.
    This morning we will look into the status of the 
Department's ongoing development of the next-generation 
radiation portal monitors, get an update from GAO on their 
continued work, and receive a report from the National Research 
Council. It goes without saying that this program has been 
followed closely for some time now and thankfully many of the 
testing issues that GAO has brought up in previous reports seem 
to have been mitigated, at least somewhat. However, this 
program is far from out of the woods. In their most recent 
analysis, GAO and the Academy raised new issues relating to the 
rigor of the testing and the certification process and offer 
paths forward for potential acquisition in the future. I hope 
DHS takes these recommendations seriously, and I look forward 
to ensuring that they are not summarily dismissed for the sake 
of arbitrary timetables. We see that frequently here in 
government.
    Looking forward, DHS should conduct a rigorous cost-benefit 
analysis that takes into account updated threat assessments, a 
review of all variations of concepts of operations, potential 
upgrades to existing technologies and independent cost 
estimates. It also needs to weigh the pros and cons not just of 
ASP versus Polyvinyl Toluene (PVT) and Radio-Isotope 
Identification Devices (RIID), but also whether the additional 
capability gained outweighs the needs of other aspects of the 
global nuclear detection architecture. Unfortunately, this may 
be hard to do at this point considering GAO indicated earlier 
this year that the Domestic Nuclear Detection Office had, to 
quote GAO, ``not developed an overarching strategic plan to 
guide its development of a more comprehensive global strategy 
for nuclear detection.''
    All of these factors need to be taken into consideration as 
DHS moves toward an acquisition. Even then I will remain 
cautious, given the Department's track record with past 
acquisitions. Many of the issues we are dealing with today 
could have been prevented by engaging the end-users early on in 
the process and also by clearly defining the requirements and 
simply following existing Department acquisition processes.
    Last week this subcommittee held a hearing on issues 
plaguing NPOESS. The AST program exhibits eerie similarities to 
that program in that it attempted to link research and 
development activities with the acquisition of an operational 
system and had unclear architectural priorities. Let us hope 
other federal programs can learn from these lessons and protect 
taxpayers from future inefficiencies and waste.
    Mr. Chairman, I yield back the balance of my time and I 
look forward to our witnesses' testimony. Thank you.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    Thank you, Mr. Chairman. I want to welcome the witnesses here 
today, and thank them for participating in this important hearing on 
the Department of Homeland Security's (DHS) Advanced Spectroscopic 
Portal (ASP) program.
    Yesterday the House took up consideration of the DHS Appropriation 
bill, and later today the Science Committee's Technology and Innovation 
Subcommittee, which I also sit on, will hold a hearing on cyber 
security. I also sit on the Homeland Security Committee's Subcommittee 
on Emerging Threats, Cyber Security, Science and Technology, as well. 
Needless to say, DHS has kept me busy this week.
    This morning we will look into the status of the Department's 
ongoing development of next-generation Radiation Portal Monitors, get 
an update from General Accountability Office (GAO) on their continuing 
work, and receive a report from the National Academy of Sciences. It 
goes without saying that this program has been followed closely for 
some time now, and thankfully many of the testing issues that GAO 
brought up in previous reports seem to be mitigated. However, this 
program is far from ``out of the woods.'' In their most recent 
analysis, GAO and the Academy raise new issues relating to the rigor of 
the testing and certification process, and offer paths forward for a 
potential acquisition in the future. I hope DHS takes these 
recommendations seriously, and I look forward to ensuring that they are 
not summarily dismissed for the sake of arbitrary timetables.
    Looking forward, DHS should conduct a rigorous Cost-Benefit 
Analysis (CBA) that takes into account updated threat assessments, a 
review of all variations of Concepts of Operations (CONOPS), potential 
upgrades for existing technologies, and independent cost estimates. It 
also needs to weigh the pros and cons of not just ASP versus Polyvinyl 
Toluene (PVT) and Radio-isotope Identification Devices (RIID), but also 
whether the additional capability gained outweighs the needs of other 
aspects of the Global Nuclear Detection Architecture. Unfortunately, 
this may be hard to do at this point considering GAO indicated earlier 
this year that the Domestic Nuclear Detection Office (DNDO) had ``not 
developed an overarching strategic plan to guide its development of a 
more comprehensive global strategy for nuclear detection.''
    All of these factors need to be taken into consideration as DHS 
moves toward an acquisition. Even then, I will remain cautious given 
the Department's track record with past acquisitions. Many of the 
issues we are dealing with today could have been prevented by engaging 
the end-users early in the process, clearly defining requirements, and 
simply following existing Department acquisition processes.
    Last week this subcommittee held a hearing on issues plaguing the 
National Polar-Orbiting Environmental Satellite System (NPOESS). The 
ASP program exhibits eerie similarities to that program in that it 
attempted to link research and development activities with the 
acquisition of an operational system, and had unclear architectural 
priorities. Let's hope other federal programs can learn from these 
lessons and protect taxpayers from future inefficiencies and waste.
    With that, Mr. Chairman, I yield back my time.
    Thank you.

    Chairman Miller. Thank you, Dr. Broun.

                                Panel I:

    Chairman Miller. I am now pleased to introduce our panel of 
witnesses. Mr. Gene Aloise is the Director of Natural Resources 
and Environment at the Government Accountability Office, GAO, 
and Dr. Micah Lowenthal is the Director of the Nuclear Security 
and Nuclear Facility Safety Program in the Nuclear and 
Radiation Studies Board at the National Research Council of the 
National Academy of Sciences. Is that how you describe your job 
at a cocktail party?
    As our witnesses should know, you each have five minutes 
for your spoken testimony. Your written testimony will be 
included in the record for the hearing. When you have all 
completed your spoken testimony, we will begin with questions 
and each Member will have five minutes to question the panel. 
It is the practice of this subcommittee to receive testimony 
under oath. Do either of you have any objection to taking an 
oath? Okay. You also have the right to be represented by 
counsel. Do either of you have counsel here? If you would 
please stand and raise your right hand? Do you swear to tell 
the truth and nothing but the truth?
    The record will reflect that both Mr. Aloise and Dr. 
Lowenthal took the oath. Mr. Aloise, you may begin.

 STATEMENT OF MR. GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
    ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Mr. Aloise. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, I am pleased 
to be here today to discuss DHS's plans to develop and test 
advanced portal monitors for use at the Nation's borders to 
prevent nuclear materials from being smuggled into the United 
States. According to DHS, the current system of radiation 
detection equipment is effective and does not impede the flow 
of commerce. However, DHS wants to improve the capabilities of 
the existing equipment with new equipment.
    One of the major drawbacks of the new equipment is the 
substantially higher cost compared to the existing equipment. 
We estimated in September 2008 that the life cycle cost of each 
standard cargo version of the ASP to be about $823,000 compared 
to about $308,000 for the PVT standard cargo portal and that 
the total program cost for the Domestic Nuclear Detection 
Office's (DNDO) latest deployment plan would be about $2 
billion.
    Since 2006, we have issued six reports, and including 
today, four testimonies, and have made 19 recommendations for 
improving DNDO's efforts to develop and test portal monitors. 
Our concerns have focused on the need for realistic and 
objective testing of ASPs, full disclosure and reporting of 
testing limitations, development of cost estimates that 
consider the full cost to deploy the new equipment, and 
development of a sound cost-benefit analysis which determines 
whether the marginal increase in security from the ASPs is 
worth its very high cost.
    My testimony today is based on our recent report, which 
assessed the most recent round of ASP testing. I will also 
discuss the lessons learned from ASP testing. Our work on the 
latest round of ASP testing found that DHS increased the rigor 
in comparison with previous tests, and thereby added 
credibility to the test results. However, we still question 
whether the benefits of the ASP justify the high cost. In 
particular, DHS's criteria for significant increase in 
operational effectiveness require only marginal improvement in 
the detection of certain weapons-usable nuclear material. The 
marginal improvement required of ASPs is particularly notable 
given that DNDO has not completed efforts to enhance the 
performance of the current generation of equipment. Customs and 
Border Protection (CBP) officials have told us that they have 
repeatedly urged DNDO to investigate improving the performance 
of the equipment through what is known as energy windowing. 
DNDO has collected the data necessary to do this, but has not 
yet completed efforts to analyze the data and further improve 
the technique.
    Our analysis of the new test results shows that ASPs 
detected certain nuclear materials better than PVTs when 
shielding approximated DOE threat guidance, which is based on 
light shielding. However, differences between the two systems 
were hard to recognize when shielding was slightly increased or 
decreased. Both systems had difficulty in detecting nuclear 
materials when shielding was somewhat greater than threat 
guidance, which is set to match the extent of the detection 
limits of the PVTs. Importantly, the threat guidance is not a 
realistic approximation of how a terrorist might shield nuclear 
material to successfully smuggle it undetected through a border 
crossing.
    In addition, DNDO underestimated the time needed for ASP 
testing, which was originally supposed to be finished by 
September 2008. DHS's most recent schedule anticipated ASP 
certification around May 2009, but testing has been delayed 
even further, and DHS has not updated its schedule. As far as 
we know, certification is scheduled for some time this fall.
    Of concern to us is the fact that DNDO does not plan to 
complete simulations that could provide additional insights 
into ASP capabilities and limitations prior to certification. 
On this point, DNDO does not seem to have learned from past 
mistakes. A rush to deploy ASPs before all testing is complete 
leads to shortcuts in testing and raises questions among 
stakeholders about the equipment's effectiveness and 
reliability. Furthermore, DNDO has not yet updated its cost-
benefit analysis, which might show that DNDO's plan to replace 
existing equipment is not justified.
    One of the primary lessons to be learned from our work is 
to avoid the pitfalls in testing that stem from a rush to 
procure new technologies. In the case of the ASP, a push to 
rush to replace existing equipment led to a testing program 
which lacked scientific rigor. Even for the new round of 
testing, DNDO consistently underestimated the time necessary to 
conduct tests and resolve problems, and testing is still not 
completed.
    In closing, we believe that given the importance of this 
new equipment to our national security, that Congress and the 
American taxpayer still need to know three things: does the 
equipment work, how much will it cost; and does the marginal 
increase in security justify its very high cost.
    Mr. Chairman, that concludes my remarks and I would be 
happy to respond to any questions you and the Ranking Member 
may have.
    [The prepared statement of Mr. Aloise follows:]
                   Prepared Statement of Gene Aloise

                  Combating Nuclear Smuggling: Lessons

                  Learned From DHS Testing of Advanced

                  Radiation Detection Portal Monitors

Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss GAO's work on the 
Department of Homeland Security's (DHS) testing of advanced 
spectroscopic portal (ASP) radiation detection monitors. As you are 
aware, the national security mission of U.S. Customs and Border 
Protection (CBP), an agency within DHS, includes screening for smuggled 
nuclear or radiological material that could be used in a nuclear weapon 
or radiological dispersal device (a ``dirty bomb''). To screen cargo at 
ports of entry, CBP conducts primary inspections with radiation 
detection equipment called portal monitors--large stationary detectors 
through which cargo containers and vehicles pass as they enter the 
United States. When radiation is detected, CBP conducts secondary 
inspections using a second portal monitor to confirm the original alarm 
and a hand-held radioactive isotope identification device to identify 
the radiation's source and determine whether it constitutes a threat.
    The polyvinyl toluene (PVT) portal monitors currently in use can 
detect radiation but cannot identify the type of material causing an 
alarm. As a result, the monitors' radiation alarms can be set off even 
by benign, naturally occurring radioactive material. One way to reduce 
the rate of such innocent alarms--and thereby minimize unnecessary 
secondary inspections and enhance the flow of commerce--is to adjust 
the operational thresholds (i.e., operate the PVTs at a reduced level 
of sensitivity). However, reducing the sensitivity may make it more 
difficult to detect certain nuclear materials.
    To address the limitations of current-generation portal monitors, 
DHS's Domestic Nuclear Detection Office (DNDO) in 2005 began to develop 
and test ASPs, which are designed to both detect radiation and identify 
the source.\1\ DNDO hopes to use the new portal monitors to replace at 
least some PVTs currently used for primary screening, as well as PVTs 
and hand-held identification devices currently used for secondary 
screening. However, in September 2008, we estimated the life cycle cost 
of each standard cargo version of the ASP (including deployment costs) 
to be about $822,000, compared with about $308,000 for the PVT standard 
cargo portal, and the total program cost for DNDO's latest plan for 
deploying radiation portal monitors--which relies on a combination of 
ASPs and PVTs and does not deploy radiation portal monitors at all 
border crossings--to be about $2 billion.\2\
---------------------------------------------------------------------------
    \1\ DNDO was established within DHS in 2005; its mission includes 
developing, testing, acquiring, and supporting the deployment of 
radiation detection equipment at U.S. ports of entry. CBP began 
deploying portal monitors in 2002, prior to DNDO's creation, under the 
radiation portal monitor project.
    \2\ GAO, Combating Nuclear Smuggling: DHS's Program to Procure and 
Deploy Advanced Radiation Detection Portal Monitors Is Likely to Exceed 
the Department's Previous Cost Estimates, GAO-08-1108R (Washington, 
D.C.: Sept. 22, 2008).
---------------------------------------------------------------------------
    Concerned about the performance and cost of the ASP monitors, 
Congress required the Secretary of Homeland Security to certify that 
the monitors will provide a ``significant increase in operational 
effectiveness'' before DNDO obligates funds for full-scale ASP 
procurement.\3\ The Secretary must submit separate certifications for 
primary and secondary inspection. In response, CBP, DNDO, and the DHS 
management directorate jointly issued criteria in July 2008 for 
determining whether the new technology provides a significant increase 
in operational effectiveness. The primary screening criteria require 
that the new portal monitors detect potential threats as well as or 
better than PVTs, show improved performance in detection of highly 
enriched uranium (HEU), and reduce innocent alarms. To meet the 
secondary screening criteria, the new portal monitors must reduce the 
probability of misidentifying special nuclear material (e.g., HEU and 
plutonium) and the average time to conduct secondary screenings.
---------------------------------------------------------------------------
    \3\ Consolidated Appropriations Act, 2008, Pub. L. No. 110-161, 121 
Stat. 1844, 2069 (2007); Consolidated Security, Disaster Assistance, 
and Continuing Appropriations Act, 2009, Pub. L. No. 110-329, 121 Stat. 
3574, 3679 (2008).
---------------------------------------------------------------------------
    DNDO designed and coordinated a new series of tests, originally 
scheduled to run from April 2008 through September 2008, to determine 
whether the new portal monitors meet the certification criteria for 
primary and secondary screening and are ready for deployment. Key 
phases of this testing program include concurrent testing led by DNDO 
of the new and current equipment's ability to detect and identify 
threats and of ASPs' readiness to be integrated into operations for 
both primary and secondary screening at ports of entry; field 
validation led by CBP at four northern and southern border crossings 
and two seaports; and an independent evaluation, led by the DHS Science 
and Technology Directorate at one of the seaports, of the new portal 
monitors' effectiveness and suitability.
    Since 2006, we have issued six reports and four testimonies on 
development of radiation detection portal monitors, including today's 
testimony, and have made 19 recommendations for improving DNDO's 
efforts to develop and test portal monitors. Our concerns have focused 
on key areas in which DNDO's efforts have lacked the necessary rigor 
given ASPs' high cost and the importance of the radiation portal 
monitor project to our national security. These areas include objective 
and realistic testing of ASPs' performance in comparison with the 
performance of current-generation equipment; full disclosure and 
reporting of the limitations of tests used to support a decision by the 
Secretary of Homeland Security on ASP certification; development of a 
cost estimate that considers the full costs of the plan for deploying 
radiation detection portal monitors; and development of a cost-benefit 
analysis based on ASPs' demonstrated performance and a complete 
accounting of the portal monitor project's costs. (App. I presents a 
summary of our key findings and recommendations related to ASPs.) As I 
will discuss today, DNDO has improved the rigor of testing but has not 
yet updated the cost-benefit analysis that is critical to a decision on 
whether to replace radiation detection equipment already deployed at 
ports of entry with the significantly more expensive ASPs.
    Specifically, my testimony discusses (1) our key findings on the 
most recent round of ASP testing and (2) lessons from ASP testing that 
can be applied to other DHS technology investments. These findings are 
based on our report released this week and other related GAO 
reports.\4\ We conducted this performance audit work in June 2009 in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to produce a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our statement 
today.
---------------------------------------------------------------------------
    \4\ GAO, Combating Nuclear Smuggling: DHS Improved Testing of 
Advanced Radiation Detection Portal Monitors, but Preliminary Results 
Show Limits of the New Technology, GAO-09-655 (Washington, D.C.: May 
21, 2009).

The Latest Round of Testing Highlights the Limitations of ASPs

    Our report on the latest round of ASP testing found that DHS 
increased the rigor of ASP testing in comparison with previous tests 
and that a particular area of improvement was in the performance 
testing at the Nevada Test Site, where DNDO compared the capability of 
ASP and current-generation equipment to detect and identify nuclear and 
radiological materials. For example, unlike in prior tests, the plan 
for the 2008 performance test stipulated that there would be no system 
contractor involvement in test execution. Such improvements addressed 
concerns we previously raised about the potential for bias and provided 
credibility to the results.
    Nevertheless, based on the following factors, we continue to 
question whether the benefits of the new portal monitors justify the 
high cost:

        [bullet]  The DHS criteria for a significant increase in 
        operational effectiveness. Our chief concern with the criteria 
        is that they require a marginal improvement over current-
        generation portal monitors in the detection of certain weapons-
        usable nuclear materials when ASPs are deployed for primary 
        screening. DNDO considers detection of such materials to be a 
        key limitation of current-generation portal monitors. We are 
        particularly concerned about the marginal improvement required 
        of ASPs because the detection threshold for the current-
        generation portal monitors does not specify a level of 
        radiation shielding that smugglers could realistically use. DOE 
        and national laboratory officials told us that DOE's threat 
        guidance used to set the current detection threshold is based 
        not on an analysis of the capabilities of potential smugglers 
        to take effective shielding measures but rather on the limited 
        sensitivity of PVTs to detect anything more than certain 
        lightly shielded nuclear materials. DNDO officials acknowledge 
        that both the new and current-generation portal monitors are 
        capable of detecting certain nuclear materials only when 
        unshielded or lightly shielded. The marginal improvement in 
        detection of such materials required of ASPs is particularly 
        notable given that DNDO has not completed efforts to fine-tune 
        PVTs' software and thereby improve sensitivity to nuclear 
        materials. DNDO officials expect they can achieve small 
        improvements in sensitivity, but DNDO has not yet funded 
        efforts to fine-tune PVTs' software. In contrast to the 
        marginal improvement required in detection of certain nuclear 
        materials, the primary screening requirement to reduce the rate 
        of innocent alarms could result in hundreds of fewer secondary 
        screenings per day, thereby reducing CBP's workload and delays 
        to commerce. In addition, the secondary screening criteria, 
        which require ASPs to reduce the probability of misidentifying 
        special nuclear material by one-half, address the inability of 
        relatively small hand-held devices to consistently locate and 
        identify potential threats in large cargo containers.

        [bullet]  Preliminary results of performance testing and field 
        validation. The preliminary results presented to us by DNDO are 
        mixed, particularly in the capability of ASPs used for primary 
        screening to detect certain shielded nuclear materials. 
        Preliminary results show that the new portal monitors detected 
        certain nuclear materials better than PVTs when shielding 
        approximated DOE threat guidance, which is based on light 
        shielding. In contrast, differences in system performance were 
        less notable when shielding was slightly increased or 
        decreased: Both the PVTs and ASPs were frequently able to 
        detect certain nuclear materials when shielding was below 
        threat guidance, and both systems had difficulty detecting such 
        materials when shielding was somewhat greater than threat 
        guidance. With regard to secondary screening, ASPs performed 
        better than hand-held devices in identification of threats when 
        masked by naturally occurring radioactive material. However, 
        differences in the ability to identify certain shielded nuclear 
        materials depended on the level of shielding, with increasing 
        levels appearing to reduce any ASP advantages over the hand-
        held identification devices. Other phases of testing uncovered 
        multiple problems in meeting requirements for successfully 
        integrating the new technology into operations at ports of 
        entry. Of the two ASP vendors participating in the 2008 round 
        of testing, one has fallen behind due to severe problems 
        encountered during testing of ASPs' readiness to be integrated 
        into operations at ports of entry (``integration testing''); 
        the problems may require that the vendor redo previous test 
        phases to be considered for certification. The other vendor's 
        system completed integration testing, but CBP suspended field 
        validation after two weeks because of serious performance 
        problems resulting in an overall increase in the number of 
        referrals for secondary screening compared with existing 
        equipment.

        [bullet]  DNDO's plans for computer simulations. DNDO does not 
        plan to complete injection studies--computer simulations for 
        testing the response of ASPs and PVTs to simulated threat 
        objects concealed in cargo containers--prior to the Secretary 
        of Homeland Security's decision on certification even though 
        delays to the ASP test schedule have allowed more time to 
        conduct the studies. According to DNDO officials, injection 
        studies address the inability of performance testing to 
        replicate the wide variety of cargo coming into the United 
        States and the inability to place special nuclear material and 
        other threat objects in cargo during field validation. DNDO had 
        earlier indicated that injection studies could provide 
        information comparing the performance of the two systems as 
        part of the certification process for both primary and 
        secondary screening. However, DNDO subsequently decided that 
        performance testing would provide sufficient information to 
        support a decision on ASP certification. DNDO officials said 
        they would instead use injection studies to support effective 
        deployment of the new portal monitors.

        [bullet]  Lack of an updated cost-benefit analysis. DNDO has 
        not yet updated its cost-benefit analysis to take into account 
        the results of the latest round of ASP testing. An updated 
        analysis that takes into account the results from the latest 
        round of testing, including injection studies, might show that 
        DNDO's plan to replace existing equipment with ASPs is not 
        justified, particularly given the marginal improvement in 
        detection of certain nuclear materials required of ASPs and the 
        potential to improve the current-generation portal monitors' 
        sensitivity to nuclear materials, most likely at a lower cost. 
        DNDO officials said they are currently updating the ASP cost-
        benefit analysis and plan to complete it prior to a decision on 
        certification by the Secretary of Homeland Security.

    Our report recommended that the Secretary of Homeland Security 
direct DNDO to (1) assess whether ASPs meet the criteria for a 
significant increase in operational effectiveness based on a valid 
comparison with PVTs' full performance potential and (2) revise the 
schedule for ASP testing and certification to allow sufficient time for 
review and analysis of results from the final phases of testing and 
completion of all tests, including injection studies. We further 
recommended that, if ASPs are certified, the Secretary direct DNDO to 
develop an initial deployment plan that allows CBP to uncover and 
resolve any additional problems not identified through testing before 
proceeding to full-scale deployment. DHS agreed to a phased deployment 
that should allow time to uncover ASP problems but disagreed with GAO's 
other recommendations, which we continue to believe remain valid.

Procurement Decisions for New Technologies Require Rigorous Testing and 
                    Thorough Analysis of Results

    The challenges DNDO has faced in developing and testing ASPs 
illustrate the importance of following existing DHS policies as well as 
best practices for investments in complex homeland security 
acquisitions and for testing of new technologies. The DHS investment 
review process calls for executive decision-making at key points in an 
investment's life cycle and includes many acquisition best practices 
that, if applied consistently, could help increase the chances for 
successful outcomes. However, we reported in November 2008 that, for 
the period from fiscal year 2004 through the second quarter of fiscal 
year 2008, DHS had not effectively implemented or adhered to its 
investment review process due to a lack of senior management officials' 
involvement as well as limited monitoring and resources.\5\ In 
particular, of DHS's 48 major investments requiring milestone and 
annual reviews under the Department's investment review policy, 45 were 
not assessed in accordance with this policy. In addition, many major 
investments, including DNDO's ASP program, had not met the Department's 
requirements for basic acquisition documents necessary to inform the 
investment review process. As a result, DHS had not consistently 
provided the oversight needed to identify and address cost, schedule, 
and performance problems in its major investments. Among other things, 
our November 2008 report recommended that the Secretary of Homeland 
Security direct component heads, such as the Director of DNDO, to 
ensure that the components have established processes to manage major 
investments consistent with departmental policies. DHS generally 
concurred with our recommendations, and we noted that DHS had begun 
several efforts to address shortcomings in the investment review 
process identified in our report, including issuing an interim 
directive requiring DHS components to align their internal policies and 
procedures by the end of the third quarter of fiscal year 2009. In 
January 2009, DHS issued a memorandum instructing component heads to 
create acquisition executives in their organizations to be responsible 
for management and oversight of component acquisition processes. If 
fully implemented, these steps should help ensure that DHS components 
have established processes to manage major investments.
---------------------------------------------------------------------------
    \5\ GAO, Department of Homeland Security: Billions Invested in 
Major Programs Lack Appropriate Oversight, GAO-09-29 (Washington, D.C.: 
Nov. 18, 2008).
---------------------------------------------------------------------------
    Based on our body of work on ASP testing, one of the primary 
lessons to be learned is to avoid the pitfalls in testing that stem 
from a rush to procure new technologies. GAO has previously reported on 
the negative consequences of pressures imposed by closely linking 
testing and development programs with decisions to procure and deploy 
new technologies, including the creation of incentives to postpone 
difficult tests and limit open communication about test results.\6\ We 
found that testing programs designed to validate a product's 
performance against increasing standards for different stages in 
product development are a best practice for acquisition strategies for 
new technologies. In the case of ASPs, the push to replace existing 
equipment with the new portal monitors led to a testing program that 
until recently lacked the necessary rigor. Even for the most recent 
round of testing, DNDO's schedule consistently underestimated the time 
required to conduct tests, resolve problems uncovered during testing, 
and complete key documents, including final test reports. In addition, 
DNDO's original working schedule did not anticipate the time required 
to update its cost-benefit analysis to take into account the latest 
test results. The schedule anticipated completion of testing in mid-
September 2008 and the DHS Secretary's decision on ASP certification 
between September and November 2008. However, testing is still not 
completed, and DNDO took months longer than anticipated to complete the 
final report on performance testing.
---------------------------------------------------------------------------
    \6\ GAO, Best Practices: A More Constructive Test Approach Is Key 
to Better Weapon System Outcomes, GAO/NSIAD-00-199 (Washington, D.C.: 
July 31, 2000).

    As previously mentioned, a number of aspects of the latest round of 
ASP testing increased the rigor in comparison with earlier rounds and, 
if properly implemented, could improve the rigor in DHS's testing of 
---------------------------------------------------------------------------
other advanced technologies. Key aspects included the following:

        [bullet]  Criteria for ensuring test requirements are met. The 
        test and evaluation master plan established criteria requiring 
        that the ASPs meet certain requirements before starting or 
        completing any test phase. For example, the plan required that 
        ASPs have no critical or severe issues rendering them 
        completely unusable or impairing their function. The criteria 
        provided a formal means to ensure that ASPs met certain basic 
        requirements prior to the start of each phase of testing. DNDO 
        and CBP adhered to the criteria even though doing so resulted 
        in integration testing taking longer than anticipated and 
        delaying the start of field validation.

        [bullet]  Participation of the technology end-user. The 
        participation of CBP (the end-user of the new portal monitors) 
        provided an independent check, within DHS, of DNDO's efforts to 
        develop and test the new portal monitors. For example, CBP 
        added a final requirement to integration testing before 
        proceeding to field validation to demonstrate ASPs' ability to 
        operate for 40 hours without additional problems and thereby 
        provide for a productive field validation. In addition, the 
        participation of CBP officers in the 2008 round of performance 
        testing allowed DNDO to adhere more closely than in previous 
        tests to CBP's standard operating procedure for conducting a 
        secondary inspection using the hand-held identification 
        devices, thereby providing for an objective test.

        [bullet]  Participation of an independent test authority. The 
        DHS Science and Technology Directorate, which is responsible 
        for developing and implementing the Department's test and 
        evaluation policies and standards, will have the lead role in 
        the final phase of ASP testing and thereby provide an 
        additional independent check on testing efforts. The Science 
        and Technology Directorate identified two critical questions, 
        related to ASPs' operational effectiveness (i.e., detection and 
        identification of threats) and suitability (e.g., reliability, 
        maintainability, and supportability), and drafted its own test 
        plan to address those questions.

    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions that you or other Members of the 
Subcommittee may have at this time.

GAO Staff Acknowledgments

    Ned Woodward (Assistant Director), Joseph Cook, and Kevin Tarmann 
made key contributions to this testimony. Dr. Timothy Persons (Chief 
Scientist), James Ashley, Steve Caldwell, John Hutton, Omari Norman, 
Alison O'Neill, Amelia Shachoy, and Rebecca Shea also made important 
contributions.

Appendix I:

                 Key Findings and Recommendations from

                    Related GAO Products on Testing

                        and Development of ASPs

Combating Nuclear Smuggling: DHS Has Made Progress Deploying Radiation 
        Detection Equipment at U.S. Ports-of-Entry, But Concerns 
        Remain. GAO-06-389. Washington, D.C.: March 22, 2006.

        <bullet>  Key findings. Prototypes of advanced spectroscopic 
        portals (ASP) were expected to be significantly more expensive 
        than current-generation portal monitors but had not been shown 
        to be more effective. For example, Domestic Nuclear Detection 
        Office (DNDO) officials' preliminary analysis of 10 ASPs tested 
        at the Nevada Test Site found that the new portal monitors 
        outperformed current-generation equipment in detecting numerous 
        small, medium-size, and threat-like radioactive objects and 
        were able to identify and dismiss most naturally occurring 
        radioactive material. However, the detection capabilities of 
        both types of portal monitors converged as the amount of source 
        material decreased.

        <bullet>  Recommendations. We recommended that the Secretary of 
        Homeland Security work with the Director of DNDO to analyze the 
        benefits and costs of deploying ASPs before any of the new 
        equipment is purchased to determine whether any additional 
        detection capability is worth the additional cost. We also 
        recommended that the total program cost estimate for the 
        radiation portal monitor project be revised after completion of 
        the cost-benefit analysis.

Combating Nuclear Smuggling: DHS's Cost-Benefit Analysis to Support the 
        Purchase of New Radiation Detection Portal Monitors Was Not 
        Based on Available Performance Data and Did Not Fully Evaluate 
        All the Monitors' Costs and Benefits. GAO-07-133R. Washington, 
        D.C.: October 17, 2006.

Combating Nuclear Smuggling: DHS's Decision to Procure and Deploy the 
        Next Generation of Radiation Detection Equipment Is Not 
        Supported by Its Cost-Benefit Analysis. GAO-07-581T. 
        Washington, D.C.: March 14, 2007.

        [bullet]  Key findings. DNDO's cost-benefit analysis issued in 
        response to our March 2006 recommendation did not provide a 
        sound analytical basis for DNDO's decision to purchase and 
        deploy ASPs. We identified a number of problems with the 
        analysis of both the performance of the new portal monitors and 
        the costs. With regard to performance, DNDO did not use the 
        results of its own tests and instead relied on assumptions of 
        the new technology's anticipated performance level. In 
        addition, the analysis focused on identifying highly enriched 
        uranium (HEU) and did not consider how well the new portal 
        monitors can correctly detect or identify other dangerous 
        radiological or nuclear materials. With regard to costs, DNDO 
        did not follow the DHS guidelines for performing cost-benefit 
        analyses and used questionable assumptions about the 
        procurement costs of portal monitor technology.

        [bullet]  Recommendations. We recommended that DHS and DNDO 
        conduct a new cost-benefit analysis using sound analytical 
        methods, including actual performance data and a complete 
        accounting of all major costs and benefits as required by DHS 
        guidelines, and that DNDO conduct realistic testing for both 
        ASPs and current-generation portal monitors.

Combating Nuclear Smuggling: DNDO Has Not Yet Collected Most of the 
        National Laboratories' Test Results on Radiation Portal 
        Monitors in Support of DNDO's Testing and Development Program. 
        GAO-07-347R. Washington, D.C.: March 9, 2007.

        [bullet]  Key findings. DNDO had not collected a comprehensive 
        inventory of testing information on current-generation portal 
        monitors. Such information, if collected and used, could 
        improve DNDO's understanding of how well portal monitors detect 
        different radiological and nuclear materials under varying 
        conditions. In turn, this understanding would assist DNDO's 
        future testing, development, deployment, and purchases of 
        portal monitors.

        [bullet]  Recommendations. We recommended that the Secretary of 
        Homeland Security, working with the Director of DNDO, collect 
        reports concerning all of the testing of current-generation 
        portal monitors and review the test reports in order to develop 
        an information database on how the portal monitors perform in 
        both laboratory and field tests on a variety of indicators, 
        such as their ability to detect specific radiological and 
        nuclear materials.

Combating Nuclear Smuggling: Additional Actions Needed to Ensure 
        Adequate Testing of Next Generation Radiation Detection 
        Equipment. GAO-07-1247T. Washington, D.C.: September 18, 2007.

        [bullet]  Key findings. We found that tests conducted by DNDO 
        in early 2007 were not an objective and rigorous assessment of 
        the ASPs' capabilities. Specifically, we raised concerns about 
        DNDO using biased test methods that enhanced the apparent 
        performance of ASPs; not testing the limitations of ASPs' 
        detection capabilities-for example, by not using a sufficient 
        amount of the type of materials that would mask or hide 
        dangerous sources and that ASPs would likely encounter at ports 
        of entry; and not using a critical Customs and Border 
        Protection (CBP) standard operating procedure that is 
        fundamental to the performance of hand-held radiation detectors 
        in the field.

        [bullet]  Recommendations. We recommended that the Secretary of 
        Homeland Security delay Secretarial certification and full-
        scale production decisions on ASPs until all relevant tests and 
        studies had been completed and limitations to tests and studies 
        had been identified and addressed. We further recommended that 
        DHS determine the need for additional testing in cooperation 
        with CBP and other stakeholders and, if additional testing was 
        needed, that the Secretary of DHS appoint an independent group 
        within DHS to conduct objective, comprehensive, and transparent 
        testing that realistically demonstrates the capabilities and 
        limitations of ASPs.

Combating Nuclear Smuggling: DHS's Program to Procure and Deploy 
        Advanced Radiation Detection Portal Monitors Is Likely to 
        Exceed the Department's Previous Cost Estimates. GAO-08-1108R. 
        Washington, D.C.: September 22, 2008.

        [bullet]  Key findings. Our independent cost estimate suggested 
        that from 2007 through 2017 the total cost of DNDO's 2006 
        project execution plan (the most recent official documentation 
        of the program to equip U.S. ports of entry with radiation 
        detection equipment) would likely be about $3.1 billion but 
        could range from $2.6 billion to $3.8 billion. In contrast, we 
        found that DNDO's cost estimate of $2.1 billion was unreliable 
        because it omitted major project costs, such as elements of the 
        ASPs' life cycle, and relied on a flawed methodology. DNDO 
        officials told us that the agency was no longer following the 
        2006 project execution plan and that the scope of the agency's 
        ASP deployment strategy had been reduced to only the standard 
        cargo portal monitor. Our analysis of DNDO's summary 
        information outlining its scaled-back plan indicated the total 
        cost to deploy standard cargo portals over the period 2008 
        through 2017 would be about $2 billion but could range from 
        $1.7 billion to $2.3 billion. Agency officials acknowledged the 
        program requirements that would have been fulfilled by the 
        discontinued ASPs remained valid, including screening rail cars 
        and airport cargo, but the agency had no plans for how such 
        screening would be accomplished.

        [bullet]  Recommendations. We recommended that the Secretary of 
        Homeland Security direct the Director of DNDO to work with CBP 
        to update the projection execution plan to guide the entire 
        radiation detection program at U.S. ports of entry, revise the 
        estimate of the program's cost and ensure that the estimate 
        considers all of the costs associated with its project 
        execution plan, and communicate the revised estimate to 
        Congress so that it is fully apprised of the program's scope 
        and funding requirements.

Combating Nuclear Smuggling: DHS Needs to Consider the Full Costs and 
        Complete All Tests Prior to Making a Decision on Whether to 
        Purchase Advanced Portal Monitors. GAO-08-1178T. Washington, 
        D.C.: September 25, 2008.

        [bullet]  Key findings. In preliminary observations of the 2008 
        round of ASP testing, we found that DNDO had made progress in 
        addressing a number of problems we identified in previous 
        rounds of ASP testing. However, the DHS criteria for 
        significant increase in operational effectiveness appeared to 
        set a low bar for improvement--for example, by requiring ASPs 
        to perform at least as well as current-generation equipment 
        when nuclear material is present in cargo but not specifying an 
        actual improvement. In addition, the ASP certification schedule 
        did not allow for completion of computer simulations that could 
        provide useful data on ASP capabilities prior to the 
        Secretary's decision on certification. Finally, we questioned 
        the replacement of current-generation equipment with ASPs until 
        DNDO demonstrates that any additional increase in security 
        would be worth the ASPs' much higher cost.\1\
---------------------------------------------------------------------------
    \1\ This testimony also summarized our September 2008 report on the 
life cycle cost estimate to deploy ASPs (GAO-08-1108R).

Combating Nuclear Smuggling: DHS's Phase 3 Test Report on Advanced 
        Portal Monitors Does Not Fully Disclose the Limitations of the 
---------------------------------------------------------------------------
        Test Results. GAO-08-979. Washington, D.C.: September 30, 2008.

        <bullet>  Key findings. DNDO's report on the second group of 
        ASP tests in 2007 (the Phase 3 tests) did not appropriately 
        state test limitations. As a result, the report did not 
        accurately depict the results and could potentially be 
        misleading. The purpose of the Phase 3 tests was to conduct a 
        limited number of test runs in order to identify areas in which 
        the ASP software needed improvement. While aspects of the Phase 
        3 report addressed this purpose, the preponderance of the 
        report went beyond the test's original purpose and made 
        comparisons of the performance of the ASPs with one another or 
        with currently deployed portal monitors. We found that it would 
        not be appropriate to use the Phase 3 test report in 
        determining whether the ASPs represent a significant 
        improvement over currently deployed radiation equipment because 
        the limited number of test runs did not support many of the 
        comparisons of ASP performance made in the report.

        [bullet]  Recommendations. We recommended that the Secretary of 
        DHS use the results of the Phase 3 tests solely for the 
        purposes for which they were intended--to identify areas 
        needing improvement--and not as a justification for certifying 
        whether the ASPs warrant full-scale production. If the 
        Secretary intends to consider the results of the Phase 3 tests 
        in making a certification decision regarding ASPs, we further 
        recommended that the Secretary direct the Director of DNDO to 
        revise and clarify the Phase 3 test report to more fully 
        disclose and articulate the limitations present in the Phase 3 
        tests and clearly state which insights from the Phase 3 report 
        are factored into any decision regarding the certification that 
        ASPs demonstrate a significant increase in operational 
        effectiveness. Finally, we recommended that the Secretary 
        direct the Director of DNDO to take steps to ensure that any 
        limitations associated with the 2008 round of testing are 
        properly disclosed when the results are reported.

Combating Nuclear Smuggling: DHS Improved Testing of Advanced Radiation 
        Detection Portal Monitors, but Preliminary Results Show Limits 
        of the New Technology. GAO-09-655. Washington, D.C.: May 21, 
        2009.

        [bullet]  Key findings. We reported that the DHS criteria for a 
        significant increase in operational effectiveness require a 
        large reduction in innocent alarms but a marginal improvement 
        in the detection of certain weapons--usable nuclear materials. 
        In addition, the criteria do not take the current-generation 
        portal monitors' full potential into account because DNDO has 
        not completed efforts to improve their performance. With regard 
        to ASP testing, we found that DHS increased the rigor in 
        comparison with previous tests, thereby adding credibility to 
        the test results, but that preliminary results were mixed. The 
        results showed that the new portal monitors performed better 
        than current-generation portal monitors in detection of certain 
        nuclear materials concealed by light shielding approximating 
        the threat guidance for setting detection thresholds, but 
        differences in sensitivity were less notable when shielding was 
        slightly below or above that level. Testing also uncovered 
        multiple problems in ASPs meeting the requirements for 
        successful integration into operations at ports of entry. 
        Finally, we found that DNDO did not plan to complete computer 
        simulations that could provide additional insight into ASP 
        capabilities and limitations prior to certification even though 
        delays to testing allowed more time to conduct the simulations.

        <bullet>  Recommendations. We recommended that the Secretary of 
        Homeland Security direct the Director of DNDO to assess whether 
        ASPs meet the criteria for a significant increase in 
        operational effectiveness based on a valid comparison with 
        current-generation portal monitors' full performance potential 
        and revise the schedule for ASP testing and certification to 
        allow sufficient time for review and analysis of results from 
        the final phases of testing and completion of all tests, 
        including computer simulations. If ASPs are certified, we 
        further recommended that the Secretary of Homeland Security 
        direct the Director of DNDO to develop an initial deployment 
        plan that allows CBP to uncover and resolve any additional 
        problems not identified through testing before proceeding to 
        full-scale deployment.

                       Biography for Gene Aloise
    Gene Aloise is a Director in the Natural Resources and Environment 
team at GAO. He is GAO's recognized expert in international nuclear 
nonproliferation and safety issues and completed training on these 
subjects at the University of Virginia and Princeton University. His 
work for GAO has taken him to some of Russia's closed nuclear cities 
and the Chernobyl reactor in Ukraine as well as numerous nuclear 
facilities around the world and in the United States. Mr. Aloise has 
had years of experience developing, leading, and managing GAO domestic 
and international engagements. His diverse experience includes 
assignments with congressional committees as well as various offices 
within GAO. He has received numerous awards for his leadership and 
expertise including GAO's Meritorious Service Award. Mr. Aloise 
received his Bachelor's degree in political science/economics from 
Rowan University and holds a Master of Public Administration from 
Temple University. Mr. Aloise is also a graduate of the Senior 
Executive Fellows Program, John F. Kennedy School of Government, 
Harvard University.

    Chairman Miller. Thank you, Mr. Aloise.
    Dr. Lowenthal.

STATEMENT OF DR. MICAH D. LOWENTHAL, DIRECTOR, NUCLEAR SECURITY 
  AND NUCLEAR FACILITY SAFETY PROGRAM, NUCLEAR AND RADIATION 
    STUDIES BOARD, NATIONAL RESEARCH COUNCIL, THE NATIONAL 
                           ACADEMIES

    Dr. Lowenthal. Good morning, and thank you, Chairman 
Miller, Ranking Member Broun, Members of the Committee. My name 
is Micah Lowenthal. As you said, I am the Director of the 
Nuclear Security and Nuclear Facility Safety Program at the 
National Research Council's Nuclear and Radiation Studies 
Board. I am here to describe a recently issued interim report 
from a Congressionally mandated National Research Council study 
on Advanced Spectroscopic Portals.
    I am the study director supporting the authoring committee 
of that report, and I will begin by providing background on the 
request for this study and then I will summarize the main 
messages of the report.
    The Department of Homeland Security, or DHS, wants to 
deploy new radiation detector systems called Advanced 
Spectroscopic Portals, or ASPs, to improve scrutiny of 
containerized cargo for nuclear and radiological material. The 
ASPs are intended to replace some or all of the radiation 
portal monitors (RPMs) and hand-held radioisotope identifiers 
(RIIDs) currently used at ports and border crossings across the 
United States. Congress required that the Secretary of Homeland 
Security certify that the ASPs provide a significant increase 
in operational effectiveness over the old systems. Congress 
also directed DHS to ask the National Research Council to 
advise the Secretary on testing, analysis, costs and benefits 
of the ASPs before the certification decision.
    I want to point out that the appropriations committees who 
made these requirements said they appreciate that certification 
will be difficult. The study committee agrees with that, that 
these are hard problems, both for the testing and the cost-
benefit analysis, so it is not surprising that DHS's work has 
been challenging.
    Here are the main findings and recommendations from the 
interim report. The study committee found that the ASP 
performance tests prior to 2008 had serious flaws. The Domestic 
Nuclear Detection Office, DNDO, acknowledged problems with the 
tests and addressed a number of those flaws in later testing. 
The 2008 performance tests were indeed improved, but 
shortcomings remain. DNDO's current approach to performance 
testing involves physically testing detector performance 
against a small number of configurations of threat objects and 
cargo in one environment. The set of possible combinations of 
threats, cargo and environments is so large and 
multidimensional that DNDO needs an analytical basis for 
understanding the performance of its detector systems, not just 
an empirical basis. Our study committee recommended that DHS 
use a more rigorous approach in which scientists use computer 
models to simulate configurations and detector performance, use 
physical tests to validate and refine the models and use the 
models to select key new physical tests that advance our 
understanding of the detector systems. This iterative modeling 
and testing approach is standard in the development of some 
high-technology equipment and is essential for building 
scientific confidence in detector performance.
    The idea of an iterative approach also extends to 
deployment. The study committee recommends a process for 
incremental deployment and continuous improvement of the ASPs 
with experience in the field leading to refinement in both the 
technologies and the operations for the next deployment. As a 
first step in this process, DHS should deploy the unused ASPs 
it already has, to assess the ASPs' performance in multiple 
environments without investing in a much larger acquisition at 
the outset.
    The ASP cost-benefit analysis was not complete when our 
interim report was written. Preliminary estimates by DNDO 
indicate that the cost increases from replacing the currently 
deployed systems with ASPs outweigh the cost reduction or 
savings from operational efficiencies. Therefore, a careful 
cost-benefit analysis will need to reveal the security 
advantages, if any, of the ASPs over the current systems and 
possible alternatives. Such a cost-benefit analysis should 
include three key elements: a clear statement of the objectives 
of the program, an assessment of meaningful alternatives; and a 
comprehensive, credible and transparent analysis of benefits 
and costs.
    DHS should consider tradeoffs among different options for 
allocating its efforts and funds, looking at the overall system 
for ways to improve defense against nuclear smuggling. The 
study committee recommended that DHS not proceed with further 
procurement of ASPs until it has addressed the findings and 
recommendations from the report, and the ASP has been shown to 
be a favored option in the cost-benefit analysis.
    Now, those are the main messages from the report. For this 
hearing I was also asked to comment on any lessons learned 
regarding processes by which the ASPs have been researched, 
developed and tested to date. Although the study committee only 
examined the testing of ASPs, not a broader portfolio, I think 
there are three lessons to be learned based on the study. 
First, the process of modeling and testing iteratively can be 
applied more broadly to other complex technology development 
programs. Second, incremental deployment with continuous 
improvement is a good strategy for deployments of systems that 
have not fully matured, especially if they are envisioned to 
have an ongoing mission. And third, the systems-level approach 
that is examining how to optimize choices within the overall 
system, rather than focusing narrowly on one tradeoff decision, 
is applicable to almost every use of equipment in security 
applications.
    Thank you for the opportunity to testify. I would be glad 
to elaborate my testimony in response to questions.
    [The prepared statement of Dr. Lowenthal follows:]
                Prepared Statement of Micah D. Lowenthal
    Good morning Chairman Miller, Ranking Member Broun, and Members of 
the Committee. My name is Micah Lowenthal and I am the Director of the 
program on Nuclear Security and Nuclear Facility Safety in the National 
Research Council's Nuclear and Radiation Studies Board.\1\ I am here to 
describe the recently issued interim report from a congressionally 
mandated National Research Council study on advanced spectroscopic 
portals (ASPs). I am the study director supporting the authoring 
committee of that report.\2\ The full report is classified, but an 
abbreviated version was also produced for unrestricted public 
release.\3\ My testimony is based on the abbreviated version. I will 
begin by providing background on the request for this study. I will 
then summarize the main messages of the report and discuss some of the 
points most relevant to this hearing.
---------------------------------------------------------------------------
    \1\ The National Research Council is the operating arm of the 
National Academy of Sciences, the National Academy of Engineering, and 
the Institute of Medicine of the National Academies, chartered by 
Congress in 1863 to advise the government on matters of science and 
technology. The Nuclear and Radiation Studies Board is responsible for 
oversight of National Research Council studies on safety and security 
of nuclear materials and waste.
    \2\ Dr. Robert Dynes, a physicist at the University of California, 
member of the National Academy of Sciences, and former President of the 
University of California, chaired this study.
    \3\ The report is titled Evaluating Testing, Costs, and Benefits of 
Advanced Spectroscopic Portals for Screening Cargo at Ports of Entry: 
Interim Report. The abbreviated version of the report is available 
online at http://www.nap.edu/catalog.php?record<INF>-</INF>id=XXXX

BACKGROUND ON THE REQUEST FOR THE STUDY

    Containerized cargo entering the United States at sea ports and 
land-border crossings for trucks is currently screened for radiation 
using detectors, called radiation portal monitors (RPMs), in 
conjunction with hand-held radioisotope identifiers (RIIDs). The 
Department of Homeland Security (DHS) is seeking to deploy new 
radiation detectors, called advanced spectroscopic portals (ASPs), to 
replace the current RPM and RIID combination, which has known 
deficiencies. The ASPs consist of new detector equipment and new 
software, including algorithms for isotope identification.
    Following some controversy over the testing and evaluation of the 
new ASPs, Congress required in Title IV of Division E of the 
Consolidated Appropriations Act, 2008 (Public Law 110-161) that the 
Secretary of Homeland Security submit to Congress a report certifying 
that ASPs would provide a ``significant increase in operational 
effectiveness'' over continued use of existing screening devices. This 
certification is a precondition for proceeding with full-scale 
procurement of ASPs. Congress also directed DHS to request that the 
National Academies advise the Secretary on the certification decision 
by helping to validate testing completed to date, providing support for 
future testing, assessing the costs and benefits of this technology, 
and bringing robustness and scientific rigor to the procurement 
process. Due to delays in the test and evaluation program, the 
Academies and DHS agreed that the study committee would issue an 
interim report that provides (1) the committee's evaluation of testing 
plans and execution it has seen, and (2) advice on how the Domestic 
Nuclear Detection Office (DNDO) can complete and make more rigorous its 
ASP evaluation for the Secretary and the Nation.
    This interim report is based on testing done before 2008 (referred 
to as past tests), plans for and preliminary results from performance 
tests carried out in 2008, and the agency's draft cost-benefit analysis 
as of October 2008. The committee received briefings on the performance 
test results and analysis and on the cost-benefit analysis but it did 
not receive any written reports on those topics by February 2009, when 
the interim report entered the Academies peer review process.
    I will now discuss each element of the study task below.

SUMMARY OF THE MAIN MESSAGES OF THE REPORT

    First, I want to note that the committee focused much of its 
attention on performance testing. This is not because the other tests 
are unimportant--the portals will be of little use if they are 
incompatible with CBP's computer systems, for example--but the design, 
execution, and evaluation of these tests are comparatively routine, 
even if solutions to problems revealed by the tests are not. The 
design, execution, and evaluation of performance tests for the ASPs is 
more challenging and involves more of the science and engineering 
principles on which the committee has advice to offer.

Past Performance Testing

    Performance tests prior to 2008 had serious flaws that were 
identified by the Government Accountability Office and the Secretary's 
ASP Independent Review Team. All truck-conveyed containers at ports and 
border crossings currently pass through primary screening, which is 
conducted with a radiation portal monitor (RPM). Containers that 
trigger an alarm are sent to secondary screening, which is conducted 
with an RPM and a RIID. The tests prior to 2008 did not adequately 
assess the capabilities of the ASP systems in primary and secondary 
screening compared with the currently deployed RPM and RIID screening 
systems, nor whether the ASP systems met performance criteria for 
procurement.
    There were serious flaws in the testing protocol. Notably, DNDO 
utilized the same radiation sources in performance testing that were 
used to set up and calibrate this testing. Device setup and any 
calibration must use separate radiation sources from those used for 
testing. Also, standard operating procedures for the use of RlIDs in 
secondary screening were not followed in the performance tests, which 
disadvantaged the RIIDs in comparisons with ASPs.

2008 Performance Testing

    DNDO staff acknowledged several pre-2008 deficiencies and designed 
its 2008 test plan to correct them. The study committee examined the 
revised test plan, observed tests, and questioned test personnel, and 
the committee concluded that DNDO did address those problems.
    Because of the ASP configurations and the size of their detectors, 
ASPs would be expected to improve isotope identification, provide 
greater consistency and coverage in screening, , and increase speed of 
screening compared to the current RPM-RIID combination when used in 
secondary screening. Consequently, DNDO's 2008 performance tests of 
ASPs in secondary screening focused on confirming and quantifying that 
advantage for several threat objects, cargoes, and configurations.
    When used for primary screening, an ASP system must be compared to 
the existing RPM-RIID combination for primary and secondary screening. 
This is because ASPs perform an isotope identification function in 
primary screening. Isotope identification is only possible in secondary 
screening with the current RPM-RIID system. DNDO's preliminary analysis 
did account for this difference.
    The study committee found that the 2008 performance tests were an 
improvement over previous tests. They enabled DNDO to identify and 
physically test some of the performance limits of ASP systems. However, 
the committee identified several shortcomings of these tests: (1) The 
selected test configurations were too limited to assess the performance 
of ASP systems against the range of threat objects, cargoes, and 
configurations that could be encountered during cargo screening 
operations at ports without modeling to complement the physical 
experiments; (2) the sample sizes (the number of test runs of each 
case) are small and limit the confidence that can be placed in 
comparing ASP and RPM-RIID performance; and (3) in its analysis, some 
of the performance metrics are not the correct ones for comparing 
operational performance of cargo screening systems. These shortcomings 
are described in greater detail in our report. In the committee's 
judgment, DHS cannot determine whether ASPs can consistently outperform 
current RPM-RlID systems in routine practice until these shortcomings 
are addressed. Better physical measurement and characterization of the 
performance of the systems are a necessary first step but may not be 
sufficient to enable DHS to conclude that the ASPs meet the criteria it 
has defined for achieving a ``significant increase in operational 
effectiveness.''
    The committee recommends modifications to the testing procedures 
that are being used by DHS. These modifications would influence 
subsequent procurement steps, as described in the recommendations for 
the procurement process.

Recommended Approach for Testing and Evaluation

    To make the testing and evaluation more scientifically rigorous, 
the committee recommends an iterative approach involving modeling and 
physical testing. The threat space that is, the set of possible threat 
objects, configurations, surrounding cargoes, and conditions of 
transport--is so large and multi-dimensional that DNDO needs an 
analytical basis for understanding the capabilities of ASP detectors 
for screening cargo. DNDO's current approach is to physically test 
small portions of the threat space and to use other experimental data 
to interpolate and extrapolate to other important parts of the threat 
space to test the identification algorithms in ASP systems.
    The committee recommends that DNDO use computer models of threat 
objects, radiation transport, and detector response to simulate ASP 
performance. Then DNDO can use physical experiments to validate these 
computer models, which would allow a critique of the models' fidelity 
to reality and show where model refinements were needed. Physical 
testing and model refinement would proceed iteratively until the model 
provided an acceptably accurate depiction of reality. With validated 
models, DNDO could evaluate the performance of ASP systems over a 
larger, more meaningful range of the threat space than is feasible with 
physical tests alone.
    This kind of interaction between computer models and physical tests 
is standard in the development and deployment of some high-technology 
equipment and is essential for building scientific confidence in 
technology performance. The performance tests conducted in 2008, and 
even prior to 2008, can be used to help refine and validate models. The 
committee also notes the skills required to proceed exist in the 
National Laboratories.

Recommended Approach for the Procurement Process

    The idea of an iterative approach also extends to deployment of ASP 
systems at ports of entry. The committee noted that DHS' testing 
philosophy is oriented toward a one-time certification decision in the 
near future. However, the mandate for passive radiation screening of 
cargo at ports of entry is expected to continue indefinitely. Rather 
than focusing on a one-time decision about the deployment of ASPs, the 
committee suggests that current testing be viewed as a first step in a 
continuous process of system improvement and adaptation to changes in 
the threat environment, composition of container cargo, technological 
and analytical capabilities, and the nature of commerce at ports of 
entry. These factors have changed significantly over the last decade 
and can be expected to evolve--in both predictable and unpredictable 
ways--in the future. The committee recommends that DHS should develop a 
process for incremental deployment and continuous improvement, with 
experience leading to refinements in both technologies and operations 
over time, rather than a single product purchase to replace current 
screening technologies. The ASP deployment process should be developed 
to address and exploit changes. This would enable DNDO to adapt and 
continually update its screening systems so that they do not become 
outdated as they would after a one-time deployment.
    As the first step in this process, the committee recommends that 
DHS deploy its currently unused low-rate initial production ASPs for 
primary and secondary inspection at various sites under a program of 
extended operational testing. Such deployment, even on a limited scale, 
would provide valuable data concerning ASP operation, reliability, and 
performance, and would allow DHS to better assess ASP capabilities in 
multiple environments without investing in a much larger acquisition at 
the outset.
    The development of the hardware for radiation detection and the 
software for analyzing detector signals is separable. The current DHS 
procurement process is a competition among vendors to provide the 
combined systems, which has been useful. However, as DHS moves forward, 
the committee recommends that it match the best hardware to the best 
software (particularly the algorithms), drawing on tools developed by 
the competing companies and others, such as the national laboratories.
    The deployment of ASPs will not eliminate the need for hand-held 
detectors with spectroscopic capabilities. Because some of the 
improvement in isotope identification offered by the ASPs over the 
RIIDs is a result of software improvements, the committee recommends 
that these improvements be incorporated into hand-held detectors. 
Improved software might significantly improve RIID performance and 
expand the range of deployment options available to Customs and Border 
Protection for cargo screening.
    By separating the hardware and software elements of the system and 
engaging the broader science and engineering community, DHS would have 
increased confidence in its procurement of the best product available 
with current technology, and simultaneously could advance the state-of-
the-art.

Recommended Approach for Cost-Benefit Analysis

    The preliminary analysis presented to the committee suggests that 
benefits of deploying the ASPs may not be clearly greater than the 
costs. Because DNDO's preliminary estimates indicate that the cost 
increases from replacing the RPM-RIID combination with ASPs exceed the 
cost reductions from operational efficiencies, it is important to 
consider carefully the conditions under which the benefits of deploying 
ASPs justify the program costs. A cost-benefit analysis (CBA) can 
provide a structure for evaluating whether a proposed program (such as 
the ASP program) is reasonable and justified.
    The Secretary's decision on ASP certification is based, at least in 
part, on whether the ASPs meet the objectives in DHS' definition of 
``significant increase in operational effectiveness'' (SlOE); however, 
other factors relating to the costs and benefits of the proposed ASP 
program will also need to be taken into account. DHS' definition of 
SlOE is a modest set of goals: As noted above, the increases in 
operational efficiency do not by themselves appear to outweigh the cost 
increases from replacing the RPM/RIID combination with ASPs, based on 
DNDO's preliminary estimates, and the criteria do not require a 
significantly improved ability to detect special nuclear material (an 
ingredient of a nuclear weapon) in primary screening. If the ASPs meet 
the defined goals and are able to detect the minimum quantities of 
nuclear threat material recommended by the ``DOE guidance,'' DHS still 
will not know whether the benefits of the ASPs outweigh the additional 
costs associated with them, or whether the funds are more effectively 
spent on other elements of the Global Architecture.
    A CBA can provide insight about alternative choices--for example, 
whether the benefits of a given program exceed its costs, and which 
choices are most cost-effective. To be effective, the CBA must include 
three key elements: (1) a clear statement of the objectives of the 
screening program; (2) an assessment of meaningful alternatives to 
deploying ASPs; and (3) a comprehensive, credible and transparent 
analysis of in-scope benefits and costs.
    The CBA should begin with a clear statement of what operational 
problem the ASPs are intended to address. This statement will define 
the role that the system plays in providing a layer in the defense 
against the importation of nuclear or radiological materials. The CBA 
should also include a narrative that clarifies how improving detection 
for containers at ports of entry to the United States fits into a 
larger effort to improve detection capabilities, in recognition of the 
many ways that materials could be brought into the United States 
through ports of entry that are not already screened, or across 
uncontrolled stretches of border. Furthermore, to be useful in a 
procurement decision, a CBA must address whether funds are better spent 
to replace the currently deployed equipment rather than to expand 
coverage for other material pathways that currently have no radiation 
screening. DHS should consider tradeoffs among different options for 
allocating efforts and funds, looking at the overall system for ways to 
improve defenses against nuclear smuggling. Such an analysis is needed 
in the CBA for ASP systems because it is not evident that it has been 
provided elsewhere.
    The CBA also needs to account for meaningful alternatives 
(including non-ASP systems) to reveal the scale of the benefits of ASPs 
for radiation screening and determine whether these benefits outweigh 
the additional costs for procurement and deployment. The complexity of 
the container screening task suggests that there could be many 
different options worthy of consideration. These options include 
variations on ASP deployment configurations and operational processes, 
and application of technologies beyond the current RPM-RIID and ASP 
systems such as deploying hand-held passive detectors with state-of-
the-art software and advanced methods for detecting nuclear materials. 
Considerations should include active interrogation, improved imaging 
systems, and integration of these existing technologies. These 
alternatives need to be compared to a baseline that reflects as 
realistically as possible the screening capability that DHS currently 
has in place. This baseline should reflect the number and placement of 
current RPM and RIID detectors, sensitivity of these detectors based on 
how they are operated at each port, and performance of existing hand-
held detectors in the manner they are used in the field. The CBA must 
indicate what capability an investment in ASPs will provide beyond the 
existing systems as they are currently deployed and operated, or beyond 
alternative radiation detection technologies that could be developed 
and deployed at ports of entry.
    In comparing alternatives, it is important that the CBA treat 
benefits and costs in a comprehensive, credible, and transparent 
manner. The benefit assessment should show how the ASP system would 
contribute to improving security with respect to prevention of the 
detonation of a nuclear device or radiological weapon in the United 
States. Because this is the primary objective of the ASP program, a CBA 
that is silent on this subject would be incomplete. Such an assessment 
is difficult and no assessment of such benefits will be definitive or 
unassailable. The cost assessment should cover all phases of the 
acquisition life cycle in a manner that is independent of contractor or 
program office biases, and it should also assess the risk of cost 
escalation associated with the estimate.
    The committee recommends that DHS not proceed with further 
procurement until it has addressed the findings and recommendations in 
this report, and then only if the ASP is shown to be a favored option 
in the CBA.

``Lessons Learned''

    For this hearing I was also asked to comment on ``lessons learned'' 
regarding the processes by which the ASPs have been researched, 
developed, and tested. Although the study committee only examined the 
testing of ASPs, my personal view is that three lessons that could be 
learned:

    First, the process of iterative modeling and testing can be applied 
more broadly to other complex technology development programs. Modeling 
coupled to validating experiments is a necessity for some technology 
applications because of the complex conditions in which these 
technologies must operate.
    Second, incremental deployment with continuous improvement is a 
good strategy for deploying systems that have not fully matured, 
especially if they are envisioned to have an ongoing mission.
    Third, a systems-level approach--that is, examining how to optimize 
choices within the overall system rather than narrowly focusing on one 
tradeoff decision--is applicable to almost every use of equipment in 
security applications.
    This concludes my testimony to the Committee. Thank you for the 
opportunity to testify on this important topic. I would be happy to 
elaborate on any of my comments during the question and answer period.

                    Biography for Micah D. Lowenthal
    Micah Lowenthal is the Director of the Nuclear Security and Nuclear 
Facility Safety Program in the Nuclear and Radiation Studies Board at 
the National Research Council of the National Academies. At the 
Academies, he has directed domestic and international studies on 
nuclear and radiological safety and security, nuclear nonproliferation, 
nuclear fuel cycles, radioactive waste, and management of contaminated 
environments. Before joining the National Academies' staff in 2001, Dr. 
Lowenthal was a researcher and lecturer at the University of California 
at Berkeley. In 1996 he was an American Association for the Advancement 
of Science Environmental Science and Engineering Fellow. Dr. Lowenthal 
received an A.B. degree in physics and a Ph.D. degree in nuclear 
engineering, both from the U.C.-Berkeley.

    Chairman Miller. Thank you, Dr. Lowenthal. Unfortunately, 
you all probably know that our days here are somewhat 
scattered, and I need to go to the Floor. We have tried to 
arrange another Member of the Majority who is a Member of the 
Subcommittee to preside in my absence. Ms. Dahlkemper has been 
an especially conscientious Member and she may arrive between 
now and 11:00, which is when I expect to come back, and if that 
is the case, we will come out of recess and she will preside or 
any other Member of the Majority who is a Member of the 
Subcommittee.
    Mr. Broun. Mr. Chairman, I would be glad to preside if you 
would like me to.
    Chairman Miller. Well, I thank Dr. Broun for that generous 
offer but I think we will do it the way that every other 
committee and subcommittee in Congress does it. So with that, 
we will need to stand in recess. I apologize again for the 
inconvenience. Believe me, it is more inconvenient for me than 
it is for you, and we will be back in session but I appreciate 
your being here and I thank you for your indulgence.
    [Recess.]

                               Discussion

    Chairman Miller. We are now out of recess. Floor colloquies 
are undoubtedly one of the most peculiar stylized aspects of 
Congressional service. I have heard of political campaigns that 
80 percent of all the effort is wasted, the problem is, no one 
knows what the 20 percent is that is not. I suspect that there 
is at least that ratio of wasted effort in Congressional 
service and I very much suspect Floor colloquies are in the 
wasted effort category. But it was something I had to do.
    Mr. Broun. Floor debate, isn't it?
    Chairman Miller. I will resist temptation to point out 
other aspects of Congressional service that may be wasted 
efforts. If we may now begin our rounds of questioning, Mr. 
Aloise, Dr. Lowenthal, Dr. Broun, I now recognize myself for 
five minutes.

                      Prioritizing Security Needs

    Dr. Broun raised the point that there are other priorities 
that we have to decide between, priorities even within 
security, so it is not security versus other things government 
does. In October of 2007, this committee held a hearing on an 
exercise on a scenario of a terrorist attack assuming that a 
dirty bomb was detonated in two American cities, and what we 
found was that we were probably better prepared, certainly 
better prepared for Katrina than we were for dirty-bomb 
attacks, despite the fact that if there is one punch that has 
obviously been telegraphed by terrorists, by al-Qaeda in 
particular, it is a dirty-bomb attack. We did not have the 
capacity to conduct the test to see what the level of 
contamination was, to let our people know that they can go back 
into offices, office buildings--that we might shut down, 
indefinitely, 10, 15, 20 square blocks of an American city, the 
midtown of an American city or perhaps two--that would probably 
take six years to complete the necessary environmental tests 
for an attack in one city, nor testing on individuals to see if 
they had been exposed to radiation. That might take a couple 
years. We would have to tell parents that we could not test 
their children to see if they had been exposed to radiation for 
a couple years. But, you know, if the child's hair started 
falling out, call us and maybe we can move them up in line. And 
the failing there seemed to be simply one of funding. We are 
not prepared to respond to a radiological attack, and here we 
see we are spending $2 or $3 billion to develop a technology 
that those who will use it really question whether it does much 
if any good at all, certainly not enough to justify $2 or $3 
billion. DNDO expects the Secretary of Homeland Security to 
make a decision this October, four months from now, about 
whether to certify that it is worth investing the $2 billion in 
the ASPs. Do either of you believe that there will be enough 
information available this fall for DHS to make that decision, 
and how confident are you that the costs of the ASPs justify 
the investment? Mr. Aloise.
    Mr. Aloise. Well, that is the question. In our view, until 
integration testing is done, field validation is done, 
operational testing is done, the injection studies are 
complete, an analysis of energy windowing versus the ASPs is 
done, until all the testing is done and we know whether or not 
this marginal increase in security is justified through a 
sound, independent cost-benefit analysis, it is our belief that 
we shouldn't spend any money on this program or go forward with 
it.
    Chairman Miller. And do you think there is any realistic 
chance those preconditions may be satisfied between now and 
October?
    Mr. Aloise. At this point it does not look that way.
    Chairman Miller. Dr. Lowenthal.
    Dr. Lowenthal. We agree that these are the preconditions 
for going ahead with certification, that there is a great deal 
of information that is needed. I am not really in a position to 
tell you how much time it will take them to get that 
information together. There is some information that they 
presumably have already put together, some analysis that they 
have already done that we haven't seen. We will be happy to 
look at it when they provide it. But in terms of timelines, we 
would not be inclined to guess when they will be ready.

                Decision-making: Processes and Timelines

    Chairman Miller. Both of you appear to disagree with DHS's 
view that they will be able to obtain the data they need from 
field evaluation tests that are to begin next month. Why do you 
not believe that those tests will be good enough for DHS to 
base a decision on? Mr. Aloise.
    Mr. Aloise. Well, that is only part of, as I just said, 
what they need to base their decision on. You know, field 
validation testing has not gone well so far. They suspended it 
after two weeks because they were actually sending more--the 
ASPs were actually sending more to secondary than the PVTs so 
they had to work out a number of those problems and I am 
assuming they have. It has been a while since the initial 
testing. We just have to see how it goes, and we are going to 
be looking to CBP for a lot of the answers because they are the 
agency that has to live with this equipment, and I--we feel 
fairly confident that they are not going to go forward until 
they are satisfied that the testing has gone right at this 
point.
    Chairman Miller. Dr. Lowenthal.
    Dr. Lowenthal. The testing that they are going to do for 
field validation is going to tell them something that they need 
to know but it won't tell them everything that they need to 
know, and the committee--the study committee's recommendations 
were to enhance what they are going to be able to learn from 
these sorts of tests with modeling and simulations. The range 
of environments that they are going to be operating in is very 
limited. They are only doing field validation testing in four 
different sites, and there are a lot of other conditions, a lot 
of other kinds of cargo and so on that are worth learning 
about. Some of that can be done with simulation and some of it 
can be done with the deployment that the committee recommended.
    Chairman Miller. Thank you. My time has expired.
    Dr. Broun for five minutes.
    Mr. Broun. Thank you, Chairman.

       ASP in Context: The Global Nuclear Detection Architecture

    How would y'all--``y'all'' is a southern word. How would 
you all prioritize the upgrade from the PVT RIID system to the 
ASP system within the entire global nuclear detection 
architecture? Let us start with Dr. Lowenthal.
    Dr. Lowenthal. I should point out that the committee really 
only looked at the testing of the ASPs and talked about what 
kinds of information a decision-maker would want to have; and 
so the committee recommended that they (DHS) consider these 
other components of the global architecture--and there are gaps 
that are known and have been pointed out by others within that 
architecture--but the committee did not study that question, 
itself. What the committee did say is that if you look at this 
from the perspective of an adversary who is trying to sneak 
something into the United States, if you can--if you reinforce 
the places where you already are screening but you leave other 
avenues totally open, you may not be gaining much improvement 
in security.
    Mr. Broun. Mr. Aloise.
    Mr. Aloise. We agree. As I mentioned to Dr. Lowenthal a 
minute ago, we are spending a lot of money upgrading locks on 
the front door but the windows and the back door are wide open. 
Does that make sense to do with limited resources, so----
    Mr. Broun. I agree wholeheartedly. Are there other areas 
that would benefit greater from the same level of investment, 
Mr. Aloise?
    Mr. Aloise. Well, there are a lot of vulnerabilities that 
need to be looked at that have not been properly addressed in 
the architecture. The border crossing is really not the 
greatest threat, so I would--we believe that we should be 
looking equally hard at all the other vulnerabilities in the 
architecture because as it was just said, that is probably not 
where they are going to come through. If they have taken the 
time and trouble to get this material, it is unlikely they are 
going to stick it in a cargo container and drive it across 
through a portal monitor.
    Mr. Broun. And with open borders, they can just carry it in 
wherever they want to carry it.
    Dr. Lowenthal, particular--and let me ask you to answer 
your question in view of comments you made in your testimony 
about that we have ASPs sitting there now, if you would include 
that discussion?
    Dr. Lowenthal. Well, given the scope of our study, I 
wouldn't be comfortable to try to identify what the most 
promising area is. What the committee recommended is that DHS 
do that analysis, look at the entire system. We have some 
concerns that that hasn't been done, and--I will separate this 
into two parts. One is that the committee recommended that DHS 
look at that whole system in addition to just the tradeoff 
between the ASPs and the PVTs, because as a decision-maker, the 
people in the Administration and in Congress will want to know 
whether the money is well spent. The analysis does not appear 
to have been done elsewhere and so the committee recommends 
that it be included in this ASP decision. Now, the other 
component of that is the deployment of the ones that they 
already own. That is more for a learning exercise. This is 
something where they can learn more about the performance of 
the systems in the field and improve them as they go forward. I 
think these are directed at slightly different points.
    Mr. Broun. Thank you. My time disappeared, so I guess I am 
out of time. I am not sure where we stand. Thank you, Mr. 
Chairman.
    Chairman Miller. Well, you will have time for a second 
round because I was planning to ask at least one more question. 
I now recognize myself for a second round of questions.

                Management of ASP Testing and Deployment

    Your criticism, for both of you, the criticism appears to 
be as much that the problems with the ASPs was not the 
technical challenges but that the whole program was just poorly 
managed. This is a recurring theme for this committee, you 
know, how could management--how could programs be managed 
better. But if you think the whole testing program has been 
troubled from the start, and that the management more than 
anything else is a problem, what lessons should we learn? How 
should this program be managed differently? How can it be 
managed differently in the future, this and other similar 
programs?
    Mr. Aloise. Well, I will take a shot at that. Back in 2006 
when we issued our first report on the deployment of PVTs, we 
learned about the ASPs and we knew then that there would only 
be a marginal improvement in security. That is why we called 
for a cost-benefit analysis before anything went further; is it 
worth the marginal increase in security you are going to get 
from the ASPs? Do that first, then go talk to the Congress and 
the decision-makers can decide whether it is worth it or not, 
and we know the story. It was poorly done, and it was based on 
assumptions and not data, and that leads us to where we are 
today. It was a rush to push technology through that was 
immature, and that has got to be the true lesson of this, is 
that without proper and scientifically rigorous testing, 
without a technology that is mature, it should not be generally 
rushed to deployment--especially when you have a system already 
there that is working.
    Chairman Miller. Right. Dr. Lowenthal.
    Dr. Lowenthal. I should point out that our study committee 
was silent on the matter of whether this was managed well or 
not, but I think that the report highlights many of the points 
that you made in your opening remarks about what should be done 
in the future. I think you hit on all of those--a well-planned-
out testing program with criteria established in advance and an 
idea as you go in for what you are going to learn from each 
stage of this, making sure that it matches up with what the 
customer is looking for, as Mr. Aloise mentioned. All of those 
components lead to having a testing and evaluation program that 
will lead to procurement that gives the customer what he needs 
and the Nation what it needs.
    Chairman Miller. Would it be a fair summary to say that the 
problem is that we began with the conclusion and then found the 
analysis to support it, rather than beginning with the 
analysis, and then finding what conclusions would come from the 
analysis?
    Mr. Aloise. I think so, Mr. Chairman. I think we had a 
solution in search of a problem.
    Chairman Miller. There is a problem but there may have been 
another solution. Our clock is not working, so each Member 
needs to show self-restraint. I will now go to Dr. Broun for a 
second round. Ms. Dahlkemper has arrived and I think is now 
collecting herself.
    Dr. Broun for five minutes, however that might be measured. 
Five minutes based on the honor system.
    Mr. Broun. I hope Ms. Dahlkemper can collect herself. I 
trust that she can. She is very good at doing that.
    I am very interested to hear Dr. Lowenthal's comments about 
whether we can take the ASP units that are available now, put 
them in a parallel screening process out there in the field, as 
the appropriators evidently are preventing us from doing. Would 
you recommend that we do so, and is that something that you 
could put in your report to us, so that we can look at that 
possibility and maybe even make that recommendation?
    Dr. Lowenthal. Yes. Our study committee recommended that 
they take the--they procured a number of these low rate initial 
production [units] so that they can test and evaluate them. 
They have a number of them that have been sitting moth-balled. 
I understand that some of them have been cannibalized for parts 
for other ones, and we don't have an exact number of how many 
they have, but they have some number of them that they already 
own that they could deploy in the field. Our study committee's 
recommendation, explicitly in the report, is that these should 
be deployed at selected sites, and the experience gained from 
those will contribute to both their understanding of how they 
perform, but also how they might be able to modify the 
operations at the sites, and also the technology, what 
improvements they might want to put in there. So that is 
explicitly in the report.
    Mr. Broun. Mr. Aloise, any comments?
    Mr. Aloise. Just that we would agree with that. We think 
that is a smart idea.
    Mr. Broun. Thank you. I hope that the CBP people can be 
consulted because I think the end-user has not been consulted 
enough in this process, and with that, Mr. Chairman, I will 
yield back.
    Chairman Miller. Thank you. You may or may not have had 
time to yield back. You probably did.
    Ms. Dahlkemper for more or less five minutes.
    Ms. Dahlkemper. Thank you very much, and I apologize for 
being late. I had a markup in another committee, but I 
appreciate the opportunity to ask a question of both of you if 
you could just address this.

       Justifying the Cost of the Advanced Spectroscopic Portal 
                                Program

    Can either of you provide some insight into whether 
improving portal radiation detection is worth $2 billion to $3 
billion? Assuming that ASPs prove to be robust enough to use, 
and they deliver real improvement in detection in commercial 
flow, would that still be enough to justify deploying them, 
given all the other needs out there and our limited resources?
    Mr. Aloise. I have to go back to, and I know I sound like a 
broken record on this, a cost-benefit analysis that we have 
been calling for a couple years, although those factors that 
you mentioned need to be in there so that the decision-makers 
can look at and see whether the marginal improvement is worth 
it, considering all the vulnerabilities we have in the 
architecture already that we need to address.
    Ms. Dahlkemper. Dr. Lowenthal.
    Dr. Lowenthal. We agree entirely that a cost-benefit 
analysis will be needed to show that. We are not in a position 
to judge whether they are going to be worth it, partly because 
our study didn't examine the results of their tests for this 
interim report. It looked at the approach. Once they have the 
results and they can factor those into their cost-benefit 
analysis, then a judgment can be made as to whether they are 
worth it.
    Ms. Dahlkemper. Mr. Aloise, the GAO has done a lot of work 
on how agencies should do a cost-benefit analysis. Can you lay 
out some principles that should be guiding DHS as they begin 
their own cost-benefit analysis on whether to acquire ASPs or 
not?
    Mr. Aloise. Yes. In fact, we just developed this about a 
year ago on how to develop a cost-benefit analysis. It was 
based on working with 90 representatives from all the federal 
agencies including DHS and it lays out exactly what the best 
practices are. But some of the things must be based on fact, 
must be fact based, based on data, not assumptions, must have 
proper documentation all along the way, and those are the kinds 
of things that we are missing from the ones we looked at for 
DNDO.
    Ms. Dahlkemper. Anything specific to this particular----
    Mr. Aloise. In particular, test results, what do the test 
results show.
    Ms. Dahlkemper. All right. Dr. Lowenthal, do you want to 
comment on that?
    Dr. Lowenthal. If I can just add one point, we give some 
advice on how to complete the cost-benefit analysis but one of 
the things that is pointed out in our report is that no cost-
benefit analysis at the end that deals with security matters is 
going to be totally unassailable. They are going to have to 
produce something that they can defend, but you are always 
going to be able to pick at some part of it. This is a 
difficult problem. This is not an easy issue to work through.
    Ms. Dahlkemper. Thank you. I yield back.
    Chairman Miller. Thank you, Ms. Dahlkemper. You still had 
five minutes.
    That concludes the questioning of this first panel. Again, 
we thank both Mr. Aloise and Dr. Lowenthal, and we will stand 
at ease for a second while this panel can step down and the 
next panel can come up.

                               Panel II:

    At this time I would like to introduce our second panel. 
Dr. William Hagan is the Acting Deputy Director of the Domestic 
Nuclear Detection Office at the Department of Homeland 
Security. That is also a mouthful of a title. Mr. Todd C. Owen 
is the Acting Deputy Assistant Commissioner of the Office of 
Field Operations at the U.S. Customs and Border Protection, 
Department of Homeland Security. You each have five minutes for 
your spoken testimony. Your written testimony will be included 
in the record. When we have completed your spoken testimony, we 
will begin with questions. Each Member will have five minutes 
to question the panel. It is the practice of this subcommittee 
to receive testimony under oath. Do either of you have any 
objection to taking an oath? Both witnesses indicated that they 
do not. If not, you also have the right to be represented by 
counsel. Do either of you have counsel here? And both indicated 
they do not have counsel present. Please stand and raise your 
right hand. Do you swear to tell the truth and nothing but the 
truth?
    The record should reflect that both witnesses took the 
oath. We will begin with Dr. Hagan.

  STATEMENT OF DR. WILLIAM K. HAGAN, ACTING DEPUTY DIRECTOR, 
   DOMESTIC NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Dr. Hagan. Good morning, Chairman Miller, Ranking Member 
Broun and distinguished Members of the Subcommittee. As Acting 
Deputy Director of the Domestic Nuclear Detection Office, DNDO, 
at the Department of Homeland Security, I am honored to be here 
with my colleague from U.S. Customs and Border Protection 
(CBP), Mr. Todd Owen. I would like to thank the Committee for 
the opportunity to share lessons learned and progress to date 
on our Advanced Spectroscopic Portal Program. I would also like 
to thank the Committee for its support of DNDO's mission to 
reduce the risk of radiological and nuclear terrorism to the 
Nation.
    Over the past three years, we have made substantial 
investments in the development of the next generation of 
radiation portal monitor known as the Advanced Spectroscopic 
Portal, or ASP. The goal of the ASP program is to advance 
passive detection for cargo inspection. ASP is expected to 
automatically discriminate threat from non-threat materials for 
unshielded to lightly shielded threats in primary inspection 
while improving identification capability in secondary 
inspection. To ensure that ASP systems achieve the necessary 
technical and operational performance, we are in the midst of 
putting them through a rigorous test campaign. ASP has already 
advanced through several rounds of performance testing, and 
will face field validation at ports of entry, as well as 
independent operational testing and evaluation conducted by the 
DHS Science and Technology Directorate's operational test 
authority. The successful completion of these tests, along with 
other analyses in consultation with the National Academy of 
Sciences, will then inform the Secretary's certification 
decisions for ASP this fall.
    In addition, during the execution of our test campaigns, we 
have cooperated with the Government Accountability Office and 
the National Academy of Sciences to provide both groups with 
information and visibility into our testing and analysis 
processes. The resulting review as issued by the GAO and the 
NAS provide a valuable external assessment of the ASP program.
    The 2008-2009 set of ongoing tests reflect a number of 
steps DNDO has taken to reform test processes. For example, one 
of our most fundamental improvements has been to standardize 
test event planning. We now utilize detailed instructions with 
a six-milestone process to ensure that test planning is done 
openly, that partner inputs are included, and that test events 
are designed to provide the data required to meet the 
objectives of the test and to help make programmatic decisions. 
Additionally, some improvements in the ASP program have been 
the result of DHS-wide enhancements to program management. The 
changes put in place within DHS further ensure that any 
eventual certification or acquisition decisions are consistent 
with DHS priorities and made with a strong acquisition 
management foundation.
    Specifically, we are implementing DHS's new management 
directive 102-01 for large acquisition programs which requires 
a complete set of analysis, testing and documentation as input 
for an acquisition decision. This set includes, for example, 
analysis of alternatives, concept of operations, operational 
requirements, mission need statements, cost-benefit analysis 
and others. We are acutely aware that we must integrate end-
user requirements and conduct tests and evaluation campaigns. 
We recognize that the development and deployment of new systems 
can be expensive and the cost to taxpayers must be justified by 
the increased capabilities of the equipment. We feel that the 
plans and procedures now in place for the ASP program provide a 
sound foundation for future certification and acquisition 
decisions. ASP systems have been under review and evaluation 
for over three years, and further improvements will always be 
possible, but I believe that after the plan testing and 
analysis is complete and the requirements of MD 102-01 have 
been fulfilled, DHS will be in a position to make an informed 
decision.
    As a final note, I would like to emphasize that while we 
are diligently working to characterize and evaluate the 
performance of ASP to ensure that operators receive appropriate 
equipment for their mission, the ASP program is only one piece 
of the multi-layered solution we call the global nuclear 
detection architecture through which we seek to integrate 
efforts across the government into an overarching strategy to 
improve the Nation's nuclear detection capabilities. 
Accordingly, we plan to continue deployments of detection 
systems at our official ports of entry while also dedicating 
increased time and effort to a wider range of pathways. In 
addition, we have been working to strengthen the architecture 
by filling gaps, improving technologies, building necessary 
infrastructure and raising awareness about radiological and 
nuclear threats and the role of detection systems.
    I look forward to continuing to work with our partners 
within DHS, other federal departments and State and local 
agencies and the Members of this subcommittee and the Congress 
to help keep the Nation safe from radiological and nuclear 
terrorism.
    This concludes my statement. I thank you for your 
attention. I am happy to answer any questions.
    [The prepared statement of Dr. Hagan follows:]
                 Prepared Statement of William K. Hagan

Introduction:

    Good morning Chairman Miller, Ranking Member Broun, and 
distinguished Members of the Subcommittee. As Acting Deputy Director of 
the Domestic Nuclear Detection Office (DNDO) at the Department of 
Homeland Security (DHS), I would like to thank the Committee for the 
opportunity to share lessons learned and progress to date on our 
Advanced Spectroscopic Portal (ASP) program. I would also like to thank 
the Committee for its support of DNDO's mission to reduce the risk of 
radiological and nuclear terrorism to the Nation.
    DNDO was established to improve the Nation's capability to detect 
and report attempts to import, possess, store, develop, or transport 
nuclear or radiological material for use against the Nation, and to 
further enhance this capability over time. To that end, our work is 
guided by our development of a global nuclear detection architecture 
(GNDA). DNDO has developed a time-phased, multi-layered, defense-in-
depth GNDA that is predicated on the understanding that no single layer 
of defense can detect all radiological or and nuclear (rad/nuc) 
threats. For this reason, the GNDA provides multiple detection and 
interdiction opportunities overseas, at our borders, and within the 
United States to effectively increase the overall probability of system 
success. DNDO has worked with intra- and interagency partners to 
develop time-phased strategies and plans for improving the probability 
of detecting and interdicting nuclear threats. DNDO will continue to 
enhance the GNDA over time by developing better detection technologies, 
working with our operational partners to improve concepts of operations 
(CONOPs), enabling real-time reporting of detection events, and 
supporting effective response to real threats.
    My testimony today will include a status update and lessons learned 
in DNDO's efforts to address one aspect of the GNDA--scanning cargo 
containers at ports of entry. Specifically, I will focus on the ASP 
program--a program to improve the detectors used to perform this task.

Role of Container Scanning and ASP in the GNDA:

    The United States border is the first layer within the GNDA where 
the United States has full control over detection and interdiction. As 
such, considerable effort and resources have been placed at this layer 
to provide comprehensive radiological and nuclear detection 
capabilities, particularly at ports of entry (POEs). After 9/11, 
considerable concern was raised about the possibility that terrorists 
could use the enormous volume of cargo flowing into the United States 
as a pathway for bringing in nuclear material or a nuclear weapon. By 
far, the largest mode for incoming cargo is maritime shipping 
containers, with approximately 11 million containers coming into the 
country every year. Additionally, in the Security and Accountability 
for Every (SAFE) Port Act of 2006, Congress mandated that all 
containers coming in through the top 22 ports, by volume, be scanned 
for radiation by the end of 2007.
    A key consideration in rad/nuc detection is the ability to 
effectively detect threats without impeding the flow of legitimate 
trade and travel across the border. United States Customs and Border 
Protection (CBP) currently scans cargo entering at our nation's POEs 
using polyvinyl toluene (PVT)-based radiation portal monitors (RPMs) 
that can detect radiation, but cannot distinguish between threat 
materials and naturally occurring radioactive material (NORM), such as 
kitty litter and ceramic tiles. Narrowing down alarms to just those for 
dangerous materials is especially important for POEs that have a high 
volume of containers, or those that see a high rate of NORM. To address 
this limitation, DNDO is developing next-generation technology--the ASP 
program. The ASPs have shown significantly improved capability to 
distinguish rad/nuc threats from non-threats over the hand-held 
instruments currently used in secondary screening. Thus, the 
introduction of ASP systems is expected to not only reduce the number 
of unnecessary referrals and false positives in primary but increase 
the probability of detecting dangerous materials in secondary.
    As you know, DNDO initiated the ASP program in 2006, building on 
previous work within CBP and the Science and Technology Directorate. 
ASP systems are the next generation of radiation portal monitors. ASP 
units are now being developed by two separate vendors. These units have 
been subjected to rigorous tests and both systems will complete several 
rounds of performance testing and field validation at POEs. Following 
these performance tests, both systems will complete independent 
operational testing and evaluation conducted by the DHS Science and 
Technology Directorate's Operational Testing Authority. Test data will 
be analyzed and provided in support of the Secretary's Certification 
decision. DNDO is also engaged with the National Academy of Sciences 
(NAS) to allow them to review ASP testing and inform the certification 
process, as required in the FY 2008 and 2009 Homeland Security 
Appropriations bills. Indeed, in its most recent report on ASP testing, 
the Government Accountability Office (GAO) acknowledged the many 
enhancements and lessons that DNDO has incorporated into its testing 
programs.

Reviews to date and lessons learned:

    Since 2006, the ASP program has undergone extensive review from 
outside agencies, including the GAO, an Independent Review Team (IRT) 
established by the previous DHS Secretary, and, most recently, the 
National Academy of Sciences. We have taken each review seriously, 
valued the recommendations that have been provided, and, where we felt 
appropriate, we have incorporated their recommendations into the next 
stages of the program.
    The first reviews conducted by the GAO of the ASP program focused 
on testing conducted in 2005 as part of the original ASP vendor 
selection and the initial cost-benefit analysis used to evaluate 
potential deployment options for ASP systems. In its report, released 
in September 2006, GAO questioned the methods used by DNDO to quantify 
performance capabilities of new systems, and insisted that ASP 
performance be evaluated against system requirements prior to full 
scale deployment. DNDO concurred with the need for additional testing 
prior to full scale deployments, which were underway prior to the 
release of GAO's report. These tests were conducted throughout 2007 and 
focused specifically on evaluating the performance of ASP systems in a 
number of testing environments.
    In September 2007, GAO recommended that DHS establish an 
independent body to conduct additional testing of ASP systems, which 
DNDO agreed to, launching the ASP-Independent Review Team (IRT), a team 
of independent experts, drawn from a wide range of institutions and 
backgrounds. The ASP-IRT Report, delivered in February 2008, provides a 
valuable independent assessment of the ASP program, and served as an 
important source of information, albeit based on the data that was 
available at the time.
    In addition to the reviews of 2007 testing, at the conclusion of 
initial ``field validation'' testing in 2007, CBP identified a number 
of functional improvements, unrelated to detector performance, that 
required modifications to ASP systems prior to deployment. DNDO 
postponed efforts to seek certification at that time, initiated new 
efforts to develop these requested changes , and conducted a new series 
of tests in 2008 and early 2009 to ensure that these changes did not 
detract from detector performance.
    The 2008-2009 test campaign transitions the program from 
developmental to functionality and performance testing, culminating in 
full operational tests. This testing includes:

        1.  System Qualification Testing, designed to demonstrate that 
        ASP units are manufactured in accordance with processes and 
        controls that meet the specified design requirements;

        2.  Performance Testing at the Nevada Test Site (NTS), designed 
        to evaluate ASP, PVT, and radioisotope identification devices 
        (RIID) detection and identification performance against 
        controlled, realistic threat materials, shielding and masking 
        scenarios;

        3.  Integration Testing, designed to determine whether the ASP 
        systems are capable of operating and interfacing with the other 
        equipment found in operational settings;

        4.  Field Validation Testing, designed to exercise the ASP in a 
        stream of commerce environment at POEs;

        5.  Operational Test and Evaluation (OT&E), designed to measure 
        the operational effectiveness and suitability of ASP. The OT&E 
        will be independently conducted by the DHS Science and 
        Technology Directorate (S&T).

    Recently, the GAO released its latest report, focusing on the 
testing conducted in 2008 and 2009. GAO acknowledged improvements in 
ASP testing, but raised some concerns. DNDO agrees that analysis and 
review of test data is necessary. DNDO plans to continue study the 
results of testing as the ASP program progresses. However, DNDO 
believes that the data analysis performed to date and the anticipated 
data from ongoing testing will be sufficient to inform an ASP 
certification decision in the future.
    In addition to the GAO's reviews, DNDO and CBP have provided NAS 
with regular testing updates. Recently, the NAS delivered an interim 
report to the Department and the Appropriations Committees. Like the 
NAS, DNDO sees the intrinsic value of continued testing and incremental 
deployment of ASP systems. However, DNDO must balance the need to 
better understand a complex system like ASP and the need to further 
reduce the risk of certain significant vulnerabilities and operational 
burdens. DNDO believes that the criteria outlined for certification are 
a sufficient threshold for determining when we have reached the point 
where deployment should begin.
    Ultimately, these reviews provide for a valuable external 
assessment of the ASP program. It is only through initial deployments 
that we will continue to learn more about the performance of these 
systems, and most rapidly bring about the improvements that are needed 
to address current limitations. ASP systems have been under review and 
evaluation for over three years now, and, while further improvements 
will always be possible, we should not delay the implementation of 
substantially improved capabilities.

Acquisition lessons learned and changes made in response:

    DNDO has taken a number of steps to reform processes to ensure the 
success of ASP, as well as other development and acquisition programs. 
At the same time, these reforms are accompanied by a number of similar 
improvements to DHS-wide program management processes.
    With regard to testing, DNDO has taken a number of steps to improve 
internal procedures based on lessons learned from earlier tests.
    One of our most fundamental improvements has been through the 
standardized implementation of DNDO Operating Instruction 1, ``Test 
Event Planning.'' This detailed instruction lays out a six-milestone 
process that ensures that test planning is done openly, that partner 
inputs are included, and that test events are designed to provide the 
data required to meet the objectives of the test, and ultimately to 
help make programmatic decisions.
    We have also taken considerable steps to ensure that any ASP 
testing is responsive not just to DNDO requirements and objectives, but 
to all DHS partners. Prior to the 2008-2009 testing, DHS created a test 
planning working group that included DNDO, CBP, the DHS Operational 
Testing Authority (OTA), the Office of the Under Secretary for 
Management (USM), and the National Laboratories. Collectively, this 
group laid out the test campaign and assigned responsibilities for each 
test event to respective components.
    Finally, in the 2008-2009 ASP test campaign, based on lessons 
learned in the 2007 test campaign series, we instituted strict entrance 
and exit criteria for each of the test events. These criteria were 
developed long before testing began, and were developed jointly with 
our operational partner, CBP. This has given us confidence that as the 
ASP systems have continued through this series of test events, 
requirements are met prior to completion.
    DNDO has also made a number of program management changes based on 
lessons learned throughout the program. In late 2008, DHS decided 
against exercising the next contract option for one of three ASP 
vendors. This decision reduced costs for carrying forward multiple, 
parallel development efforts.
    Finally, DNDO and the ASP program have benefited from a number of 
DHS-wide improvements to program management. DNDO has adopted 
Management Directive (MD) 102-01, which outlines the acquisition 
management process for DHS programs. ASP program plans have been 
adapted to be consistent with the rigorous process outlined in the 
directive. This will further ensure that any eventual certification and 
acquisition decisions are consistent with DHS priorities and made with 
a strong acquisition management foundation.
    There is an important distinction between two key milestones for 
the ASP program--Secretarial certification and the MD 102-01 milestone 
decision for purchase and deployment of ASP. The former is a rather 
loosely defined milestone, which we have clarified by defining a 
``significant increase in operational effectiveness,'' requiring that 
the Secretary formally state that she believes the ASP system is 
``better than'' the current system. The latter is a very well defined 
milestone that was developed for all large programs within the 
Department of Homeland Security. Items such as mission needs, 
operational requirements, analysis of alternatives, etc., are part of 
the MD 102-01 process. No ASP production units can be purchased and 
deployed without successfully navigating the MD 102-01 process. The 
Secretarial certification requirement is in addition to and in advance 
of the MD 102-01 deployment decision.
    Together, the lessons learned in testing and program management, 
along with the introduction and adherence to MD 102-01 have 
significantly improved the ASP program. At the same time, it is 
important to note that these lessons learned have not only benefited 
the ASP program; they are being applied across DHS.

ASP Path Forward:

    The plans and procedures in place for the ASP program provide a 
sound path forward for ASP certification and future acquisition 
decisions. The current path to certification includes testing, 
accompanied by the analysis of results, to ensure that Secretary 
Napolitano has sufficient information for ASP certification. ASP 
systems have been under review and evaluation for over three years now, 
and, while further improvements will always be possible, a 
certification decision will determine whether or not the systems 
address increase the probability of detecting dangerous materials while 
minimizing the operational burdens.
    ASP was designed to improve capabilities in both primary and 
secondary inspections. For primary applications, we have defined a 
``significant increase in operational effectiveness'' as being a 
quantified reduction in unwanted referrals to secondary inspection, 
while maintaining similar or better sensitivity in detecting materials 
of concern. Ultimately, the degree to which ASP systems meet this 
objective is driven by sensitivity thresholds at which the systems will 
be operated, similar to the threshold used for current PVT systems. 
Therefore, the advantage in primary can be viewed as an improvement in 
efficiency of operations (less unwanted referrals), while maintaining 
the same or better detection efficiency. The relative degree to which 
we realize these benefits with respect to the current systems will vary 
by port, depending on the operational thresholds at which the current 
PVT systems are set.
    The evaluation of ASP systems in secondary inspection is more 
direct. The ability of ASP systems to identify and resolve the source 
of radiation is directly compared to the ability of current 
capabilities to perform the same functions. In this instance, a 
``significant increase in operational effectiveness'' is defined as a 
quantified improvement in the ability to identify materials of concern.
    Both of these definitions were developed through coordination 
between DNDO, CBP, and USM. This definition has been approved by DHS 
senior leaders and has served as the guide for developing test 
campaigns to meet these test objectives. Again, because of the rigor 
that has gone in to developing and quantifying these improvements, we 
are seeking to remove ambiguity in the evaluation process, and ensure 
that any certification and acquisition decisions are made consistent 
with DHS priorities and objectives.

Conclusion:

    DNDO will continue to work with CBP and other partners within and 
beyond DHS to improve the Nation's ability to detect radiological and 
nuclear threats at our ports and borders. DHS is facing a challenge at 
our ports and borders as the Department balances facilitating the flow 
of goods and commerce with the need to sufficiently scan cargo for 
radiological or nuclear threats as it enters our nation. As both the 
President and Secretary have said, the Nation will need more technology 
to meet its security challenges and the technologies that DNDO is 
pursuing, of which ASP is but one example, are a critical component in 
addressing that challenge.
    Our efforts to develop and evaluate ASP systems are sound. Current 
test results are capturing the benefits of ASP systems, and the reviews 
to date have provided a valuable assessment of the program and 
identified a number of key lessons learned.
    I welcome and appreciate the Committee's active engagement with 
this program, and look forward to continuing our cooperation as we move 
forward together. Chairman Miller, Ranking Member Broun, and Members of 
the Subcommittee, I thank you for your attention and will be happy to 
answer any questions that you may have.

                     Biography for William K. Hagan
    Dr. William Hagan serves as Acting Deputy Director of the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO). Prior to that, he was Assistant Director for the 
Transformational Research and Development (R&D) Directorate at DNDO. In 
that role Dr. Hagan was responsible for long-term R&D seeking 
technologies that can make a significant or dramatic positive impact on 
the performance, cost, or operational burden of detection components 
and systems.
    Prior to DNDO, he was a Senior Vice President at Science 
Applications International Corporation (SAIC). Business areas included 
nuclear technology (analysis, detection, and applications), 
telecommunications, optics, transportation, system integration, and 
technology assessments during his thirty years at SAIC.
    Dr. Hagan earned a Bachelor of Science in Engineering Physics in 
1974, Master of Science in Physics in 1975, and Master of Science in 
Nuclear Engineering in 1977 from the University of Illinois at Urbana. 
He received his Ph.D. in Physics from the University of California-San 
Diego in 1986. He holds three patents. Dr. Hagan was appointed to 
Senior Executive Service in 2006.

    Chairman Miller. Thank you, Dr. Hagan.
    Mr. Owen for five minutes.

    STATEMENT OF MR. TODD C. OWEN, ACTING DEPUTY ASSISTANT 
  COMMISSIONER, OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Owen. Good morning, Chairman Miller, Ranking Member 
Broun, distinguished Members of the Subcommittee. As the Acting 
Deputy Assistant Commissioner for the Office of Field 
Operations with U.S. Customs and Border Protection, I am 
honored to be here this morning alongside Dr. Hagan to discuss 
the detection of radioactive and nuclear material in cargo 
containers and the future role that Advanced Spectroscopic 
Portal technology will have on CBP operations.
    I would also like to express my gratitude to the Congress 
for its continued support of CBP initiatives. Among the 
numerous priorities that were recognized in the American 
Recovery and Reinvestment Act, Congress provided CBP with $100 
million worth of stimulus funding towards non-intrusive 
inspection equipment. This funding will allow CBP to upgrade 
and expand its successful Non-Intrusive Inspection (NII) 
program and more efficiently inspect containers and vehicles 
crossing the border, allowing them to enter our country and its 
commerce in a safe and prompt manner.
    CBP has made tremendous progress in ensuring that supply 
chains importing goods into the United States are more secure 
against potential exploitation by terrorist groups aiming to 
deliver weapons of mass effect. CBP uses a multi-layered 
approach to ensure the integrity of supply chains from point of 
stuffing through the arrival in the U.S. ports of entry. This 
multi-layered defense is built upon interrelated initiatives, 
which include the 24-hour rule in the Trade Act of 2002, the 
automated targeting system, the use of Non-Intrusive Inspection 
equipment and radiation portal monitors, our container security 
initiative and the Customs Trade Partnership Against Terrorism 
program. These complementary layers enhance security and 
protect our nation.
    Prior to 9/11, not a single radiation portal monitor and 
only 64 large-scale non-intrusive inspection systems were 
deployed to our nation's borders. By October of 2002, CBP had 
deployed the first RPM at the Ambassador Bridge in Detroit. 
Today CBP has well over 1,200 RPMs and 227 large-scale NII 
technology systems deployed nationwide. NII technology allows 
the officers to detect possible anomalies, anomalies which may 
indicate the presence of a weapon of mass effect or some other 
contraband, and to date in fiscal year 2009, CBP NII systems 
have conducted over 3.1 million exams resulting in over 7,800 
narcotic seizures with a total weight of over 2.6 million 
pounds as well as $6.2 million in currency seized.
    In addition to the significant strides made in the area of 
NII equipment, CBP also continues to deploy first-generation 
radiation portal monitors to our ports of entry. Currently, 97 
percent of the trucks and 93 percent of the personally owned 
vehicles arriving from Canada, 100 percent of the trucks and 
vehicles from Mexico and 98 percent of the arriving sea 
containers are scanned by our current radiation detection 
technologies. In total, CBP scans 98 percent of all cargo 
arriving into the United States by land and sea using radiation 
portal monitors. In addition, CBP officers scan 100 percent of 
general aviation aircraft arriving to the United States from 
foreign destinations using hand-held radiation identification 
devices.
    Since the first RPM was deployed in 2002, CBP officers have 
scanned over 368 million conveyances for the presence of 
radiation, and we have resolved 2.1 million radiological alarms 
successfully with minimal or no impact to the flow of 
legitimate trade and travel. CBP continues to closely 
coordinate with key stakeholders to ensure the impact of this 
activity causes minimal disruption to port operations. The 
first-generation RPM systems, although very sensitive, do have 
limitations. While they alert CBP officers to the presence of 
radiation, a secondary exam is necessary to positively identify 
the specific isotope causing the alert. In the event that a CBP 
officer is unable to positively resolve the alert, scientific 
reach-back is available 24 hours a day, seven days a week.
    The ASP is expected to enhance our detection capability 
while significantly reducing the number of secondary 
examinations. This is due to its ability to distinguish between 
actual threats and natural or medical radiation sources that 
are not security threats. CBP has worked closely with the DNDO 
in the development and operational testing of ASP, has provided 
DNDO with functional requirements and has been actively engaged 
in every step of the evaluation process. CBP's focus for 
operational testing is to evaluate the effectiveness for 
systems deployed in our operational environments. We will 
continue to work with DNDO and the DHS Science and Technology 
Directorate towards secretarial certification, and we are also 
working within DHS to ensure that any future ASP acquisitions 
and deployment decisions are consistent with DHS priorities. 
The decision to purchase and deploy ASPs in the operational 
arena will be based on CBP's mission needs, operational 
requirements, comprehensive cost-benefit analysis to include 
the full understanding of maintenance and operation costs, and 
analysis alternatives and other considerations.
    Mr. Chairman, Members of the Subcommittee, today I have 
addressed CBP's commitment to invest in new technologies and 
emerging technology aimed at enhancing cargo security. We must 
continue to maintain our tactical edge by integrating new 
technology into our ports of entry.
    Thank you again for the opportunity to be here this morning 
and I would be happy to answer any questions.
    [The prepared statement of Mr. Owen follows:]
                   Prepared Statement of Todd C. Owen
    Chairman Miller, Ranking Member Broun, esteemed Members of the 
Subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the detection of radioactive and nuclear material in cargo 
containers and the future role that the Advanced Spectroscopic Portal 
(ASP) program will have on our operations. CBP strives to continually 
improve the security of cargo entering our borders and facilitate the 
flow of legitimate trade and travel. Included in this process, over 98 
percent of all arriving maritime containerized cargo is presently 
scanned for radiation through radiation portal monitors.
    I want to begin by expressing my continuing gratitude to Congress 
for its continued support for the mission and people of CBP. It is 
clear that the Congress is committed to providing CBP the resources we 
need in order to increase and maintain the security of our borders. We 
appreciate your efforts and assistance.
    CBP is the largest uniformed, federal law enforcement agency in the 
country. We station over 20,000 CBP officers at access points around 
the Nation, including at air, land, and sea ports. As of mid-May, we 
have deployed over 19,000 Border Patrol agents between the ports of 
entry. These forces are supplemented with 1,058 Air and Marine agents, 
2,318 agricultural specialists, and other professionals. These 
personnel are key players in the implementation of Secretary 
Napolitano's Southwest Border Security Initiative.
    CBP continues to execute all of its responsibilities, which include 
stemming the illegal flow of drugs, contraband and people, protecting 
our agricultural and economic interests from harmful pests and 
diseases, protecting American businesses from theft of their 
intellectual property, enforcing textile agreements, tracking import 
safety violations, regulating and facilitating international trade, 
collecting import duties, facilitating legitimate travel, and enforcing 
United States trade laws. CBP facilitates lawful immigration, welcoming 
visitors and new immigrants, while making certain those entering this 
country are indeed admissible and taking appropriate action when an 
individual fears being persecuted or tortured if returned to their home 
country. At the same time, our employees maintain a vigilant watch for 
terrorist threats. In FY 2008, CBP processed more than 396 million 
pedestrians and passengers, 122 million conveyances, 29 million trade 
entries, examined 5.6 million sea, rail, and truck containers, 
performed over 25 million agriculture inspections, apprehended over 720 
thousand illegal aliens between our ports of entry, encountered over 
220 thousand inadmissible aliens at the ports of entry, and seized more 
than 2.8 million pounds of illegal drugs.
    We must perform our important security and trade enforcement work 
without stifling the flow of legitimate trade and travel that is so 
important to our nation's economy. These are our twin goals: border 
security and facilitation of legitimate trade and travel.

CBP OVERVIEW

    I am pleased to appear before the Subcommittee today to highlight 
key accomplishments related to container security, particularly those 
related to new and emerging technology. CBP has made tremendous 
progress in securing the supply chains bringing goods into the United 
States from around the world to prevent their potential use by 
terrorist groups that seek to deliver weapons of mass effect. The use 
of cutting-edge technology has greatly increased the ability of front 
line CBP Officers to successfully detect and interdict illicit 
importations of nuclear and radiological materials. CBP uses a multi-
layered approach to ensure the integrity of the supply chain from the 
point of stuffing through arrival at a U.S. port of entry. This multi-
layered approach includes:

        [bullet]  Advanced Information

                  24-Hour Rule

                  Automated Targeting Systems

                  Importer Security Filing

        [bullet]  The Customs Trade Partnership Against Terrorism

        [bullet]  The Container Security Initiative

        [bullet]  The Secure Freight Initiative

        [bullet]  Use of Non-Intrusive Inspection Technology and 
        Mandatory Exams for All High-Risk Shipments

    I will discuss each one of these layers in greater detail with 
particular focus on our radiation and nuclear detection capabilities.

ADVANCE INFORMATION

    CBP requires advanced electronic cargo information as mandated in 
the Trade Act of 2002 (including the 24-hour rule for maritime cargo). 
Advanced cargo information on all inbound shipments for all modes of 
transportation is effectively evaluated using the Automated Targeting 
System (ATS) before arrival in the United States.
    ATS provides decision support functionality for CBP officers 
working in Advanced Targeting Units (ATUs) at our ports of entry and 
CSI ports. The system provides uniform review of cargo shipments for 
identification of the highest threat shipments, and presents data in a 
comprehensive, flexible format to address specific intelligence threats 
and trends. ATS uses a rules-based program to highlight potential risk, 
patterns, and targets. Through rules, the ATS alerts the user to data 
that meets or exceeds certain pre-defined criteria. National targeting 
rule sets have been implemented in ATS to provide threshold targeting 
for national security risks for all modes: sea, truck, rail, and air.
    The Importer Security Filing interim final rule, also known as ``10 
+ 2,'' went into effect earlier this year and has already yielded some 
promising results. This program will provide CBP timely information 
about cargo shipments that will enhance our ability to detect and 
interdict high risk shipments. Comments on aspects of this rule were 
accepted until June 1, 2009, and implementation using informed 
compliance will continue until January of next year. Shipments 
determined by CBP to be high-risk are examined either overseas as part 
of our Container Security Initiative or upon arrival at a U.S. port.

Customs Trade Partnership Against Terrorism

    The Customs Trade Partnership Against Terrorism (C-TPAT) is an 
integral part of the CBP multi-layered strategy, in that CBP works in 
partnership with the trade community to better secure goods moving 
through the international supply chain. C-TPAT has enabled CBP to 
leverage supply chain security throughout international locations where 
CBP has no regulatory reach. In 2009, CBP will continue to expand and 
strengthen the C-TPAT program and ensure that certified member 
companies are fulfilling their commitment to the program by securing 
their goods moving across the international supply chain to the United 
States. To carry-out this critical tenet of C-TPAT in 2009, teams of 
Supply Chain Security Specialists (SCSS) will conduct validations and 
revalidations of C-TPAT members' supply chains to ensure security 
protocols are reliable, accurate, and effective.
    As C-TPAT has evolved, we have steadily added to the rigor of the 
program. CBP has strengthened the C-TPAT program by clearly defining 
the minimum-security requirements for all categories of participants 
wishing to participate in the program and thereby gain trade 
facilitation benefits. As of June 18, 2009, there are 9,286 companies 
certified into the C-TPAT program. CBP's goal is to validate all 
partners within one year of certification, revalidate all companies not 
less than once every three years and revalidate all U.S./Mexico highway 
carriers on an annual basis, based on the risk associated with the 
Southern Border Highway Carrier sector of C-TPAT.

Container Security Initiative

    To prevent terrorists and their weapons from entering the United 
States, CBP has also partnered with other countries through our 
Container Security Initiative (CSI). In FY 2008 CBP Officers stationed 
at CSI ports reviewed over 11 million bills of lading and conducted 
over 74,000 exams in conjunctions with their host country counterparts. 
Because of the sheer volume of sea container traffic, containerized 
shipping is uniquely vulnerable to terrorist exploitation. Under CSI, 
which is the first program of its kind, we are partnering with foreign 
governments to identify and inspect high-risk cargo containers at 
foreign ports before they are shipped to our seaports and pose a threat 
to the United States and to global trade.
    CBP Officers stationed at foreign CSI ports review 100 percent of 
the manifests originating and/or transiting those foreign ports for 
containers that are destined for the United States. In locations where 
the tremendous volume of bills prevents the CSI team at the port itself 
from performing 100 percent review, or during port shutdowns, CSI 
targeters at the National Targeting Center provide additional support 
to ensure that 100 percent review is accomplished. Utilizing the 
overseas CSI team and the CSI targeters at our National Targeting 
Center, CBP is able to achieve 100 percent manifest review for the CSI 
program.
    Today, CSI is operational in 58 ports covering 86 percent of the 
maritime containerized cargo shipped to the United States.

Secure Freight Initiative

    The Secure Freight Initiative (SFI) is an unprecedented effort to 
build upon existing port security measures by enhancing the United 
States Government's ability to scan containers for nuclear and 
radiological materials in seaports worldwide and to better assess the 
risk of inbound containers. Secure Freight will provide carriers of 
maritime containerized cargo with greater confidence in the security of 
the shipment they are transporting, and it will increase the likelihood 
of an uninterrupted and secure flow of commerce. This initiative is the 
culmination of our work with other government agencies, foreign 
governments, the trade community, and vendors of leading edge 
technology.
    Moving forward, CBP will prioritize future deployments of scanning 
systems to locations of strategic importance by identifying seaports 
where non-intrusive imaging and radiation detection data would be most 
practical and effective in deterring the movement of weapons of mass 
destruction via containerized cargo. Under this strategy, the 
additional scan data provided by SFI will enhance DHS' risk-based and 
layered approach to securing maritime containerized cargo. We will 
continue to work with Congress to enhance the safety of our nation's 
ports and the security of incoming cargo.

Non-Intrusive Inspection/Radiation Detection Technology

    Today I will specifically address large-scale X-ray and gamma 
imaging systems and radiation detection devices; technologies that play 
a critical role in our layered enforcement strategy.
    The deployment of imaging systems and radiation detection equipment 
has contributed to CBP's tremendous progress in ensuring that supply 
chains bringing goods into the United States from around the world are 
secure against exploitation by terrorist groups that seek to deliver 
weapons of mass effect.
    Non-Intrusive Inspection (NII) technology serves as a force 
multiplier that allows officers to detect possible anomalies between 
the contents of the container and the manifest. CBP relies heavily on 
the use of NII as it allows us to work smarter and more efficiently in 
recognizing potential threats.
    Prior to 9/11, not a single Radiation Portal Monitor (RPM), and 
only 64 large-scale NII systems, were deployed to our nation's borders. 
By October of 2002, CBP had deployed the first RPM at the Ambassador 
Bridge in Detroit. Today, CBP has deployed 1,250 operational RPMs at 
seaports, land border ports, and mail facilities, 227 large-scale gamma 
ray or x-ray imaging systems and 3,000 small scale NII systems 
nationwide. Additionally, CBP has deployed over 1,382 Radiation Isotope 
Identifier Devices (RIID) and over 17,542 Personal Radiation Detectors 
(PRD). These devices allow CBP to inspect 100 percent of all identified 
high-risk cargo.
    Currently, 97 percent of trucks and 93 percent of personally owned 
vehicles arriving through northern border ports, 100 percent of 
vehicles arriving through southern border ports, and 98 percent of 
arriving sea containers are scanned by our radiation detection 
technologies. CBP uses RPMs to scan 98 percent of all cargo arriving in 
the U.S. by land and sea. In addition, CBP officers now use hand-held 
radiation identification devices to scan 100 percent of private 
aircraft arriving in the U.S. from foreign destinations. As of May 
2009, CBP officers scanned over 368 million conveyances and 
successfully adjudicated 2.1 million radiological alarms.
    It is important to distinguish these deployments from the 100 
percent mandate. These deployments refer to CBP's domestic RPM 
deployments, which perform radiation detection (not imaging) of 
containers that are scanned in the U.S. but prior to release into the 
commerce. The 100 percent mandate requires scanning in a foreign port 
and both imaging and radiation detection.
    The first generation RPM systems, although very sensitive, do have 
limitations. While they alert CBP officers to the presence of 
radiation, a secondary exam is necessary to positively identify the 
location and specific isotope causing the alert. In the event that a 
CBP officer is unable to positively resolve the alert, scientific reach 
back is available on a 24/7 basis through the National Targeting Center 
and CBP's Laboratory & Scientific Services Division located in the 
northern Virginia area.
    Understanding these limitations and the need for more precise 
radiological detection architecture, the DNDO was chartered to develop 
new technologies that will improve CBP's radiation and nuclear 
detection capabilities. One of these new technologies is the next 
generation RPM, or the Advanced Spectroscopic Portal (ASP).
    The ASP is able to distinguish between actual threats and natural 
or medical radiation sources that are not security threats. In doing 
so, the ASP is expected to enhance our detection capability, while 
significantly reducing the burden of responding to the numerous benign, 
nuisance alarms that are mostly generated by everyday products. This 
will allow CBP to focus our staffing and resources on high-risk 
shipments and other border security initiatives.

CBP COORDINATION WITH THE DOMESTIC NUCLEAR DETECTION OFFICE (DNDO)

    In the course of our collaboration with DNDO, CBP brings knowledge 
of how our ports work, of the support needs of our front-line officers, 
and of the operational requirements for new technologies that must work 
consistently in a broad array of environments. Additionally, we must 
remain attuned to critical factors such as throughput and capacity as 
we seek to maintain an appropriate balance between security and the 
facilitation of cross-border travel and trade.
    CBP has worked closely with DNDO in the developmental and 
operational testing of the ASP. A complete independent operational 
testing and evaluation will be conducted by the DHS S&T Director, T&E 
and Standards Director, Operational T&E, when the system is ready. 
CBP's objective for operational testing is ensuring that systems are 
operationally acceptable and effective and can be deployed in our 
operational environments. Specifically, CBP provided DNDO with 
functional requirements for the ASP and has been actively engaged in 
every step of testing, including performance testing at the Nevada Test 
Site and Integration testing currently ongoing at a mock port of entry 
at the Pacific Northwest National Laboratory.
    During integration testing, CBP works closely with DNDO to assess 
each system's performance as an integrated unit, including reach back 
capability and ancillary equipment such as traffic lights and automated 
gate arms that are essential to maintain positive control of vehicles 
at our congested ports of entry. In addition, CBP works with DNDO to 
assess and categorize each system's defects to ascertain their 
technological impact on performance and their operational impact on 
front-line CBP officers--the users of the system.
    CBP will continue to work with DNDO towards Certification by the 
Secretary, which is dependent on demonstrating a ``significant increase 
in operational effectiveness'' over existing first generation radiation 
detection systems. Only after this Certification has been reach can the 
discussion then turn to potential acquisition and deployments of the 
ASP systems. The decisions to purchase and deploy ASPs in the 
operational arena will be based on mission needs, operational 
requirements, and a full understanding of maintenance and operational 
costs, to include a comprehensive cost benefit analysis, an analysis of 
alternatives, etc.

CONCLUSION

    In conclusion, I would like to say that technology plays an 
enormous role in securing the supply chain. Security technology is 
continuously evolving, not only in terms of capability but also in 
terms of compatibility, standardization, and integration with 
information systems. It is important to note that there is no single 
technological solution to improving supply chain security. As 
technology matures, it must be evaluated, and adjustments to 
operational plans must be made. Priority should be given to effective 
security solutions that complement and improve the business processes 
already in place, and which build a foundation for secure 21st century 
global trade.
    Mr. Chairman, Members of the Committee, today I have addressed 
CBP's commitment to investing its efforts in the areas of new and 
emerging detection technology, as well as some of the steps we have 
taken towards enhancing cargo security.
    Thank you again for this opportunity to testify. I will be happy to 
answer any of your questions.

                       Biography for Todd C. Owen
    Todd C. Owen is the Executive Director of the Cargo and Conveyance 
Security Office within U.S. Customs and Border Protection's Office of 
Field Operations. As the Executive Director for the Cargo and 
Conveyance Security (CCS) Office since May 2006, Mr. Owen is directly 
responsible for all cargo security programs and policies for CBP, 
including the ``100 percent scanning initiative'' announced in October, 
2007. Included within Mr. Owen's responsibilities are the Container 
Security Initiative (CSI), the Customs-Trade Partnership Against 
Terrorism Program (C-TPAT) Office, all non-intrusive inspection 
technology and radiation portal monitor deployments, the National 
Canine Enforcement Program, and the National Targeting Center, Cargo.
    Mr. Owen also coordinates CBP's maritime cargo enforcement policies 
and activities with the U.S. Coast Guard, and all air cargo efforts 
with the Transportation Security Administration.
    Previously, Mr. Owen was the Director of the C-TPAT program from 
January 2005 through May 2006. During his tenure as C-TPAT Director, 
this 9,000 member strong industry partnership program was strengthened 
by more clearly defining the security measures which must be adopted 
for a member to be eligible to receive the trade facilitation benefits 
afforded by CBP. Strong management controls were implemented and hiring 
was increased, allowing for a significant increase in the level of 
foreign site assessments performed worldwide under this program.
    Prior to arriving in Washington in January 2005, Mr. Owen was the 
CBP Area Port Director in New Orleans. As the Area Port Director, Mr. 
Owen was directly responsible for all CBP operations in New Orleans and 
throughout Louisiana. Two hundred forty officers are stationed in the 
seven Louisiana CBP port offices managed by the Area Director.
    Mr. Owen began his career as an Import Specialist in Cleveland, 
Ohio in 1990, and transferred to Miami in 1992. Through his eight years 
in South Florida, Mr. Owen held various trade related positions within 
Field Operations and the Office of Strategic Trade, before being 
selected for the New Orleans Area Port Director position in 2000.
    Mr. Owen, a career member of the Senior Executive Service, is a 
graduate of John Carroll University in Cleveland, Ohio, and was a 
senior executive fellow at Harvard University's John F. Kennedy School 
of Government. Mr. Owen also holds a Master's degree in Public 
Administration from St. Thomas University in Miami, Florida.

                               Discussion

    Chairman Miller. I now recognize myself for five minutes. 
Dr. Hagan, you have heard a lot of criticisms of this program 
this morning, that is the Maginot Line of terrorism. It is 
pretty unlikely that terrorists will actually try to go through 
this system when it would be relatively easy to go around it, 
that a lot of the testing seems to be an afterthought to 
justify a conclusion that was already reached. The end-user, 
the Customs and Border Patrol, think that they are doing 
perfectly well and that their existing technology could be 
improved upon relatively cheaply compared to the investment 
that would be required, the spending that would be required for 
ASP. And both of the previous witnesses very much questioned 
the validity, the thoroughness of the testing that was being 
used to justify the decision to deploy ASP. What is the 
urgency? In view of all of that, what is the urgency about 
putting a certification decision before the DHS Secretary in 
October?
    Dr. Hagan. I guess there is a couple things I would like to 
say. First is that there is a sense of urgency regarding some 
of the limitations of the current system. We can't talk about 
these in open session, but we would be happy to do that at a 
later time. But having said that, I don't believe that today 
that there is a rush to deployment nor is there a `do it by 
October or something bad happens.' So what we are doing though 
is pushing forward as aggressively as we can to get to the 
decision point about deployment. In other words, we are not 
saying we have got to deploy these right now. We are saying we 
have got to get, as soon as possible, to the point where we 
make that decision, and as was said by the earlier witnesses, 
the information that is required to make that decision, as I 
mentioned in my oral statement, there is a lot of information, 
a lot of data, a lot of test results that have yet to be 
analyzed and brought together and integrated in this cost-
benefit analysis, and that would be an important part of the 
decision that will be made in October. So, I guess I would 
disagree that we are rushing to deployment. I would say that we 
are rushing more towards getting all the information as fast as 
we can but doing it in a thoughtful, deliberate, disciplined 
way and through this MD 102-01 process that I mentioned, to get 
to that decision point.
    Chairman Miller. Mr. Owen, we heard again from GAO and the 
National Academies of Science that the work to this point did 
not really instill confidence in them that this new system 
would perform as reliably, as effectively as we would like or 
even as the existing technology works. They seem not concerned 
about a delay. They in fact encouraged a delay. Do you agree 
with their recommendation to stick with what we have got and 
not rush either to deploy or to certify or to decide to deploy?
    Mr. Owen. Sir, as the operator, the end-user of the 
systems, we, as front-line officers, need technology that will 
not only reduce the possibility of a missed threat but as well 
as reduce the rate of innocent alarms that our officers are 
spending their time on. In the port of Long Beach, for example, 
we have between 400 and 600 radiation alarms every single day. 
We have a team of about 100 officers over the three shifts that 
work on just resolving these innocent alarms throughout the 
course of their workday. So having a new piece of technology or 
an enhancement to technology that will allow us to not only 
identify any missed potential threats, but reduce the number of 
innocent alarms, is something that we do support. But as I 
mentioned in our hearing, our testimony, we have been doing 
this for some time with the existing PVTs. We have been able to 
resolve those 2.1 million alarms without a negative throughput 
with the flow of commerce in our ports of entry. So the 
technology that we have is effective but again, as we have 
matured the technology, we are looking for that technology 
which will give us an edge, if you will, a step up from what we 
have, particularly in terms of missing any threats that the 
PVTs may not capture right now.
    Chairman Miller. With respect to the existing technologies, 
the PVTs with the follow-up searches, are there enhancements, 
improvements in that technology that seem available, 
achievable, and have those improvements, are those being 
pursued?
    Mr. Owen. Our current system with the PVT which will 
alert--the container will then go in a secondary where we will 
perform the analysis with the radiation isotope identifier and 
we push that information back to our laboratory and scientific 
folks--it is a process that we have crafted and we feel 
comfortable with. What we have seen in the operational area, in 
terms of the energy windowing that you heard from the first 
panel, is we have seen operational benefits to being able to 
make adjustments to the existing PVTs to account for the 
recurring, burdensome, naturally occurring radioactive 
shipments that come through in legitimate cargo. So we have 
seen the benefits from energy windowing in the operational 
environment.
    Now, as to have we pushed those benefits as far as we can 
through energy windowing, we really need to defer to the 
scientists, to DNDO and our partners at Pacific Northwest 
National Laboratories to tell us if we have gone as far as we 
can with energy windowing. But again, as the operator of these 
systems, we have seen benefits in the ports of entry where we 
have deployed energy windowing. Have we maximized that? I would 
really defer to the scientists to give us that answer.
    Chairman Miller. I understand the principal problem with 
the current technology is as you have pointed out, not so much 
that it would miss--it is less a concern for missing radiation 
than the large number of false positives. Perhaps not false in 
the sense that it is not radiation, but it is not radiation 
that is a problem. How--I understand that the PVT system has 
been tested for that as well. How did it fare compared to the 
existing--I am sorry. The ASP system, how did it fare compared 
to the PVT system in false positives?
    Dr. Hagan. I will take that. The actual test data is 
classified, but I can answer in a qualitative way, that in--
there are two places in which the ASP is being tested and 
considered. One is in primary inspection and the other is 
secondary inspection. Do you want me to explain what I mean by 
that?
    Chairman Miller. Well, for the record at least, sure.
    Dr. Hagan. Okay.
    Chairman Miller. Briefly.
    Dr. Hagan. So a conveyance comes in and goes through 
primary inspection or screening, and goes through an RPM or 
radiation portal monitor of some sort. If that monitor alarms, 
then that conveyance is referred to secondary inspection where 
it is further examined either with another monitor, a radiation 
portal monitor or a hand-held RIID. And ASP is being considered 
for deployments to both of those, both primary inspection and 
secondary inspection. In the primary application, the ASP is 
a--has the ability to identify the type of--the source of the 
radiation. The PVT is not able to do that. So PVT simply says 
there is radiation, better go to secondary and off it goes. In 
the case of ASP, because of the spectroscopic nature of the 
system, it can discriminate between a threat material and non-
threat material, or if it can't discriminate, then it sends it 
to secondary as well. So it can dismiss and reduce the number 
of referrals to secondary. In the secondary application, if you 
have ASP there, then you are comparing essentially the 
performance of a large spectroscopic portal which is very, very 
large compared to a very small hand-held detector in which case 
the--again, I can't talk about the specifics of the results but 
the ASP is far superior to the hand-held detector in terms of 
its ability to, in real time, identify the source of the 
radiation and dismiss it as appropriate.
    Chairman Miller. Is it classified to say which did better, 
the PVT or the ASP?
    Dr. Hagan. No. I am sorry. I should have said, yes. So the 
ASP does far better in the secondary application of being able 
to identify----
    Chairman Miller. Well, which--I am sorry. Which system 
produced more false positives, ASP or PVT?
    Dr. Hagan. In the most recent----
    Chairman Miller. February.
    Dr. Hagan. Okay. In the most recent--you are talking about 
field validation testing, I think.
    Chairman Miller. Yes.
    Dr. Hagan. In field validation tests, the ASP system sent 
more--had more referrals to secondary than the PVT did. 
However, we have now--it is actually not surprising. It was the 
first time that ASP had been able to operate in a real 
operating environment, and so just as with PVT, adjustments 
were made to what are called thresholds in the ASP. So we are 
not making software changes, we are simply tuning the system as 
you do with the PVT, and then we have done a lot of analysis 
and simulation, as was mentioned earlier, to verify that these 
changes will in fact improve the performance and give us the 
expected performance.
    Chairman Miller. Okay. It appears that my time has really 
and truly expired.
    Dr. Broun for five minutes.
    Mr. Broun. Thank you, Mr. Chairman. I don't watch the clock 
very closely, as you very well know, and I will always give 
you--almost always give you a lot of leeway unless there is 
some particular reason not to.
    But Dr. Hagan, what you are saying, it is my understanding 
that the ASPs--you just made a statement that they are better. 
It is my understanding that that is only with the lightly 
shielded radiation. Isn't it true that with heavily shielded or 
moderately shielded radiation, that there is not much 
difference between the two programs? And isn't it also true 
that if anybody is going to bring radiation-type special 
nuclear materials in any shipment, aren't they going to be 
shielded and very highly so?
    Dr. Hagan. The answer to the second part first. One might 
speculate that that would be the case but you can't really know 
for sure, and so yes, it is probably likely that someone would 
shield it, but a knowledgeable adversary might not do that for 
other reasons which I will talk about later. But going back to 
the first part of your question, yes, the two systems, both PVT 
monitors and ASP monitors are what are called passive detection 
systems. They both suffer from the limitation that if a nuclear 
material or a weapon is shielded enough, then there just is no 
signal for either detector to detect. Now, so what we are--the 
long-range plan for this, and it is already being implemented 
in part, is to say that if a--by having these passive 
detectors, we are forcing the adversary, knowledgeable 
adversary, anyway, to heavily shield the object. Well, that 
heavily shielded object, then, is a very--well, I shouldn't say 
very but is an easy target or an easy image or easy thing to 
identify in a radiographic image or non-intrusive inspection 
system which Mr. Owen talked about. So by having complementary, 
in the sense, orthogonal type of systems, one that is passive 
system that will detect lightly shielded or unshielded 
material, and another system that will detect shielded 
material, then you have covered--you have done a good job of 
covering the complete spectrum of possibilities. Any system, of 
course, can be defeated by a knowledgeable adversary, but by 
having those two systems combined, then you really do a much 
better job of dealing with that problem. That being said, the 
amount of shielding that is needed, the effectiveness of PVT 
versus ASP for lightly or moderately shielded materials is--it 
depends on what it is you are shielding, and we would have to 
go into particulars and specifics about different types of 
objects, which we can't do here.
    Mr. Broun. Thank you, Dr. Hagan. My time is about up. I 
will yield back.
    Chairman Miller. Ms. Dahlkemper for five minutes.
    Ms. Dahlkemper. Thank you, Mr. Chairman.
    I live on Lake Erie and so I go back and forth to Canada a 
fair amount and actually I felt much safer a few years ago when 
were pulled over. My father had had a stress test two weeks 
prior so I do actually have some personal experience with those 
innocent alarms. I didn't understand what was going on at the 
time. It was the first time I had ever been pulled over.
    Mr. Owen. I hope we didn't cause too much stress.
    Ms. Dahlkemper. No, no, we were fine, but I actually felt 
much better coming back home and telling people who had no idea 
that this was actually being detected as we all would drive 
back home from Canada. But DHS has spent almost half a 
million--a billion dollars deploying PVT monitors at border 
crossings and ports across the country, including the one I 
came across, obviously. Does, Mr. Owen, the Customs and Border 
Protection believe that the current system, using PVTs and 
doing the secondary inspection with hand-held detectors and 
other means, is working well in terms of keeping us safe and 
moving commerce along? And I guess I am wondering what is the 
cost of manpower versus what is the cost of ASP? You know, I am 
looking at the dollars spent here, knowing we have limited 
resources and where are we best spending our money.
    Mr. Owen. And I would just respond, ma'am, that again two 
parts to that equation is, is the PVT finding all of the 
threats or are there threats that could be slipping through 
just because of the physics involved, and that is where ASP can 
help us in that regard. The second piece of that would be, can 
we respond to the number of secondaries that are caused by the 
existing PVT systems, and the answer is yes, we demonstrate 
that. There is a resource impact on this. Again, we would look 
at Los Angeles, we look at what we do up in the Peace Bridge 
there in Buffalo where you probably came through. It is a 
timely process. The officers do have to go through each 
secondary exam and treat it as if it is a real threat. We 
cannot let our guard down and just assume it was your father-
in-law, that he had medical testing, let you go down. We have 
to take you out of the vehicle, we have to go through that 
whole process. So having a system that reduces the number of 
innocent alarms that are sent into secondary will help us do 
that. As to is the cost of the manpower savings offset by the 
ASP, I think that is some of the work that the DNDO is doing 
with their overall cost-benefit analysis. It will take into 
consideration those variables.
    Ms. Dahlkemper. I wanted to ask you too about the 
maintenance and operation costs of the ASPs and they are 
estimated to be anywhere from five to twelve times more 
expensive than the costs of running the PVTs, and so in the 
worst case ASPs will cost about $100,000 a year to run as 
compared to $8,000 a year for the PVTs. Does Customs have the 
budget to support this kind of system if it were deployed 
nationally, and have you thought about what you would have to 
give up in terms of personnel or other, you know, equipment to 
run this?
    Mr. Owen. Yes, and that is a very good question. That is a 
concern that we do have now. The ASP systems, depending on how 
the final outcome of the cost-benefit and the cost of the 
systems, I think it is well accepted that it is going to cost 
more than what we have with the PVTs. Currently we have about 
1,250 PVTs deployed nationwide. We continue to expand along the 
northern border. We are going to get--up to 100 percent of the 
cargo coming in from Canada this year will be covered by PVTs. 
We will end up with about 1,500 PVTs by the end of this 
calendar year. There is an extensive operation and maintenance 
tail that comes with that. I think any deployment decisions 
going forward with ASPs needs to be cognizant of the impact 
that will have on the operator. There is much talk about the 
initial acquisition cost and the deployment cost to buy it, put 
it in the ground, but I don't think we can forget about the 
operation and maintenance tail that comes along with this, that 
will then fall on the backs of the operator, in this case CBP. 
So it is something that we are concerned with. It is something 
that again is going into the overall cost adjustments for what 
we can expect with the ASP systems.
    Ms. Dahlkemper. Do you have any thoughts on what this would 
do in terms of personnel? Would it free up great numbers for 
other purposes?
    Mr. Owen. Well, my view on this is, when you look at the 
way the layouts are in the seaports, you have to have still an 
officer man those exit gates where you have the radiation 
portal monitors. So whether it is manned with two officers or 
one officer because the alarms are less frequent, there will 
still be a cost figure associated with the manpower. There may 
be some operational adjustments that we can make in the 
secondary areas but I think the cost savings are something that 
we still need to measure once we are confident that the ASPs 
are delivering as we hope they will do. So there will be some 
savings from that. Will that offset the increase in operation 
maintenance costs associated with the ASP? That is something 
that we have to take very careful consideration of.
    Ms. Dahlkemper. Thank you. My time is up. I yield back.
    Chairman Miller. Thank you, Ms. Dahlkemper. That will be 
the last round of questions. Dr. Hagan, I trust that when DHS 
has completed its cost-benefit analysis, that we will get a 
copy that is still warm from the printer.
    Dr. Hagan. Okay.
    Chairman Miller. So under the rules--before we bring the 
hearing to a close, I do want to thank all of our witnesses for 
testifying before the Subcommittee today. Under the rules of 
the Committee, the record will remain open for two weeks for 
additional statements from the Members and for answers to any 
follow-up questions any Member of the Committee may have for 
witnesses, and I understand that Dr. Broun does have questions. 
The witnesses are excused and the hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Additional Material for the Record


[SKIP PAGES = 000]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





    HEARING ON THE SCIENCE OF SECURITY, PART II: TECHNICAL PROBLEMS 
             CONTINUE TO HINDER ADVANCED RADIATION MONITORS

                              ----------                              


                       TUESDAY, NOVEMBER 17, 2009

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:05 p.m., in 
Room 2310 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The Science of Security, Part II:

                     Technical Problems Continue to

                   Hinder Advanced Radiation Monitors

                       Tuesday, November 17, 2009
                          1:00 p.m.-3:00 p.m.
                   2318 Rayburn House Office Building

Purpose

    The Subcommittee on Investigations and Oversight meets on November 
17, 2009, to examine continuing problems with the Department of 
Homeland Security's (DHS) efforts to acquire its next generation 
radiation monitors known as Advanced Spectroscopic Portals (ASPs). This 
is a follow-up to the hearing the Subcommittee held on June 25, 2009, 
titled: The Science of Security: Lessons Learned in Developing, Testing 
and Operating Advanced Radiation Monitors. Since the Domestic Nuclear 
Detection Office (DNDO), a DHS component, was created in 2005 they have 
been responsible for researching, developing, testing and managing the 
program.
    The ASP program is estimated to cost $2-to-$3 billion and has been 
under scrutiny since 2006 for failing to have clear-cut requirements, 
an adequate test plan, sufficient timelines, development milestones or 
a transparent and comprehensive cost benefit analysis. These problems 
have been identified by the Government Accountability Office, National 
Academy of Sciences, the Homeland Security Institute, a Federally 
Funded Research and Development Center for DHS, and the National 
Institute of Standards and Technology.
    In July, one month after the Subcommittee's last hearing, the ASPs 
went through a second round of Field Validation Tests. During the tests 
the ASPs exhibited several ``false positive'' alarms for special 
nuclear material that did not exist. In another disturbing incident 
during the tests, one ASP monitor stopped working altogether yet the 
system operator remained unaware of this malfunction. Two dozen cargo 
trucks were permitted to go through the non-functioning portal monitor 
in order to be screened for potential radioactive and nuclear material 
until the problem became apparent. DNDO considered this a ``Mission 
Critical Failure.'' No new plans have yet been scheduled to re-test the 
ASPs for the third time. The Subcommittee will examine the results from 
the most recent tests, continuing technical problems with the ASPs, 
supply shortages of a key component for radiation monitors that may 
hinder the eventual deployment of the ASPs and further drive up its 
potential cost, and potential enhancements to the current fleet of 
radiation monitors in use today.

Background

    Since the September 11, 2001 terrorist attacks, protecting the 
Nation from a nuclear or radiological attack has been a top national 
security priority. In 2002, to help address this threat, the U.S. 
Customs and Border Protection (CBP) agency began deploying radiation 
monitors at U.S. border sites and ports of entry to screen the more 
than 23 million cargo containers that enter the country every year for 
radiological and nuclear materials.
    Polyvinyl toluene (PVT) radiation portal monitors have been used to 
screen this cargo since then. They are able to detect the presence of 
radioactive sources, but unable to identify the type of radiation 
present. The PVT monitors, while relatively inexpensive, robust and 
highly reliable, are unable to distinguish between radioactive sources 
that might be used to construct a nuclear bomb, such as Highly Enriched 
Uranium (HEU), and non-threatening naturally occurring radiological 
materials (NORM) contained in ceramic tiles, zirconium sand or kitty 
liter, for instance. As a result, any time a PVT detects a radioactive 
source the cargo is sent to ``secondary'' screening where CBP agents 
verify the detection of the source with a second PVT monitor and use 
hand-held Radioactive Isotope Identification Devices called RIIDs to 
help identify the source of radiation.
    This method of operation leads to many ``secondary'' inspections 
for naturally occurring radioactive material or radioactive material 
intended for benign purposes, such as radioactive medical isotopes. At 
the Los Angeles/Long Beach port of entry, for instance, PVT monitors 
routinely send up to 600 conveyances of cargo to secondary inspection 
each day. In addition, the RIIDs used in secondary inspections are 
limited in their abilities to locate and identify potential radioactive 
material in large cargo containers.
    In order to help improve the flow of commerce by eliminating many 
of the unnecessary alarms that send cargo for secondary screening and 
to more accurately identify radioactive or nuclear material, the 
Department of Homeland Security (DHS) began developing Advanced 
Spectroscopic Portals (ASPs) in 2004. The ASPs were intended to both 
detect and identify radioactive material. In April 2005, the Domestic 
Nuclear Detection Office was created by National Security Presidential 
Directive-43/Homeland Security Presidential Directive-14 to, among 
other things, research, develop, test and acquire radiation detection 
equipment to be used by CBP and other federal agencies.
    In July 2006, then-Secretary of Homeland Security Michael Chertoff 
and the former Director of DNDO, Vayl Oxford, announced contract awards 
to three companies worth an estimated $1.2 billion to develop the ASPs, 
including the Raytheon Company and the Thermo Electron Company (now 
called Thermo Fisher Scientific Inc.) both headquartered in Waltham, 
Massachusetts and Canberra Industries from Connecticut. Canberra is no 
longer a contractor on the DNDO program.

ASP Requirements/Criteria

    One of the key reasons for replacing the existing radiation 
monitors with newly developed ASPs in the first place, as articulated 
by Secretary of Homeland Security, Michael Chertoff in July 2006 was to 
``have fewer false positives.'' In September 2007, Vayl Oxford, then 
the director of DNDO reiterated that point in testimony to Congress 
where he emphasized that the ASPs would reduce the number of false 
alarms from the nearly 600 experienced each day by the PVTs at the port 
of Long Beach in California, for instance, to 20-to-25 per day with the 
new ASP monitors. That was the hope, but it has not been the reality 
during testing of the ASPs and other serious security questions about 
the performance reliability of the ASPs have emerged in the most recent 
round of tests.
    As the House Committee on Appropriations has said in the past, 
procurement of the Advanced Spectroscopic Portal monitors should not 
proceed until they are deemed to add a ``significant increase in 
operational effectiveness'' over the current PVT system already in 
place. In July 2008, CBP, DNDO and the DHS management directorate 
jointly issued criteria for determining this increase in effectiveness 
in both ``primary'' and ``secondary'' screening. In primary screening 
the criteria requires ASPs to detect potential threats as well as or 
better than PVTs, show improved detection of Highly Enriched Uranium 
and reduce innocent alarms. In secondary screening the criteria 
requires ASPs to reduce the probability of misidentifying special 
nuclear material (HEU or plutonium) and reduce the average time to 
conduct secondary screenings. The Secretary of Homeland Security must 
certify to Congress that the ASPs have met these criteria before 
funding for full-scale procurement of the ASPs goes forward. The 
criteria to measure this improvement, however, are weak and rather 
vague.

Testing Regime

    Significant hurdles remain before ASPs can be certified and fully 
deployed. Both contractors have passed ``integration testing.'' They 
must now successfully make it through Field Validation Tests where they 
operate at ports of entry in tandem with PVT units. So far, only one of 
the two ASP vendors has made it to this stage. The one vendor that has 
made it to this stage will need to make its third attempt to 
successfully pass the Field Validation Tests before it can move 
forward. If and when they successfully pass this stage of testing they 
will then go to ``Solo Operations,'' where they will be tested at a 
port-of-entry operating independently of the PVTs. If they pass those 
two critical tests, then the DHS Directorate of Science & Technology 
which has been mandated the Operational Testing Authority (OTA) of the 
ASPs will put them through a separate series of tests to ensure they 
meet the specified requirements, do not suffer from technical glitches 
and operate efficiently. Once that testing is completed and the S&T 
Directorate signs off on the performance and reliability of the ASPs 
then the DHS Secretary must make a determination about whether the 
costs of the ASPs and the capabilities they provide justifies a 
decision to invest in their full scale deployment. Along the way DNDO 
is supposed to provide a final cost-benefit-analysis of the ASP program 
to help inform the Secretary's decision. This document has been 
promised many times but not yet completed.

Masking & Shielding

    If terrorists were to try to smuggle nuclear or radiological 
materials into the U.S. via containerized cargo they would likely try 
to shield and/or mask those materials in an attempt to make it more 
difficult to detect, identify and locate the material of concern. 
Shielding requires that lead or other types of metal enclose the 
radioisotopes to hide its radioactive signature. Potential terrorists 
may also attempt to ``mask'' threatening radioactive material by 
placing it together with or alongside other non-threatening material 
that has a natural radioactive signature, such as ceramic material, 
kitty liter or even bananas. Most nuclear security experts believe 
smuggled radioactive or nuclear material would be both shielded and 
masked in order to conceal it from being located and properly 
identified. These efforts would make it harder to detect.
    Many of DNDO's previous tests of the ASPs have been criticized for 
being less than realistic. In one series of tests the ASP portals did 
prove more effective than the PVTs in detecting HEU materials concealed 
by ``light shielding.'' However, differences between the ASPs and PVTs 
became less notable when shielding was slightly increased or decreased. 
In other tests there was virtually no difference in the performance of 
the two machines with regard to detecting other kinds of radioactive 
isotopes, such as those used for medical or industrial purposes, 
according to the GAO, except in one case where the ASPs performed worse 
than the PVTs. In the most recent round of tests in July DNDO says the 
ASPs detected one radioactive source that the PVTs missed.
    In previous attempts to detect HEU during tests, the ASPs performed 
better only in one narrowly defined scenario, which many experts see as 
an unrealistic portrayal of a true attempted nuclear smuggling 
incident. None of the tests run by DNDO, for instance, included 
scenarios that utilized both ``shielding'' and ``masking'' as a means 
of attempting to smuggle radioactive or nuclear material. In addition, 
only one of the vendors has made it to field validation testing. But as 
the contractor has attempted to fix problems that occurred during 
previous tests new, more serious technical issues have emerged.

Field Validation Tests

    The Raytheon ASPs went through their first round of field tests 
last February, but technical issues hampered their performance. They 
had a large number of false alarms on several radioactive isotopes. 
Overall, in fact, the ASPs sent more cargo for secondary inspection 
than the currently operating PVTs did. Adjustments were made to prepare 
them for another round of field tests. Since the Subcommittee's last 
hearing on the ASP program in June, the ASPs have gone through a second 
Field Validation Test at four U.S. ports of entry in L.A. Long Beach, 
California; the New York Container Terminal in Newark, New Jersey; Port 
Huron, Michigan; and Laredo, Texas.
    On average, the PVTs refer one out of every 40 cargo containers to 
secondary inspection placing a large a burden on the staffing resources 
of CBP. The ASPs are required to send only one out of every 1,000 
inspections to secondary inspection in order to help lessen that 
logistical burden. This is one of the key requirements that must be met 
in order for the Secretary of Homeland Security to permit full scale 
production of the ASPs to proceed. During the Field Validation Testing 
last February, however, the ASPs sent more than five times that number 
of cargo conveyances to secondary inspection based on false alarms. 
During the most recent Field Validation Tests in July the ASPs 
reportedly reduced the number of false alarms compared to the PVTs by 
69 percent bringing them much closer to the 80 percent reduction in 
false alarms that they are required to meet. But new, more serious 
problems also emerged during the field validation tests in July.
    During this second round of field tests the ASPs again failed to 
perform as expected. This time they falsely identified several cargo 
conveyances as having special nuclear material, when they actually had 
none. This is a critical issue, since the actual smuggling of special 
nuclear material presents a serious threat. If it is detected at a 
port-of-entry Customs and Border Protection officers have extensive 
response requirements they must implement. DNDO and the contractor are 
still unclear why the ASPs falsely identified special nuclear material 
during these tests. Their intended fix to this problem has been to 
decrease the sensitivity of the ASP monitors to specific radioactive 
isotopes. The hope is that this will correct the problem, reduce the 
number of false alarms and still ensure that the ASPs are able to 
detect these isotopes. It is a delicate and difficult balance. It also 
decreases the ostensible advantage of having the ASPs replace the PVTs 
in the first place.
    Most unsettling, in one instance during the July tests one ASP 
monitor stopped working altogether yet the system operator remained 
unaware of this malfunction. Two dozen cargo trucks were permitted to 
go through the ASP in order to be screened for potential radioactive 
and nuclear material while it was not operating. DNDO considered this a 
``Mission Critical Failure.'' Fortunately, during these tests all 
trucks that went through the ASP also went through a PVT monitor. If 
this had occurred during ``solo'' testing of the ASPs or during actual 
deployment of the ASPs, cargo carrying radiological or nuclear threat 
material could have sailed past port security and into the United 
States unchecked. The cause of this problem has reportedly been 
rectified by the contractor.

Energy Windowing

    Many experts believe significant improvements can be made to the 
existing fleet of PVT radiation monitors without investing billions of 
dollars into new ASPs. Energy windowing is a mathematical algorithm 
that can help improve the sensitivity of PVT radiation monitors, 
enhancing their ability to detect radioactive sources resulting in 
improved operations and capabilities. The technology is currently used 
in some radiation monitors. Both GAO and CBP believe that DNDO should 
much more aggressively invest in this research to improve the 
performance of the currently operating radiation detection monitors. 
Although energy windowing may only lead to modest enhancements in the 
performance of PVTs, that improvement could be significant in terms of 
improving their performance to be more on par with what ASPs are 
supposed to be capable of and at a far less financial cost. Reducing 
the sensitivity of the ASPs to certain types of special nuclear 
material, which was done to resolve the problems that emerged during 
the July tests, should not prevent them from alarming for isotopes that 
were not there in the first place. The only result would be to reduce 
the odds that the ASPs will identify those isotopes when they are 
actually present.

A Dwindling Supply of Helium-3 (He-3)

    The future deployment of both PVT and ASP monitors is dependent on 
the supply of Helium-3 (He-3), a non-radioactive gas that is a 
byproduct of tritium decay. Tritium is a critical component in nuclear 
weapons used to boost the yield of nuclear warheads. Helium-3 gas is 
used in neutron detector tubes, a component of both PVT and ASP 
radiation portal monitors used to help identify plutonium. He-3 is also 
used in medical imaging, such as MRI machines, the oil and gas industry 
and for high energy research. During the cold war the U.S. had a steady 
supply of He-3 as a result of its nuclear weapons production 
operations. With the end of the cold war the production of nuclear 
weapons ceased and this supply diminished. At the same time, since 9/11 
the demand for radiation monitors skyrocketed and demand for He-3 soon 
out-paced the supply.
    There are no readily available alternatives to He-3. In addition, 
no other technology matches the stability, sensitivity, and ability to 
detect neutron radiation that He-3 neutron tubes currently offers. DNDO 
has estimated that the anticipated supply-to-demand ratio of Helium-3 
in coming years is expected to be 1-to-10. Costs for the rare isotope 
have already begun to rise. By one estimate, a few years ago the cost 
of He-3 was around $100 per liter. Today, He-3 is estimated to cost as 
much as $2,000 per liter. According to a recent Department of Energy 
report, new ASP radiation monitors will use nearly three times more He-
3 as current PVT monitors do, about 132 liters compared to 44 liters. 
These facts should be carefully considered by the Secretary of DHS when 
making cost-benefit decisions about whether or not to proceed with 
producing the ASPs.

Cost Benefit Analysis

    Even if the technical abilities of the ASPs are proven, their 
relative technical capabilities and increased costs must be carefully 
weighed in comparison to the existing radiation monitoring system in 
place today. Replacing a proven, less-costly system that has the 
confidence of its operators, must be given careful consideration. The 
DNDO has not yet provided an updated cost-benefit-analysis that would 
validate a decision to procure the multi-billion dollar ASP equipment.
    Virtually any high-technology research and development program 
experiences bumps in the road, technical troubles and occasional set-
backs. However, well managed programs have clear technical requirements 
and strategic goals. They ensure that the new technology being 
developed is thoroughly tested and adequately integrated into the 
operational plans and procedures of those who must operate them in the 
field. When these vital components are short changed, when the test 
plan is insufficient and the program's research, development and 
testing methods are marred by scanty scientific rigor then the 
technical tools being developed are bound to suffer as a result. 
Cutting critical corners in the development process serves no one's 
interests. Yet, at the start of the ASP program many of the DNDO 
leaders seemed more interested in fielding this technology then in 
effectively validating its performance and effectiveness. At the July 
2006 press conference unveiling the contractors on the ASP program, 
Vayl Oxford then the Director of DNDO said: ``the priority for the 
first year . . . is to get units out immediately.'' Three years later, 
none of the ASPs have yet cleared field validation tests.

Witnesses:

Mr. Gene Aloise, Director, Natural Resources and Environment, 
Government Accountability Office (GAO)

Dr. Timothy M. Persons, Chief Scientist, Government Accountability 
Office (GAO)

Mr. Todd Owen, Executive Director for Cargo and Conveyance Security, 
U.S. Customs and Border Protection (CBP), Department of Homeland 
Security (DHS)

Dr. William Hagan, Acting Deputy Director, Domestic Nuclear Detection 
Office (DNDO), Department of Homeland Security (DHS)
    Chairman Miller. Welcome to today's hearing entitled The 
Science of Security, Part II: Technical Problems Continue to 
Hinder Advanced Radiation Monitors.
    Soon after the September 11 attacks, Customs and Border 
Protection, CBP, began operating radiation portal monitors to 
screen cargo entering the United States for radiological and 
nuclear material. They have purchased approximately 1,500 
polyvinyl toluene monitors and deployed them at ports and 
border crossings throughout the United States. Mercifully, 
polyvinyl toluene monitors are generally referred to as PVTs.
    PVTs indicate the presence of a radiation source, but they 
cannot identify the nature of the source. As a result, any 
cargo container that provokes a warning from a PVT is then sent 
to a secondary inspection where customs officers use other 
technology and information to determine what sort of material 
is in the container. There are plenty of innocent sources of 
radiation: kitty litter, medical isotopes, ceramics, bananas, 
and many of these secondary inspections can be handled quickly. 
However, some secondary inspections require that the container 
be opened, and even emptied, in the search for a source. That 
is time consuming, but the PVT seems to be working well to meet 
customs' dual mission to keep us safe while maintaining a 
steady flow of commerce.
    The Department of Homeland Security (DHS) has been 
developing a new radiation portal monitor, championed by the 
Domestic Nuclear Detection Office, DNDO, that advocates believe 
should replace the PVTs. The new monitor, the Advanced 
Spectroscopic Portal monitor, or ASP, would detect the presence 
of radiation in cargo, but it would also identify the type of 
radiation. That would allow more harmless cargo to pass 
unimpeded through the port and require far fewer secondary 
referrals. If it worked as advertised, the ASPs would be more 
likely to identify highly enriched uranium or other materials 
of concern and enhance the flow of commerce while freeing up 
customs officers to tend to other duties besides secondary 
inspections.
    Despite a $230 million investment of taxpayer dollars thus 
far for development, the ASPs haven't performed as expected, 
and the results from recent tests are still worrisome. Last 
June we learned of problems in the first field test in February 
2009. At our June hearing we heard that those issues had been 
fixed and that the July field test would allow the department 
to move forward towards a cost-benefit analysis and 
certification decision for the Secretary. So far, we have seen 
neither.
    The July test highlighted yet another problem with the 
ASPs. The devices detected nuclear materials when none were 
present.
    The ASPs had numerous false positive hits for special 
nuclear material in July, each one of which would have resulted 
in the implementation of mandated security responses by 
Customs, potentially shutting down port operations. 
Fortunately, Customs was also running the PVTs which saw no 
radiation presence, and there was none, and cleared up the 
issue in secondary fairly quickly.
    DNDO has told our staff that they intend to fix this new 
problem by changing the sensitivity of the ASPs to detect 
uranium, but it isn't clear why that should be reassuring, 
changing the sensitivity setting. If we lower the sensitivity 
setting to the very materials the ASP is supposed to be better 
at monitoring or detecting, would the ASP still be better than 
PVTs at detecting those materials? And would we have to go back 
to the Nevada Test Site to prove that you can still detect 
levels of special nuclear material more accurately than the 
PVTs can?
    Second, if the machines detect special nuclear material 
when there is none there, how does changing the sensitivity 
make any difference at all? Detecting ghost isotopes is a 
problem with the operating system, not with the sensitivity 
level, it would appear anyway.
    Since the taxpayers have spent $200,000 for each of the 
1,500 PVTs that are deployed now, the case for ASPs, which will 
run about $800,000 per unit, a total cost of $2 to $3 billion, 
needs to be clear both in terms of better detection performance 
and better support for Customs operations. Add to that greater 
acquisition cost, an annual operating expense of ASPs that is 
at least five times more expensive per unit than PVTs, and the 
need for a convincing case is even greater. As it stands, it is 
hard to see why ASPs should be more than a secondary inspection 
tool.
    In fact, that is the role they play in the Department of 
Energy's Megaport program. The DOE already runs a program that 
inspects cargo leaving 27 major foreign ports for destinations 
anywhere in the world. DOE, which developed portal radiation 
detection technology, uses PVTs for primary inspection and then 
uses the ASPs for secondary inspection to help identify the 
type of isotope to which the PVT responded in the first place. 
The Department of Energy's approach to identifying radiation 
should be instructive to DHS.
    I want to thank all of our witnesses for appearing today. I 
particularly want to thank GAO for continuing their work on 
this matter and for their continued assistance to this 
committee and Congress, and the Appropriations Committee as 
well. It is very helpful for the Appropriations Committee to be 
asking the right questions, and you have helped them and helped 
us ask the right questions. I suspect that this will not be the 
last time that we gather on this subject--we do seem to come 
back to the same subjects again and again--nor the last time we 
hear from witnesses that we still face a long list of tests and 
validations before we can think about replacing the PVTs with 
the ASPs.
    I would now recognize the Ranking Member, Dr. Broun, for 
his opening comment.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    Soon after the September 11 attacks, Customs and Border Protection 
(CBP) began operating radiation portal monitors to screen cargo 
entering the United States for radiological or nuclear material. They 
have purchased approximately 1,500 polyvinyl toluene (PVT) monitors and 
deployed them at ports and border crossings throughout the United 
States.
    PVTs indicate the presence of a radiation source, but they cannot 
identify the nature of the source. As a result, any cargo container 
that provokes a warning from a PVT is then sent to a ``secondary'' 
inspection where Customs officers use other technology and information 
to determine what sort of material is in the container. There are 
plenty of innocent sources of radiation--from kitty litter to medical 
isotopes--and many of these secondary inspections can be handled 
quickly. However, some secondary inspections require that the container 
be opened, and even emptied, in the search for a source. While this is 
time consuming, the PVT seems to be working well to meet Customs' dual 
mission to keep us safe while maintaining a steady flow of commerce.
    The Department of Homeland Security has been developing a new 
radiation portal monitor, championed by the Domestic Nuclear Detection 
Office (DNDO), that advocates believe should replace the PVTs. This new 
monitor--the Advanced Spectroscopic Portal monitor or ASP--would detect 
the presence of radiation in cargo, but it would also identify the type 
of radiation. This would allow more harmless cargo to pass unimpeded 
through the port and require far-fewer secondary referrals. If it 
worked as advertised, the ASPs would be more likely to identify highly 
enriched uranium and other materials of concern and enhance the flow of 
commerce while freeing up Customs officers to tend to other duties 
besides secondary inspections.
    Despite a $230 million investment of taxpayer dollars for 
development, the ASPs haven't performed as expected, and the results 
from recent field tests are worrisome. Last June we learned of problems 
in the first field test of February 2009. At our June hearing we heard 
that those issues had been fixed and that the July field test would 
allow the Department to move towards a cost-benefit analysis and 
certification decision for the Secretary. To date, we have seen 
neither.
    The July field test highlighted yet another problem with the ASPs: 
the devices detected nuclear materials when none were present.
    The ASPs had numerous false positive hits for special nuclear 
material in July--each one of which would have resulted in the 
implementation of mandated security responses by Customs, potentially 
shutting down port operations. Fortunately, Customs was also running 
the PVTs (which properly saw no radiation present) and cleared up the 
issue in secondary.
    DNDO has told our staff that they intend to fix this new problem by 
changing the sensitivity of the ASPs to detecting uranium, but it isn't 
clear that should be reassuring. If you lower the sensitivity to the 
very materials the ASP was supposed to be better at detecting, why 
would the ASP will still be better than PVTs at detecting those 
materials? Would you have to go back to the Nevada Test Site to prove 
that you can still detect levels of special nuclear material more 
accurately than the PVTs can?
    Second, if the machines detect special nuclear material where it 
doesn't exist, why should changing the sensitivity make any difference 
at all? Detecting ghost isotopes is a problem with the operating system 
itself, not with the sensitivity level for a particular isotope.
    Since the taxpayers have spent $200,000 for each of the 1,500 PVTs 
already deployed, the case for ASPs, which will run approximately 
$800,000 per unit--for a total cost of $2-3 billion--needs to be clear 
both in terms of better detection performance and better support for 
Customs operations. Add to this greater acquisition cost, an annual 
operating expense of ASPs that is at least five times more expensive 
per unit than PVTs, and the need for a convincing case is even greater. 
As it stands, it is hard to see why ASPs should be more than a 
secondary inspection tool.
    In fact, that is the role they play in the Department of Energy's 
Megaport program. DOE already runs a program that inspects cargo 
leaving 27 major foreign ports for destinations anywhere in the world. 
DOE, which developed portal radiation detection technology, uses PVTs 
for primary inspection and reserves ASPs for secondary inspections to 
help identify the type of isotope to which the PVT responded. The 
Department of Energy's approach to identifying radiation should be 
instructive to DHS.
    I want to thank our witnesses for attending today. I particularly 
want to thank GAO for their continuing work on this matter and for 
their continuing assistance to this committee and Congress. I suspect 
that this will not be the last time we gather on this subject, nor the 
last time we hear from witnesses that we still face a long list of 
tests and validations before we can even speak sensibly about replacing 
PVTs with ASPs.

    Mr. Broun. Thank you, Mr. Chairman. I want to welcome the 
witnesses here today and thank you all for participating in our 
follow-up hearing on the Department of Homeland Security's 
Advanced Spectroscopic Portal program. It is hard for a 
Southerner to say quickly.
    This afternoon we will be brought up to date on the 
Department's ongoing development of the next generation 
radiation portal monitors and get an update from the GAO on 
their continuing work. As I said in our earlier hearing this 
past summer, this program is certainly not out of the woods. 
The latest field validation tests reveal additional problems 
that will have to be overcome before moving forward. I hope 
DNDO will be able to give us some insight today on what we can 
expect from this program in terms of the future paths forward. 
With considerable taxpayer money on the line, questionable 
improvements over current capabilities and outstanding cost 
benefit analysis and a confusing acquisitions history that 
unfortunately has morphed the R&D with procurement, this 
program is rapidly approaching a point where the Federal 
Government has to decide whether it wants to fish or cut bait. 
I am concerned with the fact that considerable public funding 
has been expended on developing a technology that the private 
sector was developing in parallel on its own dime. DHS as a 
whole, and DNDO, CBP, DHS, S&T individually, should be focusing 
on long-term, high-risk, high-reward technology, not providing 
seed money for commercial, off-the-shelf equipment. That being 
said, I realize that DHS's mission is vastly different from 
DOE's, the Department of Defense's and that they have 
additional requirements that demand a more robust system. GAO 
and the Academy made several recommendations over the past few 
years. I trust that DNDO and CBP will be able to update this 
committee on how they are responding to those recommendations 
and where they plan to go from here. The Nation expects a lot 
from the Department, and I hope that we aren't developing 
tunnel vision by focusing too much on one method of conveyance 
and not seeing the forest for the trees. The Department has an 
enormous task of securing our borders and not just at points of 
entry but all along our borders. Spending billions of dollars 
to secure the front door of our house doesn't seem very 
rational if we are just going to leave the back door open and 
all the windows and have a gaping hole in the walls, too. That 
is not to say that we should do nothing at all, but rather, 
everything we do should be put in context of a well-thought-out 
global nuclear detection architecture.
    As I said earlier this summer, many of these issues we are 
dealing with today could have been prevented by engaging the 
end-users earlier in the process. Clearly defining the 
requirements, developing clear architectural priorities and 
simply following a clear acquisition process. This Committee is 
no stranger to programs that have set aside these best 
practices for working in expediency's sake.
    I look forward to working with the Department and the 
Majority to make sure any decision that is made is in the best 
interest of our nation's security, the taxpayer and our 
economy.
    With that, Mr. Chairman, I yield back my time and I thank 
you.
    [The prepared statement of Mr. Broun follows:]
           Prepared Statement of Representative Paul C. Broun
    Thank you, Mr. Chairman. I want to welcome the witnesses here 
today, and thank them for participating in our follow-up hearing on the 
Department of Homeland Security's (DHS) Advanced Spectroscopic Portal 
(ASP) program. This afternoon we will be brought up to date on the 
Department's ongoing development of next generation Radiation Portal 
Monitors and get an update from the General Accountability Office (GAO) 
on their continuing work.
    As I said at our earlier hearing this past summer, this program is 
certainly not out of the woods. The latest Field Validation Test 
revealed additional problems that will have to be overcome before 
moving forward. I hope DNDO will be able to give us some insight today 
on what we can expect from this program in terms of future paths 
forward. With considerable. taxpayer money on the line, questionable 
improvements over current capabilities, an outstanding cost-benefit 
analysis, and a confusing acquisitions history that unfortunately has 
morphed Research and Development (R&D) with procurement, this program 
is rapidly approaching a point where the Federal Government has to 
decide to ``fish or cut bait.''
    I'm also concerned with the fact that considerable public funding 
has been expended on developing a technology that the private sector 
was developing in parallel on its own dime. DHS as a whole (and DNDO, 
CBP, and DHS S&T individually) should be focusing on long-term high-
risk high-reward technology, not providing seed money for Commercial 
Off-The-Shelf (COTS) equipment. That being said, I realize that DHS' 
mission is vastly different from the Department of Energy's (DOE) and 
the Department of Defense's (DOD), and that they have additional 
requirements that demand a more robust system.
    GAO and the Academy made several recommendations over the last few 
years. I trust that DNDO and CBP will be able to update this committee 
on how they are responding to those recommendations, and where they 
plan to go from here. The Nation expects a lot from the Department, and 
I hope that we. aren't developing tunnel vision by focusing too much on 
one method of conveyance and not seeing the forest through the trees. 
The Department has an enormous task of securing our borders, not just 
at points of entry, but all along our borders. Spending billions of 
dollars to secure the front door or our house, doesn't seem very 
rational if we are just going to leave the back door open: That is not 
to say we should do nothing at all, but rather everything we do should 
be put in the context of a well thought out Global Nuclear Detection 
Architecture.
    As I said earlier this summer, many of the issues we are dealing 
with today could have been prevented by engaging the end-users earlier 
in the process, clearly defining requirements, developing clear 
architectural priorities, and simply following a clear acquisition 
process. This committee is no stranger to programs that have set aside 
these best practices for expediency's sake. I look forward to working 
with the Department and the majority to make sure any decision made is 
in the best interest of our nation's security, the taxpayer, and our 
economy.
    With that, Mr. Chairman, I yield back my time.
    Thank you.

    Chairman Miller. Thank you, Dr. Broun. I ask unanimous 
consent that all additional opening statements submitted by 
Members be included in the record. Without objection, it is so 
ordered. Also, there has been an e-mail exchange between our 
staff and the staff of DNDO, Kimberly Koeppel, and without 
objection, I move that the printed versions of the e-mailed 
questions and answers also be entered into the record. Without 
objection, so ordered.
    [The information follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Chairman Miller. It is my pleasure to introduce our 
witnesses at this time. Mr. Gene Aloise is the Director of 
Natural Resources and Environment at the Government 
Accountability Office, GAO. He is an expert in international 
nuclear proliferation and safety issues and holds degrees in 
political science, economics and public administration. Mr. 
Aloise is a recipient of GAO's Meritorious Service and 
Distinguished Services Awards and has served several 
Congressional committees and offices within GAO. This is not 
the first time he has appeared before us on this topic.
    With Mr. Aloise is Dr. Timothy Persons, GAO's Chief 
Scientist. Before entering GAO, before joining GAO, Dr. Persons 
was the Technical Director of the Intelligence Advanced 
Research Projects Activity, I-ARPA, and previously served as a 
technical director at the National Security Agency. Mr. 
Persons, if people ask you at a cocktail party what you did for 
a living, did you just say you worked for the government? He 
holds degrees in nuclear physics, computer science and 
biomedical engineering and has been involved in evaluations of 
many high-tech U.S. Government programs and projects, including 
GAO's work on the Advanced Spectroscopic Portals, ASP monitors. 
We look forward to hearing his testimony today as well.
    Mr. Todd C. Owen is the Acting Deputy Assistant 
Commissioner of the Office of Field Operations for the U.S. 
Customs and Border Protection, Department of Homeland Security. 
Also a mouthful. He also served as the Executive Director of 
the Cargo and Conveyance Security Office, Office of Field 
Operations, since May of 2006. Mr. Owen began his career with 
the Customs and Border Protection in 1990 and has previously 
held the positions of Area Port Director in New Orleans and 
Director of the Customs Trade Partnership Against Terrorism, C-
TPAT Program.
    And then finally, Dr. William Hagan is the Acting Deputy 
Director of the Domestic Nuclear Detection Office at the 
Department of Homeland Security. Dr. Hagan holds degrees in 
physics and nuclear engineering as well as three patents. He 
spent 30 years with the Science Applications International 
Corporation before coming to DNDO and serving as the Assistant 
Director of the Transformational Research and Development 
Directorate.
    I think all of our witnesses would need to use small print 
for their business cards.
    As our witnesses should know, you will each have five 
minutes for your spoken testimony. Your written testimony will 
be included in the record for the hearing. When you all have 
completed your spoken testimony, we will begin with questions. 
Each Member will have five minutes to question the panel. It is 
the practice of this subcommittee to receive testimony under 
oath. This is an Investigations and Oversight Subcommittee. Do 
any of you have an objection to taking an oath? Let the record 
reflect that none of the witnesses had any objection. You also 
have the right to be represented by counsel. Do any of you have 
counsel here? Let the record reflect that all of the witnesses 
said no. We ask you these questions to put you at ease.
    Would you all now please stand and raise your right hand?
    Mr. Broun. And we are not going to water board them.
    Chairman Miller. Well, that would be the next hearing. 
Please stand and raise your right hand. Do you swear to tell 
the truth and nothing but the truth? Let the record reflect 
that each of the witnesses did take the oath.
    We will begin with Mr. Gene Aloise. Mr. Aloise, please 
begin.

 STATEMENT OF MR. GENE ALOISE, DIRECTOR, NATURAL RESOURCES AND 
    ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Mr. Aloise. Mr. Chairman and Members of the Subcommittee, I 
am pleased to be here today to discuss DHS's plans to develop 
and test advanced portal monitors, known as ASPs, for use at 
the Nation's borders to prevent nuclear materials from being 
smuggled into the United States. My testimony today focuses on 
the results of DNDO's testing of the ASPs, including the July 
2009 field testing.
    According to DHS, the current system of radiation detection 
equipment, the PVTs, is effective and does not impede the flow 
of commerce. However, DHS wants to improve the capabilities of 
the existing equipment with ASPs. One of the major drawbacks of 
the ASP, as you know, is a substantially higher cost compared 
to the existing equipment. We estimated that the life cycle 
cost of each standard cargo version of the ASP to be about 
$822,000 compared to about $308,000 for the PVT standard cargo 
portal and that the total program cost would be about $2 
billion.
    Earlier this year I testified before this subcommittee on 
DNDO's 2008 round of ASP performance testing at the Nevada Test 
Site. That testing showed that the ASPs performed better than 
the PVTs in detecting certain nuclear materials and met DOE's 
threat guidance. However, the ASP's performance rapidly 
deteriorated once shielding was slightly increased. These test 
results showed what we reported in 2006, that any increase in 
detection of certain nuclear materials would be marginal.
    While the ASP may have met DOE's threat guidance for 
shielded nuclear material, the threat guidance is not a 
realistic approximation of how a terrorist might shield nuclear 
material to successfully smuggle it undetected across our 
borders.
    The latest round of field testing conducted in July 
revealed two critical performance problems with ASPs that the 
Chairman mentioned. First, the ASPs had an unacceptably high 
number of false positives for the detection of high-risk 
nuclear material. In other words, the ASP was seeing nuclear 
material that wasn't there and alarming. CBP officials told us 
that any alarm for this type of nuclear material is very 
disruptive to a port or border crossing and could effectively 
shut down operations until the source of the alarm is found. 
Furthermore, repeated false alarms for nuclear materials could 
have the undesired effect of causing CBP officers to doubt the 
reliability of the ASPs and be skeptical about the credibility 
of future alarms.
    The second critical failure of the ASPs noted in the July 
testing stemmed from a problem with the key component of the 
equipment which led an ASP to in essence shut down. Of great 
concern was the fact that the ASP did not alert the CBP 
official that it had shut down and was not scanning cargo. If 
this were not a controlled test, the CBP officer would have 
allowed the cargo to enter the United States thinking it had 
been scanned when it had not.
    DNDO's proposed solutions to these critical failures raise 
questions about whether the ASPs will provide any meaningful 
increase in the ability to detect certain nuclear materials. 
Specifically, to address the problem of false positives, DNDO 
is modifying the ASP to make it less sensitive to certain 
nuclear materials. While this may fix the problem of false 
alarms, it diminishes even further the ASP's ability to detect 
the nuclear material we are most concerned about.
    To address the second failure, DNDO plans to, among other 
things, install an indicator light on the ASP that will alert 
CBP officials that the ASP has a mission-critical failure. In 
our view, an indicator light is not the solution. The ASP must 
be stable and secure enough to avoid these shut-downs.
    Furthermore, DNDO has not completed efforts to improve the 
PVTs to detect high-risk material through energy windowing. CBP 
has repeatedly urged the completion of this research, because 
an improved PVT could be the more cost-effective way to improve 
detecting certain nuclear materials and have a similar 
performance to a working ASP.
    In closing, the concerns raised by the results of the July 
2009 field testing provide even greater reason for DNDO to 
implement our recommendations from our May 2009 report. In 
particular, our recommendation that DNDO assess whether the 
ASPs meet the criteria for significant increase in operational 
effectiveness based on a valid comparison with the PVT's full 
performance. This is especially relevant given that ASPs 
seemingly will no longer be as effective in detecting certain 
nuclear materials.
    Mr. Chairman, that concludes my remarks. Dr. Persons and I 
would be happy to respond to any questions you may have.
    [The prepared statement of Mr. Aloise follows:]
                   Prepared Statement of Gene Aloise

Mr. Chairman and Members of the Subcommittee:

    I am pleased to be here today to discuss GAO's work on the 
Department of Homeland Security's (DHS) testing of advanced 
spectroscopic portal (ASP) radiation detection monitors. One mission of 
U.S. Customs and Border Protection (CBP), an agency within DHS, 
includes screening cargo and vehicles coming into this country for 
smuggled nuclear or radiological material that could be used in an 
improvised nuclear device or radiological dispersal device (a ``dirty 
bomb''). To screen cargo at ports of entry, CBP conducts primary 
inspections with radiation detection equipment called portal monitors--
large stationary detectors through which cargo containers and vehicles 
pass as they enter the United States. When radiation is detected, CBP 
conducts secondary inspections using a second portal monitor to confirm 
the original alarm and a hand-held radioactive isotope identification 
device to identify the radiation's source and determine whether it 
constitutes a threat.
    The polyvinyl toluene (PVT) portal monitors CBP currently uses for 
this screening can detect radiation but cannot identify the type of 
material causing an alarm. As a result, the monitors' radiation alarms 
can be set off even by shipments of bananas, kitty litter, or granite 
tile because these materials contain small amounts of benign, naturally 
occurring radioactive material. To address the limitations of current-
generation portal monitors, DHS's Domestic Nuclear Detection Office 
(DNDO) in 2005 began to develop and test ASPs, which are designed to 
both detect radiation and identify the source.\1\ DNDO hopes to use the 
new portal monitors to replace at least some PVTs currently used for 
primary screening, as well as PVTs and hand-held identification devices 
currently used for secondary screening.
---------------------------------------------------------------------------
    \1\ DNDO was established within DHS in 2005; its mission includes 
developing, testing, acquiring, and supporting the deployment of 
radiation detection equipment at U.S. ports of entry. CBP began 
deploying portal monitors in 2002, prior to DNDO's creation, under the 
radiation portal monitor project.
---------------------------------------------------------------------------
    Since 2006, we have been reporting on issues associated with the 
cost and performance of the ASPs and the lack of rigor in testing this 
equipment. For example, we found that tests DNDO conducted in early 
2007 used biased test methods that enhanced the apparent performance of 
ASPs and did not use critical CBP operating procedures that are 
fundamental to the performance of current hand-held radiation 
detectors.\2\ In addition, in 2008 we estimated the life cycle cost of 
each standard cargo version of the ASP (including deployment costs) to 
be about $822,000, compared with about $308,000 for the PVT standard 
cargo portal, and the total program cost for DNDO's latest plan for 
deploying radiation portal monitors--which relies on a combination of 
ASPs and PVTs and does not deploy radiation portal monitors at all 
border crossings--to be about $2 billion.\3\
---------------------------------------------------------------------------
    \2\ Combating Nuclear Smuggling: Additional Actions Needed to 
Ensure Adequate Testing of Next Generation Radiation Detection 
Equipment. GAO-07-1247T, (Washington, D.C.: Sept. 18, 2007).
    \3\ Combating Nuclear Smuggling: DHS's Program to Procure and 
Deploy Advanced Radiation Detection Portal Monitors Is Likely to Exceed 
the Department's Previous Cost Estimates. GAO-08-1108R, (Washington, 
D.C.: Sept. 22, 2008).
---------------------------------------------------------------------------
    Concerned about the performance and cost of the ASP monitors, 
Congress required the Secretary of Homeland Security to certify that 
the monitors will provide a ``significant increase in operational 
effectiveness'' before DNDO obligates funds for full-scale ASP 
procurement.\4\ In response, CBP, DNDO, and the DHS management 
directorate jointly issued criteria for determining whether the new 
technology provides a significant increase in operational 
effectiveness. The primary screening criteria require that the new 
portal monitors detect potential threats as well as or better than 
PVTs, show improved performance in detection of highly enriched uranium 
(HEU), and reduce by 80 percent the number of innocent alarms that are 
sent to secondary inspection. To meet the secondary screening criteria, 
the new portal monitors must reduce the probability of misidentifying 
special nuclear material (e.g., HEU and plutonium) and the average time 
to conduct secondary screenings.
---------------------------------------------------------------------------
    \4\ Consolidated Appropriations Act, 2008, Pub. L. No. 110-161, 121 
Stat. 1844, 2069 (2007); Consolidated Security, Disaster Assistance, 
and Continuing Appropriations Act, 2009, Pub. L. No. 110-329, 121 Stat. 
3574, 3679 (2008); Department of Homeland Security Appropriations Act, 
2010, Pub. L. No. 111-83, 123 Stat. 2142, 2167 (2009).
---------------------------------------------------------------------------
    DNDO designed and coordinated a new series of tests, originally 
scheduled to run from April 2008 through September 2008, to determine 
whether the new portal monitors meet the certification criteria and are 
ready for deployment. Key phases of this round of testing include 
concurrent testing led by DNDO of the new and current equipment's 
ability to detect and identify threats and of ASPs' readiness to be 
integrated into operations for both primary and secondary screening at 
ports of entry; field validation testing led by CBP at four northern 
and southern border crossings and two seaports; and an independent 
evaluation, led by the DHS Science and Technology Directorate at one of 
the seaports, of the new portal monitors' effectiveness and 
suitability.
    In May 2009, we reported on the results of the then-current round 
of ASP testing.\5\ The findings from that report were based on 
completed tests and preliminary results available at the time. Testing 
on ASPs has continued since that report was issued. Today my testimony 
will (1) discuss the principal findings and recommendations from our 
May report and (2) update those findings based on the results of DNDO's 
July 2009 ASP field validation testing. The findings we are presenting 
today are based on our previous ASP reports and updated with 
information collected during interviews with DNDO and CBP officials. We 
also reviewed testing results in a report on the July 2009 tests from 
the ASP Field Validation Advisory Panel, a panel made up of officials 
from CBP, DNDO, and a national laboratory established to examine 
testing results and provide recommendations. On November 12, 2009, we 
briefed DHS, CBP, and DNDO officials on the findings of our updated 
work. During the briefing, CBP and DNDO officials provided oral 
comments and offered additional information and clarifications we 
included in this testimony as appropriate. Both our prior work and our 
updated work were conducted in accordance with generally accepted 
government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to produce 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our statement today.
---------------------------------------------------------------------------
    \5\ Combating Nuclear Smuggling: DHS Improved Testing of Advanced 
Radiation Detection Portal Monitors, but Preliminary Results Show 
Limits of the New Technology, GAO-09-655 (Washington, D.C.: May 21, 
2009).

Improved Testing Rigor Discussed in Our May 2009 Report Demonstrates 
                    Limitations of ASPs

    Our May 2009 report on the then-current round of ASP testing found 
that DHS increased the rigor of ASP testing over that of previous 
tests, and that a particular area of improvement was in the performance 
testing at the Nevada Test Site, where DNDO compared the capability of 
ASP and current-generation equipment to detect and identify nuclear and 
radiological materials. For example, unlike in prior tests, the plan 
for the 2008 performance test stipulated that the contractors who 
developed the equipment would not be involved in test execution. This 
improvement addressed concerns we previously raised about the potential 
for bias and provided increased credibility to the results. 
Nevertheless, based on the following factors, in our report we 
questioned whether the benefits of the new portal monitors justify the 
high cost:

        [bullet]  The DHS criteria for a significant increase in 
        operational effectiveness. Our chief concern with the criteria 
        is that they require only a marginal improvement over current-
        generation portal monitors in the detection of certain weapons-
        usable nuclear materials during primary screening. DNDO 
        considers detection of such materials to be a key limitation of 
        current-generation portal monitors. The marginal improvement 
        required of ASPs to meet the DHS criteria is problematic 
        because the detection threshold for the current-generation 
        portal monitors does not specify a level of radiation shielding 
        that smugglers could realistically use. Officials from the 
        Department of Energy (DOE), which designed the threat guidance 
        DHS used to set the detection threshold, and national 
        laboratory officials told us that the current threshold is 
        based not on an analysis of the capabilities of potential 
        smugglers to take effective shielding measures but rather on 
        the limited sensitivity of PVTs to detect anything more than 
        certain lightly shielded nuclear materials. DNDO officials 
        acknowledge that both the new and current-generation portal 
        monitors are capable of detecting certain nuclear materials 
        only when unshielded or lightly shielded. The marginal 
        improvement in detection of such materials required of ASPs is 
        particularly notable given that DNDO has not completed efforts 
        to fine-tune PVTs' software using a technique called ``energy 
        windowing'' that could improve the PVTs' sensitivity to nuclear 
        materials. DNDO officials expect they can achieve small 
        improvements in sensitivity through energy windowing, but DNDO 
        has not yet completed efforts to fine-tune the PVTs' software. 
        In contrast to the marginal improvement required in detection 
        of certain nuclear materials, the primary screening requirement 
        to reduce the rate of innocent alarms by 80 percent could 
        result in hundreds of fewer secondary screenings per day, 
        thereby reducing CBP's workload. In addition, the secondary 
        screening criteria, which require ASPs to reduce the 
        probability of misidentifying special nuclear material by one-
        half, address the limitations of relatively small hand-held 
        devices in consistently locating and identifying potential 
        threats in large cargo containers.

        [bullet]  Results of performance testing and field validation. 
        The results of performance tests that DNDO presented to us were 
        mixed, particularly in the ASPs' capability to detect certain 
        shielded nuclear materials during primary screening. The 
        results of performance testing at the Nevada Test Site showed 
        that the new portal monitors detected certain nuclear materials 
        better than PVTs when shielding approximated DOE threat 
        guidance, which is based on light shielding. In contrast, 
        differences in system performance were less notable when 
        shielding was slightly increased or decreased: both the PVTs 
        and ASPs were frequently able to detect certain nuclear 
        materials when shielding was below threat guidance, and both 
        systems had difficulty detecting such materials when shielding 
        was somewhat greater than threat guidance. With regard to 
        secondary screening, ASPs performed better than hand-held 
        devices in identification of threats when masked by naturally 
        occurring radioactive material. However, the differences in the 
        ability to identify certain shielded nuclear materials depended 
        on the level of shielding, with increasing levels appearing to 
        reduce any ASP advantages over the hand-held identification 
        devices. Other phases of testing uncovered multiple problems in 
        meeting requirements for successfully integrating the new 
        technology into operations at ports of entry. Of the two ASP 
        contractors participating in the current round of testing, one 
        has fallen behind due to severe problems encountered during 
        testing of ASPs' readiness to be integrated into operations at 
        ports of entry (``integration testing''); the problems may 
        require that the vendor redo previous test phases to be 
        considered for certification. The other vendor's system 
        completed integration testing, but CBP suspended field 
        validation testing in January 2009 after two weeks because of 
        serious performance problems resulting in an overall increase 
        in the number of referrals for secondary screening compared 
        with existing equipment.

        [bullet]  DNDO's plans for computer simulations. As of May 
        2009, DNDO did not plan to complete injection studies--computer 
        simulations for testing the response of ASPs and PVTs to 
        simulated threat objects concealed in cargo containers--prior 
        to the Secretary of Homeland Security's decision on 
        certification even though delays to the ASP test schedule have 
        allowed more time to conduct the studies. According to DNDO 
        officials, injection studies address the inability of 
        performance testing to replicate the wide variety of cargo 
        coming into the United States and the inability to place 
        special nuclear material and other threat objects in cargo 
        during field validation. DNDO had earlier indicated that 
        injection studies could provide information comparing the 
        performance of the two systems as part of the certification 
        process for both primary and secondary screening. However, DNDO 
        subsequently decided that performance testing would provide 
        sufficient information to support a decision on ASP 
        certification. DNDO officials said they would instead use 
        injection studies to support effective deployment of the new 
        portal monitors.

        [bullet]  Lack of an updated cost-benefit analysis. DNDO had 
        not updated its cost-benefit analysis to take into account the 
        results of ASP testing. An updated analysis that takes into 
        account the testing results, including injection studies, might 
        show that DNDO's plan to replace existing equipment with ASPs 
        is not justified, particularly given the marginal improvement 
        in detection of certain nuclear materials required of ASPs and 
        the potential to improve the current-generation portal 
        monitors' sensitivity to nuclear materials, most likely at a 
        lower cost. DNDO officials said they were updating the ASP 
        cost-benefit analysis and planned to complete it prior to a 
        decision on certification by the Secretary of Homeland 
        Security.

    Our May report recommended that the Secretary of Homeland Security 
direct DNDO to (1) assess whether ASPs meet the criteria for a 
significant increase in operational effectiveness based on a valid 
comparison with PVTs' full performance potential and (2) revise the 
schedule for ASP testing and certification to allow sufficient time for 
review and analysis of results from the final phases of testing and 
completion of all tests, including injection studies. We further 
recommended that, if ASPs are certified, the Secretary direct DNDO to 
develop an initial deployment plan that allows CBP to uncover and 
resolve any additional problems not identified through testing before 
proceeding to full-scale deployment. DHS agreed to a phased deployment 
that should allow time to uncover ASP problems but disagreed with GAO's 
other recommendations, which we continue to believe remain valid.

Results from July 2009 Testing Raise Continuing Issues

    The results of DNDO's most recent round of field validation 
testing, which it undertook in July 2009, after our May report was 
released, raise new issues. In July 2009, DNDO resumed the field 
testing of ASPs at four CBP ports of entry that it initiated in January 
2009 but suspended because of serious performance problems. However, 
the July tests also revealed ASP performance problems, including two 
critical performance deficiencies. First, the ASP monitors had an 
unacceptably high number of false positive alarms for the detection of 
certain high-risk nuclear materials. According to CBP officials, these 
false alarms are very disruptive in a port environment in that any 
alarm for this type of nuclear material would cause CBP to take 
enhanced security precautions because such materials (1) could be used 
in producing an improvised nuclear device and (2) are rarely part of 
legitimate or routine cargo. Furthermore, once receiving an alarm for 
this type of nuclear material, CBP officers are required to conduct a 
thorough secondary inspection to assure themselves that no nuclear 
materials are present before permitting the cargo to enter the country. 
Repeated false alarms for nuclear materials are also causes for concern 
because such alarms could eventually have the effect of causing CBP 
officers to doubt the reliability of the ASP and be skeptical about the 
credibility of future alarms.
    Secondly, during the July testing the ASP experienced a ``critical 
failure,'' which stemmed from a problem with a key component of the ASP 
and caused the ASP to shut down. Importantly, during this critical 
failure, the ASP did not alert the CBP officer that it had shut down 
and was no longer scanning cargo. As a result, were this not in a 
controlled testing environment, the CBP officer would have permitted 
the cargo to enter the country thinking the cargo had been scanned, 
when it had not. According to CBP officials, resolving this issue is 
important in order to assure the stability and security of the ASP.
    In addition to these key performance problems, the ASP was not able 
to reduce referrals to secondary inspection by 80 percent as required 
by the DHS criteria for a significant increase in operational 
effectiveness. According to the report from the ASP Field Validation 
Advisory Panel, a panel made up of officials from CBP, DNDO, and a 
national laboratory, the ASP was able to reduce referrals to secondary 
inspection by about 69 percent rather than the 80 percent as required 
by the DHS criteria.
    While the performance of the ASP during the July field validation 
testing raises issues about its potential readiness for deployment, 
DNDO's proposed solutions to address these performance problems raise 
additional questions about whether this equipment will provide any 
meaningful increase in the ability to detect certain nuclear materials. 
Specifically, to address the problem of false positive alarms 
indicating the presence of certain nuclear materials, according to DNDO 
officials, DNDO has modified the ASP to make this equipment less 
sensitive to these nuclear materials. While this may address the issue 
of false positive alarms, it will also diminish the ASP capability of 
detecting a key high-risk nuclear material. Since the ASP modification, 
DNDO conducted computer simulations using a vendor-provided system 
called a ``replay tool'' to examine the effect of the modification on 
the ASP's performance. According to DNDO officials, the replay tool 
demonstrated that the modified ASP will still be able to detect certain 
nuclear materials better than the PVT. However, at this point, DNDO 
does not plan to retest the ASP at the Nevada Test Site where it can 
examine the effects of these modifications using actual nuclear 
materials. As we reported earlier this year, the results of the testing 
at the Nevada Test Site demonstrated that the ASPs represented a 
marginal improvement in detecting certain nuclear materials. By 
reducing the sensitivity to these materials and not retesting the 
modified ASPs against actual nuclear materials, it is uncertain exactly 
what improvement in detecting certain nuclear materials these costly 
portal monitors are providing.
    While DNDO is reducing the sensitivity of ASPs to certain nuclear 
materials, it has yet to complete efforts to improve the PVT's ability 
to detect these same materials through energy windowing. For several 
years, CBP officials have repeatedly urged DNDO officials to complete 
this research. However, it was not apparent from our discussions with 
DNDO officials if this effort is making meaningful progress with the 
development of energy windowing or when it will be completed. 
Furthermore, CBP officials stated that, depending on the outcome of 
this research, energy windowing could be the more cost effective way to 
improve detection of certain nuclear materials. In our view, ASPs being 
modified to diminish their capabilities to detect certain nuclear 
materials raises questions about whether energy windowing might be able 
to achieve a similar level of performance against these same materials 
from the PVTs that are already in place.
    Beyond reducing the sensitivity of ASPs to certain nuclear 
materials, DNDO also plans to address the issue of critical failures 
by, among other things, installing an indicator light on the ASP that 
will alert CBP officers that the ASP has experienced a mission-critical 
failure and is no longer scanning cargo. While this should address the 
issue of CBP officers not knowing that the ASP has suffered a critical 
failure, CBP officials stressed to us the need for the ASP to be stable 
and secure enough to avoid these shutdowns.
    In closing, the issues raised by the results of the July 2009 field 
validation tests provide even greater reason for DNDO to address 
recommendations from our May 2009 report. In particular, we reiterate 
the importance of our prior recommendation for DNDO to assess whether 
ASPs meet the criteria for a significant increase in operational 
effectiveness based on a valid comparison with PVTs' full performance 
potential, given that the ASPs will no longer be as effective in 
detecting certain nuclear materials.
    Mr. Chairman, this completes my prepared statement. I would be 
happy to respond to any questions that you or other Members of the 
Subcommittee may have at this time.

Staff Acknowledgments

    Dr. Timothy Persons (Chief Scientist), Ned Woodward (Assistant 
Director), Joseph Cook, and Kevin Tarmann made key contributions to 
this testimony. Kendall Childers, Karen Keegan, Carol Kolarik, Jonathan 
Kucskar, Omari Norman, Alison O'Neill, and Rebecca Shea also made 
important contributions.

                       Biography for Gene Aloise
    Gene Aloise is a Director in the Natural Resources and Environment 
team at GAO. He is GAO's recognized expert in international nuclear 
nonproliferation and safety issues and completed training on these 
subjects at the University of Virginia and Princeton University. His 
work for GAO has taken him to some of Russia's closed nuclear cities 
and the Chernobyl reactor in Ukraine as well as numerous nuclear 
facilities around the world and in the United States. Mr. Aloise has 
had years of experience developing, leading, and managing GAO domestic 
and international engagements. His diverse experience includes 
assignments with congressional committees as well as various offices 
within GAO. He has received numerous awards for his leadership and 
expertise including GAO's Meritorious Service and Distinguished Service 
Awards. Mr. Aloise received his Bachelor's degree in political science/
economics from Rowan University and holds a Master of Public 
Administration from Temple University. Mr. Aloise is also a graduate of 
the Senior Executive Fellows Program, John F. Kennedy School of 
Government, Harvard University.

  STATEMENT OF DR. TIMOTHY M. PERSONS, CHIEF SCIENTIST, U.S. 
             GOVERNMENT ACCOUNTABILITY OFFICE (GAO)

    Chairman Miller. Thank you, Mr. Aloise. Dr. Persons. I 
think I said Parsons earlier. Persons. You are here to answer 
questions but the testimony of Mr. Aloise is your testimony as 
well?
    Dr. Persons. That is correct.

                    Biography for Timothy M. Persons
    Dr. Timothy M. Persons was appointed the Chief Scientist of the 
United States Government Accountability Office (GAO--the investigative 
arm of the U.S. Congress) in July of 2008. In this role he is an expert 
advisor and chief consultant to the GAO, Congress, and other federal 
agencies and government programs on cutting-edge science and technology 
(S&T), key highly-specialized national and international systems, 
engineering policies, best practices, and original research studies in 
the fields of engineering, computer, and the physical and biological 
sciences to ensure efficient, effective, and economical use of science 
and technology in government programs. The Chief Scientist also works 
with GAO's Chief Technologist to lead the production of Technology 
Assessments for the U.S. Congress.
    Prior to joining GAO, Dr. Persons was the Technical Director of the 
Intelligence Advanced Research Projects Activity (IARPA) from November 
2002 to July 2008. IARPA's mission is to invest in high-risk/high-
payoff research with potential to revolutionize the business of 
intelligence collection, processing, analysis, and dissemination. From 
July 2001 to November of 2002, he served as the Technical Director for 
the National Security Agency's (NSA) Human Interface Security Group 
which researches, designs, and tests next-generation biometric 
identification and authentication systems. He has also served as a 
radiation physicist with the University of North Carolina at Chapel 
Hill.
    Dr. Persons is a 2007 Director of National Intelligence S&T Fellow 
whose research focuses on computational imaging systems. He was also 
selected as the James Madison University (JMU) Physics Alumnus of 2007. 
He received his B.Sc. (Physics) from JMU, a M.Sc. (Nuclear Physics) 
from Emory University, and a M.Sc. (Computer Science) and Ph.D. 
(Biomedical Engineering) degrees from Wake Forest University. He is a 
senior member of the Institute for Electrical and Electronic Engineers, 
Association for Computing Machinery, and the Sigma Xi research honor 
society and has authored an array of journal, conference, and technical 
articles. He is also a Ruling Elder in the Presbyterian Church in 
America and lives happily in Maryland with his wife Gena and their two 
children.

    Chairman Miller. Okay. Mr. Owen.

    STATEMENT OF MR. TODD C. OWEN, ACTING DEPUTY ASSISTANT 
  COMMISSIONER, OFFICE OF FIELD OPERATIONS, U.S. CUSTOMS AND 
       BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Owen. Chairman Miller, Ranking Member Broun, 
distinguished Members of the Subcommittee, I am honored to be 
here this afternoon to provide an update on the role that U.S. 
Customs and Border Protection plays in protecting our nation 
from the illicit introduction of radiological or nuclear 
materials in cargo containers, and on the future role that 
Advanced Spectroscopic Portal technology would have on CBP 
operations.
    I would like to begin by expressing my gratitude to 
Congress for its continued support toward CBP initiatives. 
Among the numerous priorities that were recognized in the 
American Recovery and Reinvestment Act of 2009, Congress 
provided CBP with $100 million of stimulus funding toward 
upgrading and adding non-intrusive inspection equipment. This 
funding will allow CBP to upgrade and expand its successful NII 
program and more effectively inspect containers and vehicles 
crossing our border, allowing them to enter our country and its 
commerce in a safe and prompt manner.
    Everyday over 57,000 maritime containers, truck trailers 
and rail cars cross our border. CBP uses a multi-layered 
approach to ensure the integrity of supply chains from points 
of stuffing through arrival at U.S. ports of entry. This multi-
layer defense is built upon interrelated initiatives which 
include the 24-Hour Rule and the Trade Act of 2002, the 
Automated Targeting System, Non-Intrusive Inspection (NII) 
equipment and radiation portal monitors, the Container Security 
Initiative and the Customs Trade Partnership Against Terrorism, 
C-TPAT program. These complementary layers enhance security and 
protect our nation.
    Prior to 9-11, not a single radiation portal monitor and 
only 64 large-scale NII systems were deployed to our nation's 
borders. By October of 2002, CBP had deployed the first RPM to 
the Ambassador Bridge in Detroit, and today CBP has just under 
1,400 RPMs and 232 large-scale NII systems deployed nationwide, 
and that is an increase of almost 200 more RPMs and five 
additional large-scale NII systems since I last testified 
before this subcommittee in June.
    NII technology allows the officers to detect possible 
anomalies, anomalies which may indicate the presence of weapons 
of mass effect or some other contraband. In Fiscal Year 2009, 
CBP conducted over 5.2 million examinations using NII 
technology, allowing CBP to meet our twin goals of enhance 
security and trade facilitation.
    In addition to the significant strides made in the area of 
NII equipment, the CBP also continues to deploy first-
generation radiation portal monitors to our nation's ports of 
entry. Since last testifying before this subcommittee, CBP and 
DNDO have now completed deployments of RPMs along the northern 
border and now scan 100 percent of trucks and passenger 
vehicles arriving from Canada, 100 percent arriving from Mexico 
and 98 percent of arriving sea containers for the presence of 
nuclear radiological materials. Since the first RPM was 
deployed in 2002, CBP officers have scanned over 404 million 
conveyances for the presence of radiation and 2.2 million 
radiological alarms have been successfully adjudicated with 
minimal or no impact on the flow of legitimate trade and 
travel. CBP continues to closely coordinate with key 
stakeholders to ensure the impacts of this activity causes 
minimal disruption on port operations.
    The first generation RPM systems, although very sensitive, 
do have limitations. While they alert the CBP officers to the 
presence of radiation, a secondary exam is necessary to 
positively identify the specific isotope causing the alert. In 
the event that a CBP officer is unable to positively resolve 
the alarm, scientific reach-back is available 24 hours a day, 
seven days a week.
    The ASP is expected to enhance our detection capability 
while significantly reducing the number or secondary 
examinations. This is due to its ability to distinguish between 
actual threats and natural or medical radiation sources that 
are not security threats. CBP has worked closely with the DNDO 
in the development and operational testing of ASP, has provided 
DNDO with functional requirements and has been actively engaged 
in every step of systems evaluation. CBP will continue to work 
with DNDO, and with the DHS Science and Technology Directorate, 
S&T, toward Secretarial Certification, and is also working with 
DHS to ensure that any future acquisition and deployment 
decisions are consistent with DHS priorities. The decision to 
purchase and deploy ASPs in the operational arena will be based 
on CBPs mission needs and operational requirements, a 
comprehensive cost benefit analysis to include a full 
understanding of the maintenance and operational cost and 
analysis of alternatives and other considerations.
    Mr. Chairman and Members of the Subcommittee, today I have 
addressed CBP's commitment to investing in new and emerging 
detection technology aimed at enhancing cargo security. We must 
continue to maintain our tactical edge by integrating new 
technology into our ports of entry.
    Thank you again for the opportunity to testify. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Owen follows:]
                   Prepared Statement of Todd C. Owen
    Chairman Miller, Ranking Member Broun, esteemed Members of the 
Subcommittee, it is a privilege and an honor to appear before you today 
to discuss the work of U.S. Customs and Border Protection (CBP), 
particularly the detection of radioactive and nuclear material in cargo 
containers and the potential future role that the Advanced 
Spectroscopic Portal (ASP) program will have on our operations. CBP is 
responsible for ensuring the security of cargo entering the United 
States at our borders and facilitating the flow of legitimate trade and 
travel. As part of this process, over 98 percent of all arriving 
maritime containerized cargo is currently scanned for radiation through 
radiation portal monitors.
    I want to begin by expressing my gratitude to Congress for its 
continued support for the mission and people of CBP. It is clear that 
Congress is committed to providing CBP the resources we need in order 
to increase and maintain the security of our borders. We appreciate 
your efforts and assistance.
    CBP is the largest uniformed federal law enforcement agency in the 
country. We station over 21,000 CBP officers at access points around 
the Nation, including air, land, and sea ports. We have deployed over 
20,000 Border Patrol agents between the ports of entry. These forces 
are supplemented with 1,266 Air and Marine agents, 2,392 agricultural 
specialists, and other professionals.
    CBP's responsibilities include stemming the illegal flow of drugs, 
contraband and people, protecting our agricultural and economic 
interests from harmful pests and diseases, protecting American 
businesses from theft of their intellectual property, enforcing textile 
agreements, tracking import safety violations, regulating and 
facilitating international trade, collecting import duties, 
facilitating legitimate travel, and enforcing U.S. trade laws. CBP 
facilitates lawful immigration, welcoming visitors and new immigrants, 
while making certain those entering this country are indeed admissible 
and taking appropriate action when an individual fears being persecuted 
or tortured if returned to their home country. At the same time, our 
employees maintain a vigilant watch for terrorist threats. In FY 2009, 
CBP processed more than 361 million pedestrians and passengers, 109 
million conveyances, 25.8 million trade entry summaries, examined 5.2 
million sea, rail, and truck containers, performed over 26.8 million 
agriculture inspections, apprehended over 732,000 illegal aliens 
between our ports of entry, encountered over 224,000 inadmissible 
aliens at the ports of entry, and seized more than 2.8 million pounds 
of illegal drugs.
    We must perform our important security and trade enforcement work 
without stifling the flow of legitimate trade and travel that is so 
important to our nation's economy. These are our twin goals: border 
security and facilitation of legitimate trade and travel.

CBP OVERVIEW

    I am pleased to appear before the Subcommittee today to highlight 
the continued progress on radiation detection technology. I would also 
like to take this opportunity to bring attention to CBP's holistic 
cargo security programs that are applied to all environments. CBP has 
made tremendous progress toward securing the supply chains that bring 
goods into the United States from around the world, and preventing 
their potential use by terrorist groups, by: using cutting-edge 
technology to increase the ability of front-line CBP Officers to 
successfully detect and interdict illicit importations of nuclear and 
radiological materials; moving resources where they are most needed; 
integrating all CBP offices; sharing information, including actionable 
intelligence, across all aspects of CBP; and utilizing a multi-layered 
approach to ensure the integrity of the supply chain from the point of 
stuffing, through arrival at a U.S. port of entry. This multi-layered 
approach includes the following comprehensive cargo security programs 
that are applied to all modes of transportation:

        [bullet]  Advance Information

                  24-Hour Rule

                  Automated Targeting Systems

                  Importer Security Filing (commonly known as 
                ``10+2'')

        [bullet]  The Customs Trade Partnership Against Terrorism (C-
        TPAT) and Free and Secure Trade (FAST)

        [bullet]  Container Security Initiative (CSI)

        [bullet]  Secure Freight Initiative

        [bullet]  Use of non-intrusive inspection technology and 
        mandatory exams for all high risk shipments.

    I will discuss each one of these layers in greater detail with 
particular focus on our radiation and nuclear detection capabilities.

ADVANCE INFORMATION

    CBP requires advanced electronic cargo information, as mandated in 
the Trade Act of 2002, for all inbound shipments in all modes of 
transportation. This advanced cargo information is evaluated using the 
Automated Targeting System (ATS) before the cargo arrives in the United 
States.
    ATS provides decision support functionality for CBP officers 
working in Advanced Targeting Units at our ports of entry and Container 
Security Initiative ports abroad. The system provides uniform review of 
cargo shipments for identification of the highest threat shipments, and 
presents data in a comprehensive, flexible format to address specific 
intelligence threats and trends. Through rules, the ATS alerts the user 
to data that meets or exceeds certain pre-defined criteria. National 
targeting rule sets have been implemented in ATS to provide threshold 
targeting for national security risks for all modes of transportation: 
sea, truck, rail, and air. The DHS Science and Technology Directorate 
is exploring additional methodologies for conducting risk assessment.
    The Importer Security Filing interim final rule, also more commonly 
known as ``10+2,'' went into effect earlier this year and has already 
yielded promising results. This program will increasingly provide CBP 
timely information about cargo shipments that will enhance our ability 
to detect and interdict high risk shipments. Comments on aspects of 
this rule were accepted until June 1, 2009, and implementation using 
informed compliance will continue until January of next year. Shipments 
determined by CBP to be high-risk are examined either overseas as part 
of our Container Security Initiative, or upon arrival at a U.S. port.

CUSTOMS TRADE PARTNERSHIP AGAINST TERRORISM (C-TPAT)

    CBP works with the trade community through the Customs Trade 
Partnership Against Terrorism (C-TPAT) to better secure goods moving 
through the international supply chain. C-TPAT has enabled CBP to 
leverage supply chain security throughout international locations where 
CBP has no regulatory reach. Under the C-TPAT program, a prospective 
member submits basic company information and a security profile via an 
Internet-based portal system. CBP conducts records checks on the 
company in its law enforcement and trade databases and evaluates the 
security profile, ensuring the company meets the security criteria for 
its particular business sector. Members who pass initial vetting are 
certified into the program. Using a risk-based approach, CBP Supply 
Chain Security Specialists conduct on-site visits of foreign and 
domestic facilities to confirm that the security practices are in place 
and operational.
    C-TPAT is a voluntary public-private partnership program wherein 
CBP works with the trade community in adopting tighter security 
measures throughout their international supply chain. In return for 
making these enhancements members are afforded benefits to include 
reduced exams, dedicated cargo lanes (FAST), Stratified Exam, an 
assigned Supply Chain Security Specialist (SCSS). Potential members 
initially complete an online application. The SCSS then conducts 
internal record checks and evaluates the security profile provided. 
Upon completion of vetting the company then becomes a Certified member 
who will then be physically validated within a year of certification.
    In 2009, CBP continued to expand and strengthen the C-TPAT program 
and ensure that certified member companies are securing their goods 
moving through the international supply chain to the United States. 
Teams of Supply Chain Security Specialists conducted validations and 
re-validations of C-TPAT members' supply chains to ensure that security 
protocols are reliable, accurate, and effective.
    As C-TPAT has evolved, we have steadily increased both the rigor of 
the program and program membership. CBP has strengthened the C-TPAT 
program by clearly defining the minimum security requirements for all 
categories of participants wishing to take part in the program. As of 
Nov. 6, 2009, there were 9,509 companies certified into the C-TPAT 
program. CBP's goal is to validate all partners within one year of 
certification, re-validate all companies not less than once every three 
years, and re-validate all U.S./Mexico highway carriers on an annual 
basis, due to the risks of compromise of trailers associated with the 
Southern Border Highway Carrier sector of C-TPAT.
    C-TPAT's 9,509 Certified Partners include 4,330 importers, 2,583 
carriers, 821 brokers, 784 consolidators/third party logistic 
providers, 56 Marine Port Authority and Terminal Operators and 935 
foreign manufacturers. C-TPAT has conducted 13,246 on-site validations 
of manufacturing and logistics facilities in 90 countries. 301 C-TPAT 
importer partners have been designated Tier 3, meaning they have 
exceeded the minimum security criteria and have been granted the 
highest level of program benefits.

CONTAINER SECURITY INITIATIVE

    Because of the sheer volume of sea container traffic, containerized 
shipping is uniquely vulnerable to terrorist exploitation. To prevent 
terrorists and their weapons from entering the United States, CBP has 
also partnered with foreign governments through our Container Security 
Initiative (CSI). CSI, which is the first program of its kind, was 
announced in January 2002 and is currently operational in 58 foreign 
seaports--covering more than 80 percent of the maritime containerized 
cargo shipped to the United States. The program enables CBP to identify 
and inspect high-risk cargo containers at foreign ports before they are 
shipped to our seaports and pose a threat to the United States and to 
global trade. CSI stations multidisciplinary teams of CBP officers to 
work with host country counterparts to identify and examine containers 
that are determined to pose the highest risk for terrorist activity.
    CBP officers stationed at foreign CSI ports review 100 percent of 
the manifests originating and/or transiting those foreign ports for 
containers that are destined for the United States. In locations where 
the tremendous volume of bills prevents the CSI team at the port itself 
from performing 100 percent review, or during port shutdowns, CSI 
targeters at the National Targeting Center provide additional support 
to ensure that 100 percent review is accomplished. Utilizing the 
overseas CSI team and the CSI targeters at our National Targeting 
Center, CBP is able to achieve 100 percent manifest review for the CSI 
program. In FY 2009, CBP officers stationed at CSI ports reviewed over 
nine million bills of lading and conducted over 56,000 exams in 
conjunction with their host country counterparts.

SECURE FREIGHT INITIATIVE

    The Secure Freight Initiative (SFI) is an effort to build upon 
existing port security measures by enhancing the U.S. Government's 
ability to scan containers for nuclear and radiological materials in 
seaports worldwide and to better assess the risk of inbound containers. 
SFI provides carriers of maritime containerized cargo greater 
confidence in the security of the shipment they are transporting, and 
increases the likelihood of an uninterrupted and secure flow of 
commerce. This initiative is the culmination of our work with other 
U.S. Government agencies, foreign governments, the trade community, and 
vendors of leading-edge technology.
    CBP will prioritize future deployments of scanning systems to 
locations of strategic importance by identifying seaports where non-
intrusive imaging and radiation detection data would be most practical 
and effective in deterring the movement of weapons of mass destruction 
via containerized cargo. The additional scan data provided by SFI will 
enhance DHS' risk-based and layered approach to securing maritime 
containerized cargo. We will continue to work with Congress to enhance 
the safety of our nation's ports and the security of incoming cargo.

NON INTRUSIVE INSPECTION/RADIATION DETECTION TECHNOLOGY

    The deployment of imaging systems and radiation detection equipment 
has contributed tremendously to CBP's progress in ensuring that supply 
chains bringing goods into the United States from around the world are 
secure against exploitation by terrorist groups. Non-Intrusive 
Inspection (NII) technology serves as a force multiplier that allows 
officers to detect possible anomalies between the contents of a 
container and the manifest. CBP relies heavily on the use of NII, as it 
allows us to work smarter and more efficiently in recognizing potential 
threats.
    Prior to 9/11, not a single Radiation Portal Monitor (RPM), and 
only 64 large-scale NII systems were deployed to our nation's borders. 
By October 2002, CBP had deployed the first RPM at the Ambassador 
Bridge in Detroit. Today, CBP uses RPMs to scan 99 percent of all cargo 
arriving in the U.S. by land and sea. CBP, in partnership with the DHS 
Domestic Nuclear Detection Office (DNDO) and Pacific Northwest National 
Laboratory (PNNL), has deployed 473 RPMs at northern border land ports 
of entry; 385 RPMs at southern border land ports of entry; 433 RPMs at 
seaports; and 55 RPMs at mail facilities. Currently, CBP has 232 large-
scale NII systems deployed and 5,816 small-scale NII units. 
Additionally, CBP has deployed 1,515 Radiation Isotope Identifier 
Devices (RIIDs) and 19,365 Personal Radiation Detectors (PRDs). These 
devices allow CBP to examine 100 percent of all identified high-risk 
cargo. To date, CBP has used the deployed systems to conduct over 38 
million examinations, resulting in over 8,300 narcotic seizures, with a 
total weight of over 2.6 million pounds, and over $28.6 million in 
undeclared currency seizures. Since RPM program inception in 2002, CBP 
has scanned over 404 million conveyances for radiological contraband 
resulting in over 2.2 million alarms. CBP's Laboratories and Scientific 
Services spectroscopy group at the National Targeting Center has 
responded to some 21,599 requests from the field for technical 
assistance in resolving alarms. To date 100 percent of all alarms have 
been successfully adjudicated as innocent.
    CBP is pleased to report that the final installation of RPMs along 
our shared northern border was commissioned on Oct. 29 at the Trout 
River, N.Y., port of entry. This milestone represents another critical 
step in the Department's efforts to strengthen the interconnected U.S. 
border security network by deploying technology and personnel to key 
border locations to meet modern-day security needs. This recent 
milestone provides CBP with the ability to utilize radiation detection 
technologies to scan 100 percent of trucks and personally owned 
vehicles arriving through both northern and southern border ports, and 
98 percent of arriving sea containers. In addition, CBP officers now 
use hand-held radiation identification devices to scan 100 percent of 
private aircraft arriving in the U.S. from foreign destinations.
    The first generation RPM systems, although very sensitive, do have 
limitations. While they alert CBP officers to the presence of 
radiation, a secondary exam is necessary to identify the location and 
specific isotope causing the alert. In the event that a CBP officer is 
unable to positively resolve the alert, scientific reach back is 
available on a 24/7 basis through the National Targeting Center and 
CBP's Laboratory & Scientific Services Division located in the northern 
Virginia area.
    Understanding these limitations and the need for more precise 
radiological detection architecture, DNDO was created in 2005 to focus 
on radiological and nuclear threats and develop new technologies that 
will improve the Nation's ability to detect and identify radiological 
and nuclear weapons and material. One of these new technologies is the 
next generation RPM, or the Advanced Spectroscopic Portal (ASP).
    The ASP is able to distinguish between actual threats and natural 
or medical radiation sources that are not security threats. In doing 
so, the ASP would enhance our detection capability, while significantly 
reducing the burden of responding to the numerous benign alarms that 
are mostly generated by everyday products. This would allow CBP to 
focus our staffing and resources on high-risk shipments and other 
border security initiatives.

CBP COORDINATION WITH DNDO

    In our collaboration with DNDO, CBP brings knowledge of how our 
ports work, of the needs of our front-line officers, and of the 
operational requirements for new technologies that must work 
consistently in a broad array of environments. Additionally, CBP is 
attuned to critical factors such as throughput and capacity as we seek 
to maintain an appropriate balance between security and the 
facilitation of cross-border travel and trade.
    CBP has worked closely with DNDO in the developmental and 
operational testing of the ASP. A complete, independent operational 
testing and evaluation will be conducted by the DHS Science and 
Technology Directorate's Test and Evaluation and Standards Division, 
along with the Director of Operational Test and Evaluation, when the 
system completes the current course of testing. CBP's objective for 
operational testing is to ensure that systems are suitable and 
effective in our operational environments. CBP provided DNDO with 
functional requirements for the ASP and has been actively engaged in 
every step of testing, including performance testing at the Nevada Test 
Site and integration testing currently ongoing at a mock port of entry 
at the Pacific Northwest National Laboratory.
    During CBP-led field validation and integration testing, CBP has 
been working closely with DNDO to assess each ASP system's performance 
as an integrated unit, including reach back capability and ancillary 
equipment such as traffic lights and automated gate arms that are 
essential to maintaining positive control of vehicles at our ports of 
entry. In addition, CBP works with DNDO to assess and categorize each 
system's issues to ascertain their technological impact on performance 
and their operational impact on front-line CBP officers--the users of 
the system.
    CBP will continue to work with DNDO toward certification by the 
Secretary, which is dependent on demonstrating a ``significant increase 
in operational effectiveness'' over existing first-generation radiation 
detection systems. At such time, the discussion could then turn to 
potential acquisition and deployment of ASP systems. Any decision to 
purchase and deploy ASPs in the operational arena will be based on 
mission needs, operational requirements, and a full understanding of 
maintenance and operational costs, to include a comprehensive cost-
benefit analysis and an analysis of alternatives.

CONCLUSION

    Technology plays an enormous role in securing the supply chain. 
Security technology is continuously evolving, not only in terms of 
capability but also in terms of compatibility, standardization, and 
integration with information systems. It is important to note that 
there is no single technological solution to supply chain security. As 
technology matures, it must be evaluated, and adjustments to 
operational plans must be made. Priority should be given to effective 
security solutions that complement and improve the business processes 
already in place, and which build a foundation for secure 21st century 
global trade.
    Mr. Chairman, Members of the Subcommittee, thank you again for this 
opportunity to testify about CBP's commitment to investing in new and 
emerging detection technology, as well as some of the steps we have 
taken toward enhancing cargo security. I will be happy to answer any of 
your questions.

                      Biography for Todd C. Owens
    Mr. Todd C. Owen was appointed to Executive Director of the Cargo 
and Conveyance Security office, Office of Field Operations (OFO), in 
May 2006. Mr. Owen is responsible for all cargo security programs and 
policies for CBP, including the Container Security Initiative, the 
Customs-Trade Partnership Against Terrorism Program (C-TPAT) office, 
all non-intrusive inspection technology and radiation portal monitor 
deployments, the national canine enforcement program, the National 
Targeting Center-Cargo, and the 100 percent scanning initiative. Mr. 
Owen also coordinates U.S. Customs and Border Protection's (CBP) 
maritime cargo enforcement policies and activities with the U.S. Coast 
Guard and all air cargo efforts with the Transportation Security 
Administration.
    Mr. Owen previously served as the Director of the C-TPAT program 
from January 2005 until May 2006. As Director, he strengthened 
management control and increased hiring, allowing for a significant 
enhancement in the level of foreign site assessments performed 
worldwide under this 9,000 member partnership program.
    Before arriving in Washington, D.C., Mr. Owen was the Area Port 
Director in New Orleans, where he was directly responsible for all CBP 
operations throughout Louisiana, managing 240 officers at seven port 
offices. Before being selected as Area Port Director, Mr. Owen spent 
eight years in South Florida where he held various trade related 
positions within OFO and the Office of Strategic Trade.
    Mr. Owen began his career with U.S. Customs Service in 1990 as an 
Import Specialist in Cleveland, Ohio.
    Mr. Owen is a career member of the Senior Executive Service and was 
a senior executive fellow at Harvard University's John F. Kennedy 
School of Government.
    He is a graduate of John Carroll University in Cleveland, Ohio, and 
holds a Master's degree in Public Administration from St. Thomas 
University in Miami, Florida.

    Chairman Miller. Thank you, Mr. Owen. Dr. Hagan for five 
minutes.

  STATEMENT OF DR. WILLIAM K. HAGAN, ACTING DEPUTY DIRECTOR, 
   DOMESTIC NUCLEAR DETECTION OFFICE, DEPARTMENT OF HOMELAND 
                            SECURITY

    Dr. Hagan. I am sorry. I am losing my voice. Good afternoon 
Chairman Miller, Ranking Member Broun and the distinguished 
Members of the Subcommittee. As Acting Deputy Director of the 
Domestic Nuclear Detection Office, DNDO, at the Department of 
Homeland Security, I am honored to be here with the U.S. 
Customs and Border Protection Executive Director for Cargo and 
Conveyance Security, Mr. Todd Owen.
    I would like to thank the Committee for the opportunity to 
provide this update on our Advanced Spectroscopic Portal 
Program, or ASP. Since our last hearing, ASP systems have 
undergone another round of field validation conducted by CBP. 
The purpose of field validation is to produce information about 
the operational characteristics of the system and correct any 
issues that must be resolved before moving onto the last test 
event for the system, the Operational Test and Evaluation 
(OT&E).
    The July field validation identified several issues. We 
worked with CBP to classify the severity of these operational 
and technical issues and DNDO has since addressed all the 
issues initially identified. Because the systems are 
configuration controlled, adjustments were checked and 
validated through use of a replay tool and regression testing 
to ensure that sensitivity to threats was not decreased below 
guidance. Although a few issues remain to be resolved, we are 
optimistic that field validation can be restarted in the near 
future.
    After CBP completes field validation, OT&E will be 
conducted by the DHS Science and Technology Directorate's 
operational testing authority. The current path to 
certification includes field validation and OT&E, as well as 
preparation of all the departmental acquisition program 
requirements, including presentation of the program before the 
DHS Acquisition Review Board, or ARB, for a production 
decision. We are committed to following the Department's 
Management Directive 102-01. As such, we cannot speculate about 
the outcome of the ARB decision. The Secretary's decision 
regarding certification will follow the ARB.
    Beyond testing of the ASP systems, deployment of our 
current, low-rate initial production ASP units is now being 
considered. The fiscal year 2010 appropriations bill signed 
three weeks ago contains specific language encouraging 
incremental deployments of ASP, as did the report from the 
National Academy of Sciences, and we are planning discussions 
with CBP regarding the best way to deploy these units once OT&E 
is completed.
    However, one new obstacle has emerged that will greatly 
impact the path forward. The United States is facing a severe 
helium-3 shortage. Helium-3 is a gas that is used for neutron 
detection within both current and next-generation RPMs. Because 
this decreased supply affects multiple agencies within the 
Federal Government and beyond, the White House has convened an 
Interagency Policy Committee, including DHS, to discuss the 
issue and possible solutions. This group decided in September 
that no more helium-3 will be allocated to RPMs for the time 
being. We are currently leading interagency efforts to identify 
alternative neutron detectors, and we are working to assess the 
impact this will have on our deployment strategy and path 
forward. For now, we plan to continue field validation and 
operational testing evaluation in exploring our options for the 
path forward beyond that.
    Additionally, I have also been asked to address the status 
of improvements to the currently deployed RPM systems, the PVT 
systems. Some have asked if software or algorithm improvements 
including improvements to the energy windowing algorithms that 
are currently deployed could provide enhanced capabilities for 
PVT systems. We are currently funding work at Pacific Northwest 
National Laboratory and the Johns Hopkins University Applied 
Physics Laboratory to improve energy windowing and conduct 
related research to determine what kinds of PVT improvements 
may be possible. This research is still ongoing. That being 
said, it is important to note that any improvements to PVT 
detectors will only improve primary inspection capabilities or 
detection. Current performance limitations, and secondary 
inspection where CBP officers require the ability to identify 
radiological sources, are not addressed by improvements to PVT 
technology. Better energy windowing algorithms will not change 
this fact.
    As a final note, I would like to emphasize that the ASP 
program is only one piece of the multi-layered solution we have 
termed the global nuclear detection architecture. This strategy 
calls for the use of multiple preventive actions at our ports 
as well as security measures along all potential pathways 
beyond, at and within the Nation's borders.
    We will continue to work with our partners within DHS, 
other federal departments, State and local agencies and the 
Members of this subcommittee and the Congress to keep the 
Nation safe from radiological and nuclear terrorism.
    This concludes my statement. I thank you for your 
attention, and I will do my best to answer any questions you 
may have.
    [The prepared statement of Dr. Hagan follows:]
                 Prepared Statement of William K. Hagan

Introduction:

    Good afternoon Chairman Miller, Ranking Member Broun, and 
distinguished Members of the Subcommittee. As Acting Deputy Director of 
the Domestic Nuclear Detection Office (DNDO) at the Department of 
Homeland Security (DHS), I would like to thank the Committee for the 
opportunity to provide a status update on the Advanced Spectroscopic 
Portal (ASP) program. I would also like to thank the Committee for its 
support of DNDO's mission to reduce the risk of radiological and 
nuclear terrorism to the Nation.
    In late June of this year, I provided testimony about our next-
generation radiation portal monitors (RPMs), including where RPMs are 
deployed and how DHS' U.S. Customs and Border Protection (CBP) operates 
this technology at our ports of entry (POEs). My testimony today will 
include a status update and the path forward for the ASP program. I 
will also describe operations during field validation and improvements 
for poly-vinyl toluene (PVT) systems.

Energy Windowing for PVT Systems:

    Before I get into an update on the ASP Program, I have been asked 
to address the status of improvements to PVT systems. For some time, 
there have been various questions about the possibility of exploring 
energy windowing improvements to the currently deployed PVT systems. 
Energy windowing is an algorithmic alarm method that can be applied to 
plastic scintillator-based RPM systems to improve operational 
sensitivity to certain threat sources while reducing the alarm rates 
from naturally occurring radioactive material. Some have asked if 
software or algorithm improvements could provide enhanced capabilities 
for PVT systems that would achieve performance similar to that of the 
ASP systems. Algorithms that provide energy windowing for PVT systems 
were introduced into the currently deployed systems in 2007, and DNDO 
is currently funding work both at the Johns Hopkins University Applied 
Physics Laboratory (APL) and at Pacific Northwest National Laboratory 
(PNNL) to determine if further gains can be made through additional 
energy windowing techniques. We have also asked that, wherever 
possible, the labs work cooperatively on these efforts. Funding for the 
work at PNNL is approximately $1.6 million of Fiscal Year (FY) 2008 
appropriations, and investments in APL for studies related to energy 
windowing are approximately $90,000 of FY 2009 appropriations. 
Scientists are thus far uncertain whether additional gains in 
operational performance can be coaxed from PVT RPMs by using more 
energy windowing, because the limits of passive detection with plastic-
based detectors are coupled with a need to keep false alarms at a 
minimum. As new techniques are studied and evaluated, it is important 
to note that the scintillation properties of PVT detectors are 
fundamentally different than the ASP technology and we continue to 
evaluate the operational effectiveness of next-generation systems 
concurrently.

Current Status of the ASP Program:

    DNDO continues to enhance the capability to detect and report 
attempts to import, possess, store, develop, or transport nuclear or 
radiological material for use against the Nation. Part of our work 
involves working with DHS partners to provide the equipment and systems 
they need to perform their missions, including scanning cargo for 
possible radiological or nuclear threats. After 9/11, considerable 
concern was raised about the possibility that terrorists could use the 
enormous volume of cargo flowing into the United States as a means to 
bring in nuclear material or a nuclear weapon. By far, the largest mode 
for incoming cargo is maritime shipping containers, with approximately 
11 million containers coming into the country every year. Additionally, 
in the Security and Accountability for Every (SAFE) Port Act of 2006, 
Congress mandated that all containers coming in through the 22 top 
volume ports be scanned for radiation by the end of 2007. Thus, 
considerable effort and resources have been devoted to this mode of 
transportation to provide comprehensive radiological and nuclear 
detection capabilities, particularly at POEs.
    CBP currently scans cargo entering at our nation's POEs using PVT-
based radiation portal monitors (RPMs) that can detect radiation, but 
cannot distinguish between threat materials and naturally occurring 
radioactive materials (NORM), such as kitty litter and ceramic tiles. 
Narrowing down alarms to just those for dangerous materials is 
especially important for POEs that have a high volume of containers, or 
those that see a high rate of NORM.
    Building on previous work within CBP and the DHS Science and 
Technology Directorate (S&T), DNDO initiated the ASP program in 2006 to 
develop next-generation technology that can both detect radiological 
material and distinguish between threat and non-threat materials. ASP 
systems have shown significantly improved capability to distinguish 
radiological threats from non-threats over the hand-held instruments 
currently used in secondary screening. Thus, the introduction of ASP 
systems is expected to not only reduce the number of unnecessary 
referrals and false positives in primary scanning but increase the 
probability of detecting dangerous materials in secondary. I want to be 
clear here that ASP cannot and will not be acquired and deployed until 
an Acquisition Review Board (ARB) has been conducted and the Secretary 
of Homeland Security has certified that the technology provides a 
significant improvement in operational effectiveness over current 
systems. Although we are getting closer to these decision points, 
testing and evaluation still remains so that all the data required to 
make informed decisions has been accumulated, analyzed, and documented.
    To date, two ASP vendors have developed systems that have completed 
the following 2008-2009 tests: System Qualification Testing, designed 
to demonstrate that ASP units are manufactured in accordance with 
processes and controls that meet the specified design requirements; and 
Performance Testing at the Nevada Test Site (NTS), designed to evaluate 
ASP, PVT, and radioisotope identification devices (RIID) detection and 
identification performance against controlled, realistic threat 
materials, shielding, and masking scenarios. One vendor has also 
completed Integration Testing, designed to determine whether the ASP 
systems are capable of operating and interfacing with the other 
equipment found in operational settings. This vendor has now begun 
field validation testing, designed to exercise ASP systems in a stream 
of commerce environment at POEs.
    The second vendor has experienced technical and accounting issues 
that have caused its testing schedule to lag behind. DNDO is in the 
process of determining the best path forward with this vendor. The 
remainder of my testimony will focus solely on the first vendor.

Field Validation:

    Since our last hearing, CBP conducted an additional round of field 
validation at operational POEs. You may recall that CBP operated the 
ASP systems at four field validation sites in January and February of 
2009 for a period of two weeks. During this time, the systems were run 
in tandem with the PVT systems to scan incoming cargo conveyances, and 
were able to collect data in an operational port environment with real 
flow-of-commerce. During these operations, the ASP systems showed 
higher than expected alarm rates for three industrial sources.
    Following this first round of field validation, the ASP thresholds 
were adjusted to more effectively eliminate alarms on benign sources 
and were retested to ensure that the sensitivity for detection of 
special nuclear material and threats did not fall below guidance 
requirements. Utilizing a computer-based replay tool, we were able to 
determine that the adjustments solved the problem without decreasing 
the probability that the system will detect and identify threats. 
Additionally, the systems were put through regression testing to 
determine if the problem had been appropriately addressed.
    After the threshold adjustments were fine-tuned for the three 
specific isotopes that were problematic in the winter, CBP restarted 
field validation in July. This testing identified two additional 
issues. First, there was a single mission-critical fault at one field 
validation site in which the software database system failed to scan 
multiple conveyances, and did not immediately notify the CBP Officer of 
the problem. There was no security threat at this port because ASP 
systems were operating in parallel with the current generation systems. 
A technical representative from the vendor was summoned and the issue 
was rectified. The cause of the problem has since been identified and 
fixed. To assure that the fix did not create any unintended problems, 
the software has been successfully regression tested.
    The second technical issue identified during July field validations 
was a higher than expected rate of false alarms for certain special 
nuclear material (SNM) threats. Since ending this second round of 
testing, the ASP thresholds were adjusted to eliminate this problem, 
and the systems were retested to ensure that the sensitivity for 
detection of special nuclear material and threats was not reduced below 
guidance requirements. Use of the replay tool and regression testing 
validated that the false alarm rate will be reduced below guidance 
requirements, and it is anticipated that another round of tandem 
operation field validation will verify the effectiveness of the 
settings. In this case, the threshold adjustments resulted in an 
acceptable reduction in the sensitivity of the system, while remaining 
more sensitive than required by the original specifications.
    The fact that the SNM false alarms did not occur at the same rate 
in the first round of field validation as seen in the second round is a 
good example of the need for robust, multi-stage testing, since it may 
have revealed a sensitivity to seasonal changes and cargo contents that 
was not expected. Such oddities are typical when a new system 
transitions from the lab to the real world, and we will continue to 
learn and improve as testing progresses. At present, DNDO and CBP are 
in discussions to establish the ground rules for starting the next 
period of tandem field validation evaluations. Following the completion 
of tandem operations, ASP systems will undergo solo field validation 
evaluations.

Path Forward:

    Once all the phases of field validation are completed to the 
satisfaction of both DNDO and CBP, ASP systems will complete 
independent operational testing and evaluation (OT&E) conducted by the 
S&T Operational Testing Authority. Test data will be analyzed and 
provided to inform the Secretary's certification decision. DNDO is also 
engaged with the National Academy of Sciences (NAS) to perform an 
additional review of ASP testing and inform the certification process, 
as required in the FY 2008, 2009, and 2010 Homeland Security 
Appropriations bills.
    Additionally, DNDO is working to develop a cost-benefit analysis 
that will analyze the cost effectiveness of deploying ASP systems in 
several different configurations. This cost-benefit analysis 
methodology is still being processed with the available data and 
requires additional data from the remaining tests before it can undergo 
review within the Department and be finalized.
    The current path to certification includes testing as described 
above, accompanied by the analysis of results, to ensure that Secretary 
Napolitano has sufficient information and all the Departmental 
acquisition program requirements are met. ASP systems have been under 
review and evaluation for over three years now, but we are focused on 
informing a decision to go forward with acquisition and deployment with 
the appropriate processes. Such a decision will be made only when it 
has been determined that ASP will increase the probability of detecting 
dangerous materials while minimizing operational burdens, rather than 
based on a pre-determined timeline.
    The changes and continued diligence that DNDO exercises in 
conjunction with the ASP program will ensure that any eventual 
certification and acquisition decisions are consistent with DHS 
priorities and made with a documented acquisition management 
foundation. The ASP program will also be presented to the DHS ARB for 
an MD 102-01 milestone decision for purchase and deployment of ASP. 
This is a very well-defined milestone that was developed for all large 
programs within the Department of Homeland Security. Items such as 
mission needs, operational requirements, analysis of alternatives, 
etc., are part of the MD 102-01 process--no production units can be 
purchased and deployed without successfully navigating the process. To 
be clear, the Secretarial certification requirement is in addition to 
the MD 102-01 deployment decision. DNDO intends to present both the 
Secretary and the ARB with all the necessary information to make 
decisions about the operational effectiveness and potential optimal 
deployment of ASP systems.

Conclusion:

    DNDO will continue to work with CBP and other partners within and 
beyond DHS to improve the Nation's ability to detect radiological and 
nuclear threats at our ports and borders. DHS is facing a challenge; we 
must balance facilitating the flow of commerce at our ports and borders 
with the need to sufficiently scan cargo for radiological or nuclear 
threats before it enters our Nation. As both the President and 
Secretary have said, the Nation needs more technology to meet its 
security challenges and the technologies that DNDO is pursuing, of 
which ASP is but one example, are a critical component in addressing 
that challenge.
    Our efforts to develop and evaluate ASP systems are based on sound, 
proven testing and evaluation processes used with proven success across 
government and academia. Current test results are capturing the 
benefits of ASP systems, and the reviews to date have provided a 
valuable assessment of the program and identified a number of key 
lessons learned. As we collect more operational data for the ASP 
systems, we are better able to determine the optimized settings for 
detecting and identifying threats, while facilitating the flow of 
legitimate commerce.
    I welcome and appreciate the Committee's active engagement with 
this program, and look forward to continuing our cooperation as we move 
forward together. Chairman Miller, Ranking Member Broun, and Members of 
the Subcommittee, I thank you for your attention and will be happy to 
answer any questions that you may have.

                     Biography for William K. Hagan
    Dr. William Hagan serves as the Acting Deputy Director for the 
Department of Homeland Security's (DHS) Domestic Nuclear Detection 
Office (DNDO). Prior to January 2009, Dr. Hagan served as the Assistant 
Director of the Transformational Research and Development (R&D) within 
DNDO. Dr. Hagan was responsible for long-term R&D, seeking technologies 
that can make a significant or dramatic positive impact on the 
performance, cost, or operational burden of detection components and 
systems.
    Before his work with DNDO, he was a Deputy Business Unit Manager at 
Science Applications International Corporation (SAIC). Business areas 
included nuclear technology (analysis, detection, and applications), 
telecommunications, optics, transportation, system integration, and 
technology assessments during his thirty years at SAIC.
    Dr. Hagan earned a Bachelor of Science in Engineering Physics in 
1974, Master of Science in Physics in 1975, and Master of Science in 
Nuclear Engineering in 1977 from the University of Illinois at Urbana. 
He received his Ph.D. in Physics from the University of California-San 
Diego in 1986. He holds three patents. Dr. Hagan was appointed to 
Senior Executive Service in 2006.

                               Discussion

    Chairman Miller. Thank you, Dr. Hagan. I now recognize 
myself for five minutes.

     CBP Procedures After a Primary Alarm and the Effect of False 
                               Positives

    Mr. Owen, I hope that CBP's procedure is, if you identify 
nuclear materials, the kind of nuclear material that would be 
used in a nuclear weapon or for a dirty bomb, that your 
procedures would require that you act like your hair was on 
fire, that you act with great urgency. Without getting into 
anything that is classified in this setting, could you describe 
what your procedures are?
    Mr. Owen. Yes, sir. Whenever we have any alarm of a PVT on 
primary, the cargo or the passenger vehicle is then sent into 
secondary because again, the PVTs at this point only detect 
radiation, they do not identify what it is.
    In the secondary, we use the hand-held Radiation Isotope 
Identification Device. If that determination is that we have 
special nuclear materials, we then implement what we call SIN 
procedures: secure, isolate, notify. We secure the area, we 
isolate the conveyance, and then we begin our notifications 
back to our Laboratory and Scientific Services folks at our 
National Targeting Center for cargo here in Northern Virginia. 
The CBP officers would transmit the radiation spectra to the 
Laboratory and Scientific Services people to make a 
determination as to what exactly what we have there. So as this 
is going on, again, we are in secondary. It is a more 
controlled arena. Depending on the footprint of the port, 
depending on the layout, the time of day, the traffic, will 
impact how much of a disruption it will be to some port 
operations. But clearly, whenever we have a higher level threat 
such as the special nuclear materials, we do act accordingly. 
There is some disruption to the port operations until we 
resolve that alarm.
    Chairman Miller. You said secure, secure and identify, 
secure the area. How big an area do you secure?
    Mr. Owen. Mostly it is just in the secondary area with what 
we have. We will create a perimeter of secure area if you will. 
It will not require an automatic shutdown of neighboring 
activities or anything like that. As we do the initial 
readings, send it back to our Laboratory and Scientific 
Services folks--clearly, if the issue has escalated, if it is 
of grave concern to us, your exclusion zone would expand and 
the level of activity would increase.
    Chairman Miller. Okay. Do you have any idea how many hours 
ports like New York, New Jersey, Los Angeles, Long Beach, would 
be closed or how they would be affected by false positives for 
special nuclear materials?
    Mr. Owen. I don't have any data as to how many times this 
has happened or was shut down, but those are the procedure. And 
really again, based on the layout of the port, if it is a large 
seaport, you can have just one terminal affected by an alert of 
special nuclear materials through one of our detection devices. 
If it is a smaller land border crossing, you could 
theoretically have a much greater impact on that type of 
operation. So there is an impact depending on the different 
variables as to how much of an impact, but clearly there is an 
impact whenever we have an alert of a special nuclear material.
    Chairman Miller. Okay. Well, obviously one of the most 
immediate problems with false positives is disruption of 
commerce, disruption of ports and borders. But I remember from 
college that the first time the fire alarm went off in the 
dorm, everyone rolled right out of bed and went outside, but by 
the time it happened three or four times because of a prank, 
all anyone did was just put a pillow over their head to make 
the noise--so they could sleep through the noise. I don't ever 
want it to become routine if we have an alert that there is a 
special nuclear material. Obviously, if there is a real fire, 
the fire alarm would have done no good at all.
    Mr. Aloise, the July round of field validation tests, there 
were, you said, false positives. The machinery, the device, 
ASPs detected materials that were not there at all. Can you 
give us the details of how many false positives or was it one 
or two machines, was it all the machines? What happened?
    Mr. Aloise. Yes, I believe, and CBP can confirm this, there 
was four per thousand at the smaller ports and eight per 
thousand, eight false positives per thousand conveyances at the 
larger ports during the testing in July.
    Chairman Miller. And was that across all machines or was 
that just one or two machines that seemed not to be quite 
right?
    Mr. Aloise. I believe it was across all machines, yes.
    Chairman Miller. So it was a problem with technology 
generally not with a problem with a specific----
    Mr. Aloise. With any one machine.
    Chairman Miller. Okay. My time has almost expired, so I 
will recognize Dr. Broun for five minutes.
    Mr. Broun. Thank you, Chairman. I still am going to be very 
generous with time. You have been very generous with me, and I 
will continue to be generous with you at any point. I want to 
make the Chairman----
    Chairman Miller. After serving for two years with Dana 
Rohrabacher as a Member of the Subcommittee, it is really not a 
problem.

          Steps Taken to Reduce False Positives and Negatives

    Mr. Broun. Thank you, Mr. Chairman. Some of the field 
validation tests reveal high levels of false positives for the 
special nuclear materials. This is a serious problem because 
any identification of any special nuclear materials requires a 
robust response from CBP officers. What is DNDO doing to 
address this issue? And you might also--I am concerned not only 
about false positives but false negatives. And I really haven't 
heard anything about that so if you could deal with that, too?
    Dr. Hagan. Regarding what we are doing about the false 
positives, the field validation showed a large number or 
unacceptably high number of calls for SNM (Special Nuclear 
Material). We have adjusted the threshold levels for the ASP 
and run a replay tool to demonstrate that in fact the number of 
false alarms, if these threshold settings had been used instead 
of what was used in July, that almost all of those false alarms 
would have been eliminated. The number would have dropped from 
about, according to my data here, from about 49 to seven. Now, 
no system is flawless or perfect. And so it is not likely that 
we will ever build a system that will produce no false alarms 
in primary. But the levels that we are operating now according 
to the replay tool are within the acceptability range.
    Regarding false negatives, in the flow of real commerce in 
the field validation activity, there is really no way to know 
if you have dismissed something that you shouldn't have. Now, 
we have testing at another place, the Nevada Test Site, where 
we tested that, and I don't recall what the false negative rate 
was, but it was quite low.
    Mr. Broun. As a physician, I am concerned about, and in 
science, as you know, talk about specificity and sensitivity. 
Several independent sources have already indicated that ASP 
only marginally increases our ability to detect lightly 
shielded special nuclear materials. If we manipulate those 
thresholds, won't this decrease that margin even more, and if 
this is the case, how would that affect any future cost benefit 
analysis?
    Dr. Hagan. The change in--when the threshold settings were 
changed, again using the replay tool, we were able to calculate 
what the difference or see what the difference was in the 
sensitivity. It is a reduced sensitivity as with any detector. 
When you make your system--when you reduce, make changes to 
reduce the false alarm rate, the sensitivity is usually 
affected. So this is true of this detector as well. But when we 
compare the sensitivity of the system before the threshold 
settings were made to that after, while it was reduced, the 
reduction was rather slight and the performance of the system 
is still within the specification and the guidance.
    Mr. Broun. In order to verify and validate the threshold 
changes made to ASP systems, a replay tool was developed. Has 
this tool been validated by an independent party?
    Dr. Hagan. Yes, it has.
    Mr. Broun. Okay. And who is that party?
    Dr. Hagan. The Johns Hopkins APL, Applied Physics Lab.
    Mr. Broun. And what was the results of that?
    Dr. Hagan. Okay. Well, maybe the best way to convey that is 
to comment or to give you some of the results from the replay 
tool validation exercise. So when we say a replay tool, we mean 
we want a tool that when given the same input data as the real 
system, it produces the same results as the real system. And so 
the replay tool was given the real data for 11,000 occupancies, 
and the results were compared to what actually came out of the 
system. The results were identical for all 11,000 except for 
eight. Those eight that were found, the reason that the 
differences were slightly different, the results were slightly 
different, is that the codes were run on two different 
computers, and there was a slight round-off error difference 
between the two computers. And because of that, there were 
eight occupancies that yielded slightly different results. 
Other than that, the results were identical.
    Mr. Broun. Thank you. Mr. Aloise or Dr. Persons, do you all 
have a response to that?
    Mr. Aloise. We would say this and then I will let Dr. 
Persons answer as well. As you recall in June when we 
testified, we said there was a marginal improvement in the 
Nevada testing over what the PVTs were, and that marginal 
improvement, because of this reducing of the thresholds has now 
gotten smaller. So when they do the cost benefit analysis, all 
this has to be factored into that cost benefit analysis because 
now the ASP seemingly does not have the performance that it 
initially did when we testified here earlier this year. So that 
is one point.
    The other point is we have not looked at the replay tool. 
We have not talked to Johns Hopkins, so we can't really comment 
on the replay tool. Dr. Persons, would you like to----
    Dr. Persons. Well, just to confirm what Mr. Aloise was 
saying, we have not been able to look at that, but one of our 
key points on this is just the idea of an independent 
verification or validation of such a tool to do that. And in 
interviews with CBP officials, for example, there was a concern 
about perhaps having an institution such as the American 
National Standards Institute, or ANSI, do something more 
standardized oriented body to do that. There is also of course 
when you are dealing with software development issues which are 
implied in these systems with this level of complication, then 
you would look at of course the software models, the software 
standards, how those were constructed, how they execute the 
algorithms and perform under test.
    Mr. Broun. Dr. Hagan, I would like for you to, if you 
would, submit that report for the record for us----
    Dr. Hagan. Sure, in the form of a letter.
    Mr. Broun.--and a discussion about it. Okay. Good. Thank 
you, sir. Mr. Chairman, I yield back.
    Chairman Miller. Thank you, Dr. Broun. The Chair joins Dr. 
Broun in that request.
    Ms. Dahlkemper for five minutes.

                        Mission Critical Failure

    Ms. Dahlkemper. Thank you, Mr. Chairman. Thank you to all 
those here testifying today. I want to go to one of the most 
basic problems and I guess one of the most alarming was the 
mission critical failure when two dozen cargo trucks were 
permitted to go through the ASP in order to be screened and 
actually were not operating at that time. And supposedly this 
has been rectified by the contractor with an indicator light. 
Is that correct?
    Dr. Hagan. No.
    Ms. Dahlkemper. Nothing has been rectified?
    Dr. Hagan. It has been rectified but not with an indicator 
light. There is a message that gets shown to the operator on 
screen that says that the system is in mission critical failure 
and should not be operated.
    Ms. Dahlkemper. So prior to this there was no way to detect 
if there was----
    Dr. Hagan. There was a message but it was confusing and not 
clear, and so that is what led to the incident. By the way, I 
should comment that this only happened one time in one system 
in all the testing in validation runs that have been going on 
for approximately for a year. So we don't think it is going to 
happen again, but we modified the software to properly notify 
the operator.
    Ms. Dahlkemper. I can buy a $15 smoke detector for my house 
and it will tell me when it is beginning to not work, and when 
it doesn't work, it will beep so I have to get up in the middle 
of the night and take the battery out. But anyway, I just 
wanted to make sure that that problem is rectified at this 
point.
    Dr. Hagan. It has been rectified, it has been regression 
tested, and we are confident that the message will be properly 
displayed. We are struggling a bit with this one error or issue 
that has come up because it has only happened once. So we don't 
think it will happen again. But that is the point of field 
validation, is to shake out some of the issues and problems 
before you move on to the actual operational test.
    Ms. Dahlkemper. How may of these are in operation in this 
field testing? How many?
    Dr. Hagan. Six.
    Ms. Dahlkemper. Six? And how many of the PVTs do we have 
currently?
    Mr. Owen. Just under 1,400 deployed nationwide at the land 
borders and seaports and some mail facilities.

              Energy Windowing to Improve PVT Performance

    Ms. Dahlkemper. Okay. One of the things I wanted to ask, 
Mr. Owen, is on the GAO's previous work on the ASPs, they found 
that the ASPs provide a marginal improvement of the PVTs to 
attack the certain types of radioactive sources under a handful 
of very specific scenarios. But the GAO has also recommended 
that DNDO invest in ways to increase performance of the 
existing radiation monitors known as PVTs by a software 
improvement process called energy windowing. Do you believe 
that more efforts should be made to investigate the benefits of 
the energy windowing?
    Mr. Owen. Yes, our position remains that we need to fully 
maximize what the detection capabilities of the existing 
technology of the PVTs is. So we believe there are gains that 
have already been made with energy windowing, and we would rely 
on our scientific partners to tell us if we have reached the 
edge of that envelope as to how much they can do, either with 
the existing algorithms or with advanced algorithms that may be 
there. So as the operator and end-user of the equipment, yes, 
we would like to etch out as much detection capabilities as we 
can from the PVTs, recognizing that even with energy windowing, 
there will still not be an identification device, just a 
detection device.
    Ms. Dahlkemper. Mr. Aloise, how much has been spent on 
energy windowing work by DNDO or DHS in the last few years 
compared to how much has been spent on developing ASPs?
    Mr. Aloise. I don't have that information, but I do know 
that we have been told that further research has sort of been 
slow-balled, and we would have liked to have seen them a lot 
further by now in where the energy windowing is with the PVTs.
    Ms. Dahlkemper. Could I get that information? Could that 
information be found, Mr. Owen, in terms of how much work has 
been done?
    Dr. Hagan. Yeah, I can give you the numbers right now.
    Ms. Dahlkemper. Okay.
    Dr. Hagan. For energy windowing, we have funded a total of 
about $1.9 million again to Pacific Northwest National 
Laboratory and the Johns Hopkins University Applied Physics 
Laboratory.
    Ms. Dahlkemper. And how does that compare to how much has 
been spent on ASPs?
    Dr. Hagan. It is a lot less. I don't know the exact ratios 
or anything.
    Ms. Dahlkemper. What is the total? You don't know what the 
total has been spent?
    Dr. Hagan. Well, I think the number that was quoted I 
wouldn't argue with. I think it was $230 million over the 
last----
    Ms. Dahlkemper. It is $1.9 million over the last how many 
years?
    Dr. Hagan. Which----
    Ms. Dahlkemper. Last few years. When did we start? I am new 
to Congress so when did we start working on ASPs.
    Dr. Hagan. Oh, ASPs? 2004 or 2005. I actually don't know. I 
wasn't here then.
    Ms. Dahlkemper. So we have spent $230 million in that time 
period on that?
    Dr. Hagan. Right.
    Ms. Dahlkemper. And the energy windowing, you started 
working on that?
    Dr. Hagan. That was in fiscal year 2009. I think the actual 
work started in July of '09 at PNNL.
    Ms. Dahlkemper. So since just this past July we spent $1.9 
million?
    Dr. Hagan. Oh, we haven't spent it. We have obligated it.
    Ms. Dahlkemper. Obligated it?
    Dr. Hagan. I don't think it has been actually expended yet, 
but the work is ongoing.
    Ms. Dahlkemper. Okay. And that just started this year, in 
July?
    Dr. Hagan. Yes, in July, right.
    Ms. Dahlkemper. My time is expired. I yield back.
    Chairman Miller. Thank you, Ms. Dahlkemper. Mr. Bilbray for 
five minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. I apologize for being 
late, and so if my questions have already been answered, you 
can remind me my tardiness was inappropriate.

                       The CBP Inspection System

    Mr. Owen, the issue of inspection, do we have a formal, 
multi-tier inspection system and when we talk about the 
inspection is there any pre-entrance inspection before they get 
to the port facilities?
    Mr. Owen. We do not pre-inspect cargo. What we do have is 
part of our layered cargo security strategy. We receive 
advanced information on all cargo and all modes before it 
arrives in the United States, different timelines, whether it 
is coming by air, by truck, by rail or maritime. With that 
advanced information, we make an initial assessment if the 
cargo poses a risk. In our maritime environment through our 
container security initiative, we have officers deployed in 32 
countries at 58 seaports that can then conduct an inspection on 
the highest risk maritime cargo before it is put on a vessel 
coming to the United States. We do not have a similar program 
in air or in land. So even though we have that advanced 
information before the truck or the train or the airplane 
arrives in the United States, we can identify the highest risk, 
but then it would be looked at at the port of arrival. So we do 
not have pre-inspection overseas for cargo.
    Mr. Bilbray. Okay. So we do have it for the maritime. Do we 
have any structure at all that if there was the ability to 
basically modify the arrival system, in other words hold them 
offshore until we could board the craft and be able to inspect 
it?
    Mr. Owen. Yes, sir. Absolutely. We work very closely with 
the Coast Guard. If there are any threats on a vessel, we will 
keep the vessel out at sea to address those threats or concerns 
with the crew or whatever the case may be. Likewise with the 
air cargo, we receive the information four hours before the 
plane lands, so in most cases if we have a concern that 
aircraft can be diverted to have address that threat, yes, sir.
    Mr. Bilbray. And I am glad to hear that because, let us 
face it, the port facilities tend to be much more centrally 
located in high population areas than either the port of 
entries for vehicles or with the aircraft, so thats preemptive.

       The Helium-3 Shortage and Potential Alternative Materials

    The issue of helium-3, as we are fighting to try to make 
what we have stretch, any discussion of the crisis and what we 
would need to do to crank up the breeder so we can produce more 
and make it available for you?
    Dr. Hagan. There has been a lot of discussion. This issue 
has really risen quickly to the top of a lot of people's lists, 
including the White House. They have formed an Interagency 
Policy Committee to address this that involves not only DHS but 
of course the White House folks, DOE, DOD and so forth. The 
problem is rather severe. The demand will probably outstrip the 
supply by a factor of ten. There is just not very much. And 
there are other uses for this material, for helium-3 that 
involve medical uses and so forth that frankly will probably 
end up having higher priority, although I can't say that for 
sure.
    Mr. Bilbray. So the fact that this is a strategic supply 
problem that we need to address as a nation?
    Dr. Hagan. Yes. I believe that is the case. Now, there 
are--so for some applications, like low-temperature physics 
research, helium-3 is pretty much the only--you are almost 
researching the material itself, so it can't be replaced.
    For our applications in neutron detection, there are other 
potential alternatives which we are, DNDO, is taking the lead 
for the interagency group to explore. We have been funding 
research in this area for several years already. So we are 
looking at alternative means of detecting neutrons. But because 
we don't know what those means are today, there are several, as 
I say, potential alternatives. But it can still take a year or 
two probably to sort of test those, evaluate them and make sure 
that the designs work. So it is a real problem for us. That is 
why it has thrown a real glitch into our planning process.
    Mr. Bilbray. Are there any other jurisdictions or agencies 
around the world that are specifically looking at developing 
this capability?
    Dr. Hagan. To make helium-3?
    Mr. Bilbray. Yeah.
    Dr. Hagan. Well, there are places----
    Mr. Bilbray. We don't have any others domestically. Is 
there anybody domestically looking at it?
    Dr. Hagan. There is some thought to perhaps going into 
natural gas wells and separating some of the helium from that 
and then distilling that, pulling out the helium-3 from that. 
There is a possibility of a source in--well, several sources in 
other countries. I probably shouldn't say much more than that.
    Mr. Bilbray. Okay, Mr. Chairman, I know my time has expired 
but in all fairness, there are a whole lot of issues that the 
Federal Government gets involved with that states, counties, 
cities, international bodies could work on or whatever. Here is 
one where this really is in our lap. I just can't perceive a 
state or a county or a coalition of states being able to 
address this issue, and here is one that I would sure like to 
see the Federal Government make some priority decisions and say 
this is one that only the Federal Government can do so the 
Federal Government has to be more aggressive on this. And I 
will remind all of us as we talk about other issues that could 
be handled by other agencies that we keep forgetting about the 
ones that only we can handle. And maybe we need to focus on 
these items that other people can't handle. So I appreciate 
your testimony and yield back, Mr. Chairman.
    Chairman Miller. Thank you. Mr. Rothman was here and I 
think will be back shortly. I will recognize him out of turn if 
he returns for a first round rather than for a second round.

             In What Circumstances Should ASPs Be Deployed?

    The Chair of the Appropriations Subcommittee for Homeland 
Security is my colleague from North Carolina, David Price. His 
district adjoins mine. In fact, they kind of wrap around each 
other like a couple playing Twister. If he should ask me in 
what circumstances the new technology of the ASP should be 
deployed, what should I tell him? What are the markers for when 
it is reliable enough to replace the PVTs? Should it never 
replace the PVTs? Should it always be used unless there is some 
breakthrough that we haven't seen yet, some improvement in the 
technology? Should it always be used for secondary screening 
after a PVT has identified something to be concerned about? Or 
is this worth it at all? If the PVTs seem to be working, there 
is some disruption of having a truck pull over to the side and 
going over it by hand or cargo. But is this worth it? Mr. 
Aloise.
    Mr. Aloise. Well, our position has consistently been that 
nothing should be acquired in large scale until all the testing 
is complete, all the results are in, we know whether the system 
works or not, a cost benefit analysis has been done, and we can 
see whether it is worth it given all the other demands we have 
in our architecture, all the gaps in that architecture. After 
that cost benefit analysis is done, we will have a better 
answer to know whether it is worth to pursue with the ASPs 
versus the PVTs. Then the question is where? Does it make sense 
more in secondary? Does it make sense in other places?
    So our position, again, we need to get the testing done, 
all of it done, we need to do the cost benefit analysis. And 
until then we really don't have enough information to make this 
decision on.
    Chairman Miller. Well, the original idea was to replace 
PVTs with the ASPs. Given what we know, even assuming that the 
testing improves, we figure out what all the problems are so 
that it doesn't sort of go off without--it doesn't become non-
functional without us noticing it until after a lot of trucks 
have gone through or it doesn't produce an amount of false 
positives that is going to shut down major ports for a 
significant period of time. After we have worked out those 
kinks, does it still make sense at all for it to be a primary 
detection device instead of the PVTs?
    Mr. Aloise. We have our doubts.
    Chairman Miller. Mr. Owen.
    Mr. Owen. Well, again, from our perspective, assuming it 
meets all of the technical and scientific endeavors and the 
machines work, then we have a serious concern about the 
operation and maintenance costs, the tail that will come with 
each one of these devices. As you mentioned in your opening 
statement, we are looking at perhaps as much as five times or 
more what it costs to currently operate it. So we also are 
waiting anxiously to see the cost benefit analysis as well as 
the life cycle costs to see if we can even as an agency afford 
these devices should they continue to develop and mature and be 
proven scientifically to work.
    Chairman Miller. Dr. Hagan.
    Dr. Hagan. I agree with the GAO on this. Until we get the 
cost benefit analysis and a lot of other data, by the way, that 
goes into what we call an Acquisition Review Board, it is 
really not prudent to try to presuppose the result of that. We 
absolutely adhere to the notion that doing the testing and 
doing the validation, doing the cost benefit analysis, life 
cycle cost estimates, all that has to be done and fed into this 
process. We have a very rigorous process within the department 
to do that. I wouldn't want to speculate about whether it is 
going to make sense in primary or secondary, either or both. 
But we at DNDO at least are indifferent to that. The point is 
it has to be driven by, you know, real data and analysis.
    Chairman Miller. Three years ago, Vayl Oxford, who was then 
Director of DNDO, said the priority for the first year is to 
get units out immediately. That seems like not the best idea 
right now. Does anyone disagree with that? Does anyone agree 
still with what Vayl Oxford said then, three years ago? Not a 
priority to get this in place immediately? Okay.
    When do we expect we will get the cost benefit analysis?

            Expectations of a Cost-benefit Analysis on ASPs

    Dr. Hagan. The cost benefit analysis is--we are actually 
struggling with this right now because of the helium-3 shortage 
and the impact of that. The cost benefit analysis of course 
depends on what the cost of the system is. We will have to most 
likely replace to helium-3 neutron detectors with some 
alternative. At this point, we don't know what that alternative 
is. As I said before, we have several potential candidates for 
that. But until we know what that is, it is going to be 
difficult to generate a cost benefit analysis because we won't 
know what the cost of the systems is. It may be possible to 
work around that, but frankly we don't know that yet. We are 
still looking at all the various options. We can try to get to 
a CBA, cost benefit analysis, but without that information and 
of course without the results from the operational test, we 
can't do that.
    Chairman Miller. Dr. Persons, actually, most of my 
questions I have directed initially to Mr. Aloise and he used 
the first person plural, and then you nodded. So I didn't 
direct an additional question at you, but you have worked with 
many new technologies. Are there best practices? Are there 
lessons to be learned for how to develop new practices, how to 
develop and deploy new technologies and have those lessons, 
have those best practices been applied with respect to this 
technology?
    Dr. Persons. Yes, sir. I worked with--coming out of an 
environment where, if you are familiar with the Defense Advance 
Research Projects Agency, it is the idea about rapid technology 
development, in the absence of requirements that is normally 
for a very high-risk type, high-reward research and development 
paradigm. And this particular case, as you mentioned earlier, 
there is sort of some relatively mature technologies, it was 
just relatively immature, the concept of operations it was 
going to be asked to be placed under, in other words, a port 
operation with high volume and so on.
    And so I think some of the lessons learned from this is 
what you put your finger on just a moment ago, was what I would 
call the mistake of scheduling invention, in other words, 
setting artificial deadlines. We want to get these out and then 
we will worry about sort of the technology development later 
on. GAO best practices for many years on this topic have shown 
that that is a mistake to do that. You want to risk mitigate 
the way you develop your programs by investing and particularly 
empowering your science and technology folks to do that and do 
that outside a procurement operation. Even though there needs 
to be close ties there, it still needs to be this idea that the 
science and tech folks can do the technology and development, 
and the procurement folks can worry about how to do the 
procurement
    And so keeping that sort of balance of power, doing that, 
the requirements definitions is hugely important. I think in 
this case, the customer ultimately was CBP and what were they 
going to be comfortable with in an operational paradigm? Was 
the con-op really going to be an ASP and primary alone in solo 
mode, or is there going to be a reduction in their manpower 
requirements and so on. or was it an SNM detection paradigm 
alone? Those are some issues that drive requirements through 
CBP out to the end of the program.
    And then thirdly, of course, the independent testing and 
evaluation, we have had a lot of discussion on that. Again, the 
key thing is there is the independence of that and how that is 
done.
    Chairman Miller. Okay.
    Dr. Persons. And so we have been pleased to see DNDO 
talking about interacting with DHS's OT&E office and so on----
    Chairman Miller. Okay.
    Dr. Persons.--at this phase.
    Chairman Miller. One of the lessons learned is that, at 
some point, you look for an off-ramp that if a technology 
seemed like a good idea but just didn't work, that you 
determine is not a matter of just working out kinks, but this 
was not as good idea as it seemed. Are there measures for when 
you should look for an off-ramp?
    Dr. Persons. Right. Well, GAO best practices recommend the 
use of readiness levels, technology readiness levels and so on. 
I think one of the things here that I think could perhaps be 
used is the idea of software readiness levels and so on because 
software an algorithms are such a critical part. I think that 
has manifested itself in the recent conclusion of the field 
validation tests and so on.
    So you have these metrics for doing that, and I think 
organizationally as I believe DHS likely has is some idea about 
what is an acceptable risk of this technology or this system 
for deployment. And there are ways to measure that and just 
give your managers informed decisions so that they can 
determine the risk of something, whether or not it needs to 
move forward and--mode.
    Chairman Miller. Well that is not quite a Dana Rohrabacher 
five minutes, but I am over the traditional five minutes. And 
with that I recognize Dr. Broun for five minutes or more.

         Metrics and Timelines for Making Decisions About ASPs

    Mr. Broun. Thank you, Chairman, and I am going to dovetail 
back into what the Chairman was asking. I would like to know 
the metrics. It seems to me that we keep fooling around here 
and have excuses of not implementing a technology, and not only 
a valid technology that is not only useful but may be 
preferable over our current technology, but there are other 
things that CBP is already doing. And going back to the 
Chairman, you are talking about an off-ramp, it seems to me we 
are getting to the point of fishing or cutting bait or one of 
the two. I mean, we have got to do something. If you all would 
give us some metrics about when we can expect the decision-
making process, if you can help us to understand at what point 
do we need to pull the plug on the ASP program or implement 
something else or what have you with all of you, and I would 
like to--because I don't have a good feeling about this, 
frankly. I don't know about other Members but I would 
appreciate it if you all would give us some metrics or if you 
have them, please tell me right now. Mr. Aloise?
    Mr. Aloise. Well, you know, DHS came up with their 
``significant increase in operational effectiveness'' as their 
metric for going forward with this new equipment, and we from 
the beginning thought it was a pretty low bar. I mean, I will 
go back to what I said. You know, even if this ASP works, it is 
a marginal increase. Now, with the adjustments and thresholds, 
that margin has gotten more narrow. So what GAO's role is here 
to evaluate what DHS is doing and provide this information to 
the Congress, of course, and we have made recommendations all 
along to make improvements in the testing, in the reporting, 
but the bottom line, I have to go back to what I have said, 
once the testing is done, we need to do that cost benefit 
analysis and decide whether or not it is worth to go ahead with 
this.
    Now, it has taken longer. You know, you mentioned in 2007 
they were ready to deploy, but the Congress who has oversight 
and getting GAO involved has got us to where we are today. Now, 
where do we go from here? I assume a third round of field 
validation testing. The first round, they made adjustments. The 
second round, we may be seeing the results of those 
adjustments, and we don't know what is going to happen in the 
third round. The question is, is this equipment worth it? And 
that is a decision that DHS has to make. And I mean, we have 
got a lot of information right now, and somebody can make a 
decision or they can put this back into what we belong--where 
it should have been for a long while, and that is R&D, in 
development, and see where--what is the most you can get out of 
this promising piece of equipment. But when you know, we 
started down the path or just started down the path of 
acquisition, deployment and spiral development, they have 
called it, and it has got us to where we are today, where the 
equipment has a lot of problems, it doesn't work very well 
right now. And to take a risk and replace the equipment we have 
got now on the borders that we know works with equipment we 
don't know works, you are always going to have GAO saying, 
whoa, step back. We need to look at this again.
    So I don't know. It is kind of a long-winded answer to your 
question, but we need more information before we could come to 
a conclusion, and that has to be the cost benefit analysis.
    Mr. Broun. Another question with cost benefit analysis, how 
can you do one without first knowing whether the ASP was used 
as a primary screening tool or as a secondary screening tool? I 
think that needs to be determined, too, just doing that cost 
benefit analysis because otherwise you are just shooting in the 
dark.
    Frankly, I see the private sector developing screening 
methods without the taxpayer being on the hook for them, and we 
have this, we have spent a bunch of money and a lot of it is 
sitting in a warehouse and not being deployed and we are 
testing. Mr. Chairman, I think it might be time to have that 
offer out from everything that I can see, but I don't know.
    And I would just like to ask Mr. Owen, would you possibly 
agree with me that it is time to maybe look at other 
technologies?
    Mr. Owen. Well, again, as you mentioned, the PVTs do meet 
our needs right now. They are effective. We can handle the 
level of alarms that we have got there. Hopefully, with any 
advances through the energy windowing, they give us a little 
bit greater technology detection capabilities than we have 
right now. Whether we can say we should pull the plug or not, I 
think again from the CBP standpoint, the jury is still out. We 
need that cost benefit analysis. We need to see how much better 
these in fact perform over the technology that we have before 
we could even make a decision as to should they just be in 
secondary or should they be primary and secondary.
    But I would like to just close by saying again, through all 
of our testing, we have kept the PVTs up and running. So we 
have always had that safety net, that effective equipment that 
we know has worked so that those 27 trucks did not get through 
when the machine went down.
    Mr. Broun. Thank you, Mr. Chairman. I yield back.
    Chairman Miller. Thank you.
    Dr. Hagan. Could I respond to any of this?
    Chairman Miller. Yes. Dr. Hagan.
    Dr. Hagan. Thank you. First of all, I wanted to comment 
that the cost benefit analysis addresses both primary and 
secondary screening, so we are not pre-determining that 
outcome. Second, the ASP, what we have been talking about here 
primarily is about ASP and PVT in primary, and you know, the 
debate will rage on. As I said before, I agree that the CBA is 
the way to determine that, you know, whether that is effective 
or not and worth the money.
    The ASP operating in secondary is another matter. The 
limitations of the current system--CBP officers are using the 
current equipment as well as they possibly can. There is no 
question about that. But there are limitations to those systems 
in both primary and secondary, and let me just focus on 
secondary. In secondary, there are limitations which 
improvements to PVT cannot address. Only ASP can do that. I 
can't talk about the limitations or the changes or improvements 
of ASP compared to hand-helds in an open session. But the 
differences are dramatic. And so I think this talk of an off-
ramp would be very premature and perhaps a closed session would 
be the way to deal with that. But I would urge you to consider 
the fact that ASP has considerable application and benefit in 
secondary.
    Chairman Miller. It is not really my turn, but I do hold 
the gavel. Mr. Aloise, Dr. Persons, do you all have security 
clearances? Do you have that top secret security, the top? Are 
you familiar with all of the analyses of the comparative 
benefits of PVT and ASP and primary and secondary versus hand-
held? Are you familiar with all of that as part of the work you 
have done?
    Mr. Aloise. We are familiar with everything we have been 
shown, yes.
    Chairman Miller. Okay. Have you asked for everything?
    Mr. Aloise. Yes, we have.
    Chairman Miller. If there is something you haven't been 
shown, you have asked for it and not been shown it?
    Mr. Aloise. Right, and we don't know that that is the case 
but----
    Chairman Miller. Okay. Right. And you do understand that 
GAO is part of Congress and when they ask, we are asking and we 
need for you to give them anything they have asked for.
    Mr. Aloise. Absolutely.
    Chairman Miller. Okay. Assuming that you have seen 
everything, is there anything--if you know all the tippy-top 
secret stuff, is it really different? Is analysis a lot 
different in the way that Dr. Hagan suggests?
    Mr. Aloise. I would say this. I think you pretty much know 
the story as I have testified and GAO has reported on.
    Now, in regards to secondary, just in discussions among 
ourselves, the ASP is bigger in radiation detection size 
matters. So it is a bigger instrument than the hand-held. So 
just for that--you have longer dwell times in secondary. So 
there might be uses. There might be a possibility where it make 
sense to put it into secondary, but we still don't have all 
that information.
    Chairman Miller. Okay. What is a dwell time? I am sorry.
    Mr. Aloise. You know, the container can sit a little bit 
longer in a secondary inspection, so you have a better account.
    Chairman Miller. I see. You are not trying to move things 
through.
    Mr. Aloise. You are not driving through.
    Chairman Miller. All right. I now recognize Ms. Dahlkemper.
    Ms. Dahlkemper. Staying on this line of questioning, if it 
was used in the secondary manner, how many units would we need?
    Mr. Owen. Yeah, I don't have the date available as to how 
many secondary locations we have in all of the ports of entry, 
but it is far fewer than what we have in primary obviously. But 
even with that, the volume through secondary is relatively low. 
I mean, we have about a one percent alarm rate on the land 
border and about 2.5, 2.6 percent in seaports. So we would have 
to again look at the life cycle costs, the cost benefits as to 
how much better does it offset what it is costing us to buy 
this equipment versus the time savings or the fewer officers to 
address the secondaries.
    Ms. Dahlkemper. Would anyone else like to address that? I 
don't know if anyone else can give you a better--more answer on 
that?
    Dr. Hagan. I can give you sort of a range. Like Mr. Owen, I 
don't have the numbers in front of me, but I believe the number 
of secondary sites is on the order of 400 to 500. Not clear 
that one would put an ASP at every one of those by any means. 
But as Mr. Owen says, it is far fewer than the number of 
primary screening locations. So the----
    Ms. Dahlkemper. I am certain there would be certain points 
that would be much more crucial. Maybe some of the borders--I 
mean, I live near the Canadian border. Some of those ports of 
entry are much more crucial than others.
    Dr. Hagan. Right.
    Ms. Dahlkemper. I did want to ask, though, I did want to 
kind of go back to this helium-3 issue because I think this is 
a crucial issue even beyond this hearing today. Who is in 
charge of the interagency task force on this?
    Dr. Hagan. It is the White House. I can't remember the name 
of the organization. I can give you the name of the person. 
That is about all I could do.
    Ms. Dahlkemper. Who is that?
    Dr. Hagan. Her name is Julie Bentz, B-e-n-t-z.
    Ms. Dahlkemper. Okay. My understanding is the ASP need 
three times the helium-3 as the PVTs?
    Dr. Hagan. The way it was designed was to have even more 
sensitivity for neutrons than the PVT systems did. So we put 
helium-3 tubes in the ASP design. But if we wanted to maintain 
the same level of sensitivity as the PVT for neutrons, it would 
require the same amount of helium-3. There is nothing that 
links the neutron detection technology to whether it is an ASP 
or a PVT.
    Ms. Dahlkemper. As it is currently designed?
    Dr. Hagan. It was designed to have more sensitivity to 
neutrons than the PVT system because more sensitivity is 
better.
    Ms. Dahlkemper. So how much more helium-3 is being utilized 
in an ASP than a PVT?
    Dr. Hagan. About three times more.
    Ms. Dahlkemper. About three times?
    Dr. Hagan. What I am saying though is if we want to go back 
to the same level of sensitivity as we currently have with the 
PVT, then the amount of helium-3 that would be required for an 
ASP unit would be the same as for a PVT unit.
    Ms. Dahlkemper. Well, then why would we have to change the 
unit if the sensitivity wasn't increased?
    Dr. Hagan. Because this is for neutron detection only.
    Ms. Dahlkemper. Okay.
    Dr. Hagan. There is another part of the system that detects 
gamma rays, and that is the part that is different. So maybe I 
should say that the difference between an ASP and a PVT is the 
gamma ray detection part. In one case, with the PVT, it is a 
big block of plastic, and in the case of an ASP it is chunks of 
sodium iodide. But in both cases, the neutron detection part is 
done with tubes of helium-3 gas. And that part is essentially 
the same with both systems.
    Ms. Dahlkemper. So you could redesign it so it would use 
the same amount of helium-3 and not really jeopardize the 
security?
    Dr. Hagan. Right. You wouldn't even have to redesign it. 
You could just take the tubes out, cut the number of tubes down 
by pulling them out.
    Ms. Dahlkemper. Okay.
    Dr. Hagan. It would be simple to do that.
    Ms. Dahlkemper. Okay. That answers my question. Thank you. 
I yield back.
    Chairman Miller. Thank you. I thought there was a Steve 
Rothman sighting, but that was perhaps a false positive. I 
think we now had sufficient questions for now at least. We may 
have an additional hearing. On this, you know, we do have--all 
Members have top-secret clearance. We have in this building and 
in the Cannon Building we have--leaded walls and Members go in 
and have to drop off their Blackberries and their cell phones 
before they go in, and they bring down a cone of silence and we 
hear all the top-secret stuff. And if we need to do that, we 
will, but if we go through that exercise and don't hear 
anything, it is going to be pretty irritating. So let us not do 
that right away, but before we close the hearing out, Dr. 
Hagan, can you tell us exactly where you think we will be on 
April 1? Will we have completed successful field tests, will 
there be a cost benefit analysis, where will we be on April 1? 
Three years ago the then-head of your unit said let us get this 
stuff deployed right now. Where will we be in April?
    Dr. Hagan. Because of the helium-3 issue, I cannot give you 
an answer about the cost benefit analysis. We know how 
important it is, and we may be able to do something, but 
without knowing how much the helium-3, or the neutron detection 
part of the system will cost, it makes that difficult. But we 
are looking at ways to try to get around that. Going back to 
field validation--well, maybe I should let Mr. Owen respond 
about the schedule. But by April, we will be, I suspect, in 
some phase of field validation or operational test.
    Mr. Owen. In terms of the field validation, we have those 
two critical areas that we have been discussing. We feel those 
have been addressed by DNDO. There are a few other minor issues 
that we are working through. Our objective is to restart field 
validation in the first quarter of calendar year 2010. So 
within the next month, we should restart field validation for a 
third round and go forward from there.
    Chairman Miller. Okay. Before we bring this hearing to a 
close, I want to thank our witnesses for testifying, and I 
guess it is a little early to say I look forward to seeing you 
the next time. Under the rules of the Committee, the record 
will remain open for two weeks for additional statements from 
the Members and for any answers to any follow-up questions the 
Committee may have for the witnesses. The witnesses are excused 
and the hearing is now adjourned.
    [Whereupon, at 2:27 p.m., the Subcommittee was adjourned.]
                               Appendix:

                              ----------                              


                   Answers to Post-Hearing Questions


[SKIP PAGES = 000]

Responses by William K. Hagan, Acting Deputy Director, Domestic 
        Nuclear Detection Office, Department of Homeland 
        Security; and Todd C. Owen, Acting Deputy Assistant 
        Commissioner, Office of Field Operations, U.S. Customs 
        and Border Protection, Department of Homeland Security

Questions submitted by Representative Paul C. Broun

Questions for Dr. Hagan, and Mr. Owen:

Q1. LDo you believe computer modeling through replay tools, 
injection studies, or regression tools are enough for 
certification, or do you believe real-world field testing is 
required?

A1. Certification requires that the ASP system be both 
effective and suitable for the operation it is designed to 
perform and that it meets the significant increase in 
operational effectiveness (SIOE) criteria. Each of the elements 
listed in the question play a part.

    Real-world testing is vital. During the ASP program the 
systems have undergone or will undergo real-world and near-real 
world testing during controlled performance tests at the Nevada 
Test Site (NTS, real-world targets of interest), Integration 
testing (real-world interface and interoperability testing), 
and both Field Validation activities and Operational Testing 
(real-world stream of commerce and Customs Officer 
involvement), as well as any initial deployments. Real-world 
events allow the system to be exposed to a variety of traffic, 
cargo and radiological conditions that cannot be duplicated in 
any other way. Because real-world data is so important, it is 
vital that the data relating to traffic, cargo and radiological 
conditions be collected so that the impact of certain system 
changes can be evaluated without having to re-experience all 
real-world environments. For ASP systems all of this data is 
collected in what is known as ICD-1 files.
    Replay tools provide the developer with an opportunity to 
re-create the real-world sensor data from previous data 
collection events (ICD-1 files), and to explore how changes in 
systems parameters would have impacted the results from those 
events. Replay tools are not computer modeling. These types of 
tools are used extensively for many types of systems, 
especially when data collection/real-world testing is 
expensive, dangerous, or time consuming. In this case, Replay 
tools can determine the performance of the detector system for 
a previous data collection event under various system parameter 
changes, such as threshold settings. In another example, Replay 
tools are used to determine if the system can continue to 
perform if one or more of its elements are faulty. Since ICD-1 
data files are organized by detector type, the replay tools can 
be used on modified ICD-1 files that have had this data 
removed. These sorts of regression analysis are extremely 
useful and can be used to provide information toward a 
certification decision. Injection studies are a way of 
extending the types and amounts of threat sources into stream 
of commerce data (i.e., ICD-1 files) so that system response to 
a broad spectrum of sources can be estimated. Injection studies 
are a type of computer modeling, and should therefore be 
checked against real, controlled experiments to validate that 
the injection tools closely match the output of real systems 
given the same input. Injection tools are useful to point 
toward potential improvements in systems performance, and 
should be used during continuous improvement planning--For 
certification, the best approach to confidently understanding 
system performance for threat sources is to perform 
measurements that span the threat space as much as practicably 
possible.

Q2. LHas other ASP equipment been developed outside of this 
process by the private sector?

A2. DNDO is aware of other vendors, outside the ASP program, 
that have continued to develop spectroscopic portals.

Q3. LHow much money has DNDO spent on ASP R and D to date?

A3. $181M.

Q4. LWhat is the proper role for DNDO in this process?
    Should DNDO be simply testing moderate changes to 
Commercial Off The Shelf Technology, or should it be focusing 
on next generation technology?

A4. The Congressional and Executive guidance establishing DNDO, 
specifically the SAFE Port Act of 2006, the National Security 
Presidential Directive 43, and Homeland Security Presidential 
Directive 14, charge DNDO with maturing ``transformational 
technologies'' as well as to ``develop . . . and enhance 
national nuclear and radiological capabilities.''

Q5. LWho should be testing COTS, CBP or DNDO?

A5. Three entities within DHS cooperate in the testing of COTS 
(and GOTS) systems: DNDO, the end-user (in the case of ASP this 
would be CBP), and S&T. CBP must ensure that the testing of 
systems incorporates realistic operational scenario, DNDO must 
ensure that the testing properly addresses the detection and 
identification requirements of the system within the GNDA and 
also must ensure that any developmental testing has been 
completed prior to Operational Testing. S&T is the DHS 
Operational Testing Authority and as such must assess the 
suitability and effectiveness of the final system configuration 
in real operational environments.

Q6. LIn addressing previous problems indentified in Field 
Validation Testing, has the agency changed the underlying 
algorithms that were tested at the Nevada Test Site (NTS)?

A6. No.

Q7. LWill simply changing isotope thresholds be enough to fix 
these problems, or will algorithms need to be changed?

A7. As demonstrated by replay and regression testing, we are 
convinced that threshold adjustments, while reducing 
sensitivity, will reduce the false alarm rate while maintaining 
adherence to the ASP specification.

Q8. LIf algorithms are changed, will the equipment have to go 
back to the NTS?

A8. If the Department determines that changes, if they are to 
occur, warrant a return, to NTS, then such testing will be 
conducted.

Q9. LIf so, how much will this cost and how long will it take?
    Is the Department only changing threshold levels (and not 
changing algorithms) simply because it does not want to go back 
to NTS?

A9. The cost and schedule of such tests, if needed, would be 
dictated by the type of testing required. ASP thresholds were 
changed because the algorithm is performing well, and because 
no reasons to make changes to the algorithm have been 
identified. The thresholds were changed because real-world 
field validation showed that they were not previously set in 
the best configuration. The Department has not intentionally 
avoided making any necessary changes to the algorithm to avoid 
returning to NTS.

Q10. LAt our previous hearing, we discussed the possibility of 
deploying the Low Rate Production (LRP) ASPs that are currently 
in storage in tandem with PVTs in order to get more data.
    Does the Department currently have the authority to do 
this?

A10. The FY 2010 Appropriations Bill, and accompanying 
Conference Report, addresses low rate initial production ASP 
systems. Specifically, H.Rept. 111-298 states that, ``the 
conferees encourage DNDO to undertake deployment of low rate 
initial production ASP systems, as appropriate, and use data 
from such deployments to inform future portal monitor 
decisions.''

Q11. LHas the Department made any progress on this front?

A11. The Department is working through the logistics of 
completing operational testing to get to Secretarial 
certification before making an LRIP deployment decision.

Q12. LHow much would this cost and how long would it take?

A12. There are eight (8) LRIP systems available for deployment. 
Approximately $3 million would be needed for installing and 
maintaining the systems for 1 year. Installation of the 8 
systems would take place over a six (6) month window. Data 
collection and data analysis would take approximately 6-12 
months and would cost $100K-$200K per system. Total for all 
activities would be less than $5 million.

Q13. LCBP issued a RFI for ASPs several years ago only to have 
it rescinded by UNDO after the office was formed.

    In retrospect, do you believe the Request For Information 
(RFI) should have gone forward, with an eventual Request for 
Proposal (RFP) after that?

A13. Given the urgency to address perceived limitations in 
fielded systems at the time, DHS still believes that those 
decisions were appropriate. It is difficult to gauge what may 
have come from an RFI/RFP process from 2003. CBP believes that 
the success of any research and development program, leading to 
possible deployments of next generation equipment, must begin 
with requirements defined by the end user/operator, and robust 
field evaluations/development.

Q14. LDo you believe the requirements developed by DNDO will 
create a system that can stand up to a cost-benefit analysis?

A14. An initial cost-benefit analysis, based on performance 
assumptions and systems requirements developed by DHS, 
warranted a decision to proceed with the program. Performance 
testing has shown potential benefits for ASP systems over 
current systems, particularly in secondary screening. However, 
the Department will not make any predictions as to the results 
of a final cost-benefit analysis, based on performance data, 
until such all testing and analysis is complete

Q15. LShould the cost-benefit analysis consider upgrades in 
current Radioisotope Identification Device (RIID) technology 
and Polyvinyl Toluene (PVT) ``energy windowing'' as options?

A15. No. The CBA will assess the cost and benefits of the ASP 
vs. the current system (which currently utilizes energy 
windowing). Should the ``current system'' change before the CBA 
is complete, the CBA would be adjusted accordingly.

Q16. LHow is the Department responding to the recommendations 
of GAO and the National Academy of Sciences?

A16. DNDO has appropriately incorporated or responded to the 
recommendations of both organizations as follows.

    a. Responding to the GAO

    Recommendation regarding significant improvement to 
operational effectiveness (SIOE): The GAO Recommended DNDO 
assess whether ASPs meet SIOE criteria based on valid 
comparison with PVT's full performance potential, including use 
of energy windowing to increase sensitivity to threats. DNDO 
has structured ASP testing to validate that ASP meets SIOE 
criteria. The SIOE criteria require that the comparison be made 
against the ``current system.'' DNDO will and should follow 
this path. We stress that the current PVT based system contains 
energy windowing algorithms that were updated in 2007. DNDO has 
also funded additional research at both Pacific Northwest 
National Laboratory and Johns Hopkins University Applied 
Physics Laboratory to further investigate the potential to 
improve performance of PVT systems based upon algorithm 
enhancements, including new approaches to energy windowing. On 
a side note, energy windowing techniques may also be applied to 
spectroscopic systems like the ASP, which may enhance 
performance there as well.
    Recommendation to revise ASP testing and Certification 
schedules: The GAO recommended altering schedules to allow 
sufficient time for review and analysis of results from final 
testing including injection studies. The ASP program schedule 
incorporates time following completion of Field Validation and 
Operational Testing of
    ASP, before presenting ASP to the DHS Acquisition Review 
Board for approval and then to the DHS Secretary for 
certification. This time interval prior to a decision allows 
all stake holders to thoroughly review test results and for 
proper consideration of the ASP cost-benefit analysis.

    b. Responding to the NAS

    Recommended approach for testing and evaluation: The NAS 
recommended an ``iterative approach with modeling and physical 
testing complimenting each other.'' In this approach, ``theory 
and models of threat objects, radiation transport, and detector 
response'' should be used to ``simulate performance and predict 
outcome,'' using ``physical experiments to validate the 
predictions and allow critique of the models.'' We believe that 
the ASP program, through development activities carried out by 
vendors, to test programs executed by the government, to replay 
tools and injection tools used for analysis, has followed the 
spirit of this recommendation. The performance of the ASP 
systems in controlled performance tests has mirrored 
predictions extremely well. The issue that remains for ASP is 
one of threshold settings against real-world cargo which must 
be determined through empirical evidence.
    Recommended Approach of the Procurement Process: The NAS 
recommended that DNDO employ an ``iterative'' approach for the 
procurement process. Rather than a ``onetime certification 
decision in the near future,'' the NAS recommended a continuous 
process of improvement and adaptation of the system, beginning 
with the deployment of LRIP systems. We agree with the NAS in 
principle and are evaluating this approach. This approach is 
consistent with the ASP Acquisition Plan and will be reflected 
in actual deployments when they begin.
    Recommended Approach for Cost-Benefit Analysis: The NAS 
Committee recommended that DHS not proceed with further 
procurement until ``ASP is shown to be a favored option in the 
cost-benefit analysis.'' This recommendation is incorporated 
into the governance structure of the ASP program. Additionally 
the NAS made recommendations about the nature of the CBA 
itself, stating that it ``needs to include three key elements: 
(1) a clear statement of the objectives of the screening 
program: (2) an assessment of meaningful alternatives to 
deploying ASPs; and (3) a comprehensive, credible and 
transparent analysis of in-scope benefits and costs.'' We 
continue to agree with the NAS that a complete CBA is necessary 
before any decisions are made and the elements suggested by NAS 
are factored into the CBA.

Q17. LSetting aside the increased costs of ASPs over the 
current PVT/RIDD combination, how much more money will ASP 
Operations and Maintenance (0 and M) cost CBP?

A17. Current PVT RPM units cost approximately $12,000 per year 
to operate and maintain. While CBP has not seen the final ASP 
maintenance cost estimate, this figure is expected to range 
from $65-100k each year per unit.

Q18. LGiven dwindling budget estimates, how will these 
increased O&M costs affect overall security?

A18. If no increase in O&M funds accompanies the deployment of 
ASPs, CBP would have to secure funding from other programs or 
staff positions.

Q19. LWill CBP even be able to operate ASPs in the current 
budget environment if they are certified?

A19. CBP anticipates that the appropriate O&M funding would be 
included should the ASPs be deployed.

Q20. LIf the ASP systems are certified and deployed, will the 
Department be able to find cost savings?

A20. The deployment of ASPs will result in an overall increase 
in life cycle costs.

Q21. LDoes the ASP system require less CBP personnel to 
operate?

A21. There is no appreciable savings in required personnel over 
the entire deployed architecture. In primary scanning 
operations, for example, land border crossings would not see a 
staff reduction. In secondary, the ASPs may require less 
physical labor and less time to operate; however, a CBP Officer 
will still be required to operate the ASPs. It should be noted 
that the ASP will not eliminate the need for RIIDs which will 
be used for more detailed inspections and alarm adjudication.
    Only very limited reductions likewise would be seen in 
seaport deployments.

Q22. LDoes the ASP system allow for greater flow of commerce, 
or would other factors at ports and border crossings still 
impede commerce?

A22. No appreciable gains to the flow of commerce would be 
realized over the entire deployed architecture. At land border 
crossings, impediments to the flow of commerce are due to non-
radiation scanning processes (i.e.--passport control and 
antismuggling inspections). At seaports, the flow of commerce 
is mostly determined by individual terminal procedures.
                   Answers to Post-Hearing Questions
Responses by Gene Aloise, Director, Natural Resources and Environment, 
        U.S. Government Accountability Office (GAO); Todd C. Owen, 
        Acting Deputy Assistant Commissioner, Office of Field 
        Operations, U.S. Customs and Border Protection, Department of 
        Homeland Security; and William K. Hagan, Acting Deputy 
        Director, Domestic Nuclear Detection Office, Department of 
        Homeland Security

Questions submitted by Representative Paul C. Broun

Questions for Mr. Aloise, Dr. Hagan, and Mr. Owen:

Q1.  Do you believe computer modeling through replay tools, injection 
studies, or regression tools is enough for certification, or do you 
believe real world field testing is required?

A1. The current campaign of ASP testing, which started in early 2008, 
involved several different types of testing each for its own purpose. 
The August 2008 testing at the Nevada Test Site (NTS) was designed to 
test sensitivity of the ASPs (and PVTs) against actual physical sources 
of special nuclear materials (e.g., uranium and plutonium). For the 
current campaign of testing, the NTS phase of testing was particularly 
important given that the ASPs were expected to have an improved 
capability of detecting special nuclear materials, and, for security 
reasons, NTS was the only place where DNDO could fully physically test 
the ASPs capability of detecting these very dangerous materials.
    To this point, the field validation tests have shown an 
unacceptable level of false alarms for the presence of certain nuclear 
materials. To resolve this, DNDO officials told us that they have made 
changes to the thresholds of the ASP, but not to the underlying 
algorithms (or software) that allows these machines to detect 
radiation. As we testified, this change makes the ASP less capable of 
detecting certain nuclear materials, raising questions about whether 
the ASPs represent a significant improvement in operational 
effectiveness over the PVTs in detecting certain nuclear materials.
    While DNDO officials told us that they were not making changes to 
the ASP algorithms, the report of the Field Validation Advisory Panel 
stated that ``correcting algorithm issues will change ASP referral 
rate'' suggesting that there will be future changes to the ASP 
algorithms. So, there is some confusion about exactly what changes will 
need to be made in order to successfully complete field validation 
testing. This represents a subtle, but important distinction--we regard 
``algorithm corrections'' as algorithm changes and not simple threshold 
adjustment.
    In our view, prior to any certification decision to move forward 
with procurement of ASPs, there should be additional testing at NTS 
against actual physical sources of special nuclear materials in order 
to (1) understand exactly how the modified ASPs performance compares 
against the performance of PVTs in detecting certain nuclear materials, 
and (2) assure that there are not any unintended consequences in 
detection capabilities resulting from the modifications made to the 
ASPs since the August 2008 testing at NTS.\1\ This is to say, at this 
stage in the development of the ASP, major systems acquisition best 
practices require performance testing with actual special nuclear 
material because of the expected corrections to the software (beyond 
simple threshold adjustment).
---------------------------------------------------------------------------
    \1\ Without tests at NTS we will not have True Positive or False 
Negative data with the new software.

Q2a.  Has other ASP equipment been developed outside of this process by 
---------------------------------------------------------------------------
the private sector?

A2a. Based on the number of proposals submitted to DNDO's initial RFP 
for the ASP, it is quite possible that spectroscopic radiation 
detection systems have been developed outside of DNDO sponsorship. The 
issue here is determining the extent to which those COTS vendors have 
focused development on spectroscopic radiation detection systems that 
could operate in a high-impact port environment (large format and high 
traffic throughput) in support of CBP's mission. Moreover, only DNDO's 
two developers have been afforded the ability to test their systems 
with actual special nuclear material at the NTS.

Q2b.  How much money has DNDO spent on ASP R&D to date?

A2b. DNDO would be the best source for this information.

Q2c.  What is the proper role for DNDO in this process? Should DNDO be 
simply testing moderate changes to Commercial off the Shelf Technology 
or should it be focusing on next generation technology?

A2c. We believe the Secretary of DHS should determine whether DNDO 
should be a technology development or a major systems acquisition 
organization. If she chooses to keep both functions within the 
organization, then the Secretary should establish a strong separation 
and independent operational construct between the technology 
development and major systems acquisition missions. Ultimately, DNDO's 
goal should be toward addressing the mission needs of the end-user (CBP 
in the case of the ASP program). Organizational best practices hold 
that DNDO should regularly assess the extent to which these needs may 
be met with existing commercial-off-the-shelf technologies, as well as 
the nature and extent of development necessary for emerging or next-
generation technologies. In the case of ASPs, the mission need has 
become less clear based upon the lessening of the criteria for a 
``significant increase in operational effectiveness.'' This is to say, 
the primary mission need DNDO put forward was to better detect certain 
special nuclear materials, and the expectation was established that 
ASPs would vastly outperform PVTs in this area as manifested by a 
dramatic reduction of referrals to secondary screening due to NORM. 
However, recent testing has raised questions about both the ASPs 
capabilities to reliably and efficiently detect these materials as well 
as the exact significance of the increase in operational effectiveness 
of these next generation systems that are 2.5 times more expensive per 
unit than the current generation of technology. Moreover, it is not 
clear that the PVT technology has reached its limit of performance 
based upon energy windowing algorithms or other advances in materials 
science for nuclear detection.

Q2d.  Who should be testing COTS, DNDO, or CBP?

A2d. GAO sees three parts of a testing regime for these systems: (1) 
software development testing, (2) physical performance testing at NTS 
(supported by follow-up modeling and simulation work), and (3) field 
validation testing. In our view, the first is managed by DNDO and its 
contractors with independent testing and evaluation done by a federally 
funded research and development center (FFRDC), university affiliated 
research center (UARC), or the National Institute of Standards and 
Technology (NIST). The second is also managed by DNDO in partnership 
with the National Nuclear Security Administration's staff at NTS as 
well as the OT&E group of DHS and/or NIST (simulation work can be 
supported by national labs or UARCs). The third should be managed by 
CBP with support from DHS OT&E as the end-user since they are 
responsible for screening operations at a working port of entry.

Questions for Mr. Aloise and Dr. Hagan:

Q3a.  In addressing previous problems identified in Field Validation 
Testing, has the agency changed underlying algorithms that were tested 
at the Nevada Test Site (NTS)?

A3a. As discussed above, while DNDO officials told us that they were 
not making changes to the ASP algorithms, the report of the Field 
Validation Advisory Panel stated that ``correcting algorithm issues 
will change ASP referral rate'' suggesting that there will be future 
changes to the ASP algorithms. So, there is some confusion about 
exactly what changes will need to be made in order to successfully 
complete field validation testing.

Q3b.  Will simply changing isotope thresholds be enough to fix these 
problems, or will algorithms need to be changed?

A3b. Only additional testing can answer this. However, once the problem 
with false alarms is fixed, the ability of the ASPs to detect certain 
nuclear materials will be diminished. Understanding whether the ASP can 
detected certain nuclear materials better than the PVTs will be an 
important part of deciding whether to move forward with procurement of 
the ASPs.

Q3c.  If algorithms are changed, will the equipment have to go back to 
the NTS?

A3c. In our view, prior to any decision to move forward with 
procurement of ASPs, there should be additional testing at NTS against 
actual physical sources of special nuclear materials in order to (1) 
understand exactly how the modified ASPs performance compares against 
the performance of PVTs in detecting certain nuclear materials, and (2) 
assure that there are not any unintended consequences in detection 
capabilities resulting from the modifications made to the ASPs since 
the August 2008 testing at NTS.

Q3d.  If so, how much will this cost and how long will it take?

A3d. DNDO would be the best source for this information. However, we 
were previously told by DNDO that NTS testing costs about $500,000 per 
week. In our view, this testing, while expensive, would be worthwhile 
prior to DNDO committing billions of dollars toward procurement of the 
ASPs.

Q3e.  Is the Department only changing threshold levels (and not 
changing the algorithms) simply because it does not want to go back to 
NTS?

A3e. DHS would be the best source for this information.

</pre></body></html>
